            U.S. DEPARTMENT OF THE INTERIOR
            Office of Inspector General




                         Ev aluatio n




             Conduct
                         &
                   Discipline




No. E-EV-MOA-0068-2002                    June 2004
                   United States Department of the Interior
                                     Office of Inspector General
                                            Eastern Region Audits
                                              381 Eldon Street
                                                  Suite 1100
                                        Herndon, Virginia 20170

                                                                            June 24, 2004

Memorandum


To:            Secretary

From:          Earl E. Devaney
               Inspector General

Subject:       Report on Evaluation of Conduct and Discipline


       With this memorandum, I am transmitting the report on our Evaluation of Conduct and
Discipline at the Department of the Interior (DOI).

        During the course of other work conducted by the Office of Inspector General (OIG),
OIG auditors and investigators uncovered numerous incidents in which misconduct by DOI
employees was not addressed appropriately – or at all – by DOI management. Upon hearing of
these incidents, I became concerned about the entire conduct and discipline process in the
Department, and initiated this evaluation.

        We found a number of shortcomings – both real and perceived – in the Department’s
conduct and discipline process. Among our findings is a clear perception by employees that there
is a significant amount of misconduct that is not being reported and that discipline is
administered inconsistently and unfairly throughout the Department. Although this situation has
evolved over many years, I am hopeful that the results of our evaluation and our
recommendations provide you with the information necessary to correct the underlying
shortcomings in the conduct and discipline process at the Department.

        Although many, if not most, of our findings in this report pre-dated your tenure as
Secretary, I believe our recommendations in this report, coupled with our recent report and
recommendations regarding ethics at the Department, present an opportunity for you to create a
legacy that will positively and profoundly impact the employees of this Department, improving
the efficiency and the morale of the workforce.

        Upon issuing this report, we will also post the results of our survey to our Web site and
notify all DOI employees of their availability. Although a response to this report is not required,
we would appreciate being informed of any actions you take in regard to our recommendations.
Introduction
In any organization, established rules of conduct that provide guidance to individuals as
well as the entire organization are integral to the general welfare of its people. Along
with these rules, an organization should have a fair, equitable, and consistent disciplinary
process to correct inappropriate conduct at all levels.

Thus, conduct and discipline are the twin pillars of a healthy organization providing a
strong foundation for a cohesive and coherent work environment. Encouraging and
supporting the development of a strong work ethic and a sense of fair play in
relationships among all employees is vital to the stability of any organization. An
organization that does not make every effort to instill these values will ultimately suffer
the consequences.

One of the many responsibilities of the Office of Inspector General is to provide
leadership to the Department of the Interior (DOI) in addressing employee misconduct
and promoting the consistent and equitable administration of discipline. We undertook to
evaluate conduct and discipline within DOI because we were concerned that (1)
employees at all levels did not have adequate knowledge about standards of conduct and
the consequences of misconduct and (2) some misconduct was not being addressed
consistently, and some not at all. The ramifications of inconsistent discipline within and
among the bureaus are self-perpetuating, and without intervention will become
increasingly problematic for DOI.

Our evaluation was comprehensive. We undertook a thorough and far-reaching
evaluation of conduct and discipline. To accomplish our evaluation we focused on the
depth and breadth of employees’ perceptions and attitudes about misconduct and the
application of discipline (see Figure 1). Specifically, we:

   •   conducted an employee survey, reaching out to four position categories;
   •   reviewed historical data on disciplinary actions;
   •   interviewed employees individually and in group meetings; and
   •   evaluated and benchmarked DOI-issued guidance on conduct and discipline with
       other agencies’ guidance.




                                            -1-
                       Figure 1




Our evaluation revealed that the DOI suffers systemic conduct and discipline problems.
Our recommendations to resolve these problems include: (1) training managers and
employees on expectations of appropriate conduct, (2) holding managers accountable for
addressing conduct and discipline appropriately, and (3) developing and imposing
instructive and consistent guidance DOI-wide.

Our evaluation provides management with information regarding employees’ perceptions
as well as issues requiring management’s attention. Employees’ perceptions of how
misconduct and discipline are handled have a major effect on their view of the
workplace. If those perceptions are negative, the result will be a suspicious and
unhealthy work environment. On the other hand, if employees view their workplace as
fair and just, their conduct – both public and private – is more likely to be influenced in a
positive way.

To develop an effective conduct and discipline program, DOI’s treatment of misconduct
issues must be consistent at all levels. Managers should conduct themselves in a manner
consistent with agency policies and by doing so encourage employees to emulate
principled behavior. Ultimately, an organization—whether it be public or private
sector—is often judged on the behavior of a few individuals. DOI management should
take every opportunity to demonstrate good conduct and promptly correct misconduct –
imposing discipline when appropriate – when it occurs in the workplace.

The details of our evaluation follow.




                                            -2-
Our Approach
To gain a better understanding of DOI employees’
perceptions of conduct and discipline,
a significant part of our evaluation focused on
personal interviews, group meetings, and an
extensive survey. Overall, employees’ responses to
all three were very positive. In fact, the response to
our survey was unprecedented in our experience,
with more than one out of every three persons
surveyed responding. The results, however, were
both unsettling and profound.

According to respondents, DOI’s disciplinary
program is ineffective because of employee
discontent, employee perceptions, and poorly applied policies and procedures. Four
broad themes emerged: (1) underreporting of misconduct by employees; (2) lack of
overall management support for and willingness to resolve conduct and discipline issues;
(3) random, selective, and inconsistent enforcement; and (4) ineffective training and
guidelines both for managers and employees.

We conducted this evaluation in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.

Personal Interviews and Group Meetings

We conducted 92 personal interviews and held 22 group meetings at 39 separate
locations with headquarters, regional, and field employees from each of the eight bureaus
and the Departmental Offices.

We interviewed managers, human resources personnel, attorneys, union representatives,
equal employment opportunity personnel, and high-ranking DOI officials. In addition,
we obtained the observations and opinions of employees who attended voluntary,
anonymous meetings at 22 of the 39 locations. More than 400 employees attended these
group meetings, which were held exclusively for the “rank and file.”

Participants in our group meetings revealed that they felt trapped—afraid to complain
about the workplace environment or expose poor administration and employee
misconduct. According to one participant, “If you tell management what they don’t want
to hear, you’re punished. There’s little or no confidentiality.”

Others were so discouraged and bitter that they openly expressed suspicion and
skepticism about our intentions for meeting with them and about the evaluation overall.
One meeting participant explained, “We live in a culture of fear.” Many participants
stated that they feared retaliation by management and the possibility of working in a



                                            -3-
hostile environment if they shared their perceptions with us. Comments such as “The
‘hatchet people’ can’t wait to get rid of someone” were not atypical.

During our interviews and group meetings, we repeatedly encountered a sense of
intimidation and a reluctance to disclose misconduct on the part of DOI employees. We
also identified issues related to employee perceptions, supervisor attitudes, misconduct,
and disciplinary practices that call for immediate attention.

DOI-wide Employee Survey

We attempted to reach the greatest number of employees possible by creating a first-of-
its-kind, comprehensive, and statistically valid survey. The survey was voluntary,
anonymous, and stratified by four position categories (supervisory, non-supervisory,
human resources personnel, and Solicitor attorneys) to accurately represent the
participants in the disciplinary process throughout DOI. The survey was sent to over
25,000 employees; 9,340 employees responded, an overall response rate of 37 percent.
This high response rate maximized the accuracy of our statistical findings, producing a
margin of error of plus or minus 1.1 percent.

The survey provided a confidential sounding board for employees to share their personal
opinions and perceptions without fear of reprisal. In general, the survey focused on
recurring issues we heard about in our personal interviews and group meetings: (1)
employees’ misconduct is underreported, (2) disciplinary actions are administered
inconsistently, (3) there are internal hurdles to imposing discipline, and (4) DOI
employees do not have adequate knowledge, experience, or training on conduct and
discipline.

Case File Review and Benchmarking

We reviewed 154 disciplinary action files at 11 locations to determine how the actions
were processed and the results of those actions. In 96 cases, the actions resulted in
suspensions or removals. On average, these disciplinary actions were completed within
116 days from the date of misconduct. However, 30 cases took over 4 months to
complete, and in one regional office, 6 of the 15 actions reviewed had been abandoned
because supervisors or human resources personnel failed to follow up.

We also benchmarked DOI’s guidance on conduct and discipline with the guidance of
seven other federal agencies1 to identify best practices and to determine whether DOI’s
approach was similar to other federal agencies.




1
  Federal Aviation Administration (FAA), National Aeronautics and Space Administration (NASA), Small Business
Administration (SBA), Department of Agriculture (USDA), Department of Commerce (DOC), Agency for
International Development (USAID), and Environmental Protection Agency (EPA).


                                                     -4-
Results in Brief
Our survey and interviews revealed that employees perceived misconduct as occurring
far more frequently than reported. Only 36 percent of respondents stated that they would
report misconduct under all circumstances. The number one reason given for not
reporting was, “Nothing will be done by my supervisor.” More than one in four
respondents said they feared reprisal or retaliation – from peers and supervisors – if they
were to report misconduct.

We believe these responses reveal an underlying failure of DOI management to confront
issues of conduct and discipline. For example, some supervisors stated that they did not
take disciplinary actions because their own management would not support their actions
or would mitigate them unacceptably. Sixty-four percent of supervisors admitted that
they had not taken disciplinary action when warranted. Unfortunately, this sends a
message that DOI is at least indifferent to, and at worst, tolerant of misconduct.

According to respondents, discipline is administered
selectively and inconsistently. Over one-third of the
respondents believed that discipline for misconduct
depended on who committed the offense, rather than
on the offense itself. Forty-six percent of
respondents stated that discipline was administered
fairly only “sometimes,” if ever.

Many respondents stated that management and employees lack basic knowledge of
conduct requirements and the disciplinary process. Sixty-nine percent of human
resources personnel said managers were not adequately trained in disciplinary actions,
and 52 percent of attorneys who worked with bureau managers on disciplinary actions
were not satisfied with the managers’ knowledge of conduct and discipline issues. Fifty-
one percent of the supervisors actually agreed that they need training on how to discipline
employees.

Many employees also acknowledged their own need for training in conduct and
discipline. In 13 of the 22 group meetings, employees said they received little or no
training or orientation on employee conduct requirements and DOI’s disciplinary
program.

Three of the previously mentioned themes converged on a single, overriding effect: The
failure of DOI’s disciplinary program has resulted in the belief by the majority of our
respondents that their work environment is unfair. Participants at 13 of the 22 group
meetings went even further, saying that they felt trapped in a hostile work environment
(see Figure 2).




                                           -5-
                          Figure 2




Ultimately, we concluded that discipline – when it is administered is, for the most part,
administered appropriately. That being said, however, we agree with employee-
respondents that management often fails to administer discipline when warranted. Given
the state of training and guidance, DOI faces a likelihood that even if discipline were
administered more frequently, it would be done inconsistently, putting DOI at risk.

Clearly, employees perceive the disciplinary process as biased and unfair. DOI has an
opportunity to correct a very fundamental weakness in the fabric of its structure by
implementing the recommendations that emanate from this review.


Conduct
Conduct: What is it? For the purpose of our discussion, conduct is a standard of personal
behavior based on moral principles. Simply put, it is knowing “right” from “wrong” –
and doing what is right.

As federal employees, we have a responsibility to the U.S. government and its citizens.
We are expected to place our loyalty to the Constitution, the laws, and ethical principles
of this country above private gain. This obligation of public service is reiterated in DOI’s
standards of conduct. Specifically, DOI employees are expected to maintain high
standards of honesty, integrity, impartiality, and conduct to ensure the proper
performance of government business and the continual trust and confidence of citizens in
their government. Therefore, if DOI employees become aware of misconduct, they have
an obligation and duty to inform the appropriate authorities, including OIG, which is
responsible for investigating allegations made by employees concerning fraud, waste, and
abuse.




                                           -6-
Rather than upholding and advancing the standards of conduct DOI-wide and promoting
action to correct misconduct, we believe the current DOI conduct and discipline process
perpetuates inaction, which, in turn, erodes employee confidence.


Misconduct
If conduct is defined as knowing and
doing what is right, then we can assume
that the converse is true: misconduct is
knowing and doing that which is wrong.

Since there is no incentive for self-
disclosure by employees who engage in
misconduct, the burden and responsibility
of reporting misconduct falls upon those
individuals who observe it. To effectively
address incidents of misconduct, DOI
must create an environment in which
employees feel safe in reporting
misconduct to appropriate authorities and
without fear of reprisal by superiors. The
failure of DOI to effectively address
misconduct ultimately erodes its ability to
accomplish its overall mission.

In this section, we present details of
employees’ perceptions regarding the
occurrence and reporting of misconduct, in
the form of data from our survey,
interviews, and group meetings.

Our survey and interviews revealed that
employees observe misconduct far more
frequently than they reported it. In fact, if
the results of our survey were to translate
into actual incidents, over 25,000 of the 60,000 DOI employees observe misconduct.2

According to our survey, 42 percent of respondents had observed misconduct in their
workplace. Surveyed employees in the Bureau of Indian Affairs (BIA) reported an
alarming 63-percent observation level of misconduct. Observed misconduct in all other
bureaus ranged from 29 percent to 44 percent.




2
    Total does not include part-time or seasonal employees.


                                                     -7-
An equally alarming percentage of surveyed employees DOI-wide, 28 percent, believed
that no disciplinary action occurred for the misconduct they observed, while 37 percent of
employees in BIA believed that no discipline is administered for misconduct.

The frequency with which employees observed misconduct combined with the
percentage of employees that did not expect misconduct to be disciplined in their
workplace indicates that employees do not report misconduct to supervisors, that
supervisors take little or no disciplinary action, or both. Surveyed employees expressed
their reluctance to report misconduct with concerns that nothing would be done, fear of
reprisal or retaliation, and an unwillingness to get a co-worker in trouble or to get
involved. Some employees simply said it was not their responsibility.

Fortunately, a number of surveyed employees reported that nothing deters them from
reporting misconduct, notably the U.S. Geological Survey (USGS) and National Park
Service (NPS) with 46 percent and 41 percent, respectively. However, 39 percent of
DOI employees overall responded that management action or inaction is conditional upon
who commits the misconduct. One meeting participant stated, “Discipline depends on
who you are and what list you are on.”  

In BIA, only 38 percent of surveyed employees felt that their supervisors would take the
appropriate action to correct misconduct no matter who committed it, while another 30
percent felt supervisors would simply ignore it depending on who committed it. In the
best case, at USGS 64 percent of the surveyed employees felt that supervisors would take
appropriate action no matter who committed the misconduct.

We believe employee misconduct will continue, even increase, unless DOI begins to take
steps to change employees’ perceptions on how it handles misconduct. Our survey
results indicate that only 27 percent of employees perceive that discipline in DOI deters
other employees from engaging in misconduct. Less than one in four respondents
reported that discipline “deters me from engaging in misconduct.” In addition, 49
percent of respondents to this question said discipline had no impact or unknown impact
on misconduct.

We also queried employees about misconduct they believed was ignored by management.
We were not surprised to learn that time and leave abuse and personal use of e-mail, the
Internet, government equipment and vehicles were the most often cited misconduct perceived
as being ignored.

We were surprised, however, that some of the more egregious offenses, such as working
under the influence of alcohol or drugs, sexual harassment, and workplace violence registered
significantly in the responses. These offenses violate DOI’s “Drug Free Workplace” policy
or “Zero Tolerance” policy for discrimination and harassment. For example, at BIA, 18
percent of respondents said working under the influence of alcohol was ignored, while 14
percent of respondents said sexual harassment was ignored.




                                            -8-
We might explain this disconcerting finding by suggesting that since information
concerning disciplinary actions should remain private, employees would not necessarily
know when discipline is taken against co-workers. Unfortunately, the responses of
supervisors who said that they wanted to take disciplinary action but chose not to nullify
this explanation, as did the responses of human resources personnel who reported on
actions taken in lieu of discipline.


Discipline
Equally important to administering timely discipline for misconduct, is that the discipline
be appropriate for the committed offense. Even appropriate discipline is rendered
meaningless, unless DOI management encourages and supports supervisors who
administer timely and consistent discipline to employees at all levels.

Employees expressed widespread skepticism about and a lack of confidence in
management’s ability to properly administer discipline. Less than 30 percent of DOI
employees surveyed felt that discipline was consistently fair and less than one in four
employees believed that the discipline imposed corrects the offending misconduct.




                                           -9-
Supervisors bolstered this perception by expressing their own fears about and frustration
with the process of imposing discipline. Supervisors expressed fear of grievances and
lawsuits resulting from disciplinary actions; they even expressed fear of retaliation by
their employees. More importantly, supervisors expressed their belief that their own
management would not support the action.

Strong Sanctions Not Taken
Supervisors responding to our survey have not instituted strong formal sanctions against
employees: 96 percent of supervisors have never demoted, 76 percent have never
removed, and 72 percent have never suspended an employee. While almost half reported
they have issued a letter of counseling, the most frequently reported action taken by
supervisors is verbal counseling, at 80 percent.

Thirty-nine percent of supervisor survey respondents indicated that either an employee
relations specialist or their own supervisor selects the initial penalty in a disciplinary
action. Eighteen percent were not even aware of the types of disciplinary actions they
could initiate. Nearly one of every five supervisors surveyed have never been a
proposing or deciding official in disciplinary actions, while 14 percent have never
disciplined even one employee for misconduct.

Actions in Lieu of Discipline

Forty-five percent of supervisors surveyed said they had taken other actions in lieu of
discipline. This is corroborated by the human resources personnel, 54 percent of whom
reported incidents of employees who, rather than being disciplined, were allowed to
resign with no indication of disciplinary action on their record. Of the human resources
respondents, about 36 percent reported instances of employees being detailed to other
components of the organization and about 38 percent reported employees being
permanently transferred in lieu of discipline.




                                           - 10 -
Lack of Support

Furthermore, 21 percent of responding supervisors expressed their belief that their own
management would not support the action. For example, one supervisor reported that
employee morale was deflated by her own manager’s practice of giving employees
temporary reassignments rather than initiating disciplinary action. Other survey
respondents confirmed this lack of support: 40 percent of human resources personnel and
25 percent of attorneys cited a lack of management support as a factor deterring
supervisors from disciplining employees.

Mitigation and Settlements

While only 4 percent of supervisors responded that they did not take action because they
thought the case would be settled anyway, one out of every four reported being involved
in disciplinary actions that resulted in a settlement in the last 4 years. Forty-six percent
of all respondents said they knew of settlements in discipline matters. Supervisors
verbally reported to us that they believed their efforts were nullified by settlement
agreements, and they felt betrayed when they did not find out about the agreements until
after the agreements were executed. As one manager interviewed explained, “Many
managers gave up because they felt they were being ‘kicked while they were down.’”


                                           - 11 -
Another 11 percent of supervisors responding to the
survey were discouraged from taking disciplinary
actions because they perceived that senior managers
would mitigate proposed penalties.

For example, in one situation we found that a
supervisor proposed to suspend an employee for 30
days for using a government computer to access
pornographic Internet sites. The deciding official
mitigated the penalty to a 5-day suspension based on
the employee’s promise that it would never happen
again. A year and a half later, the employee again visited pornographic Web sites via a
government computer. He was also delinquent in paying the balance on his government-
issued charge card. In response, his supervisor again proposed a 30-day suspension. The
deciding official then mitigated the penalty to a 14-day suspension because the employee
had entered a rehabilitation program.

In another case, we learned that an employee who received a settlement called coworkers
and boasted that he received money and a new job and explained how he did it. In other
cases, disciplinary actions were ordered to be expunged from the employee’s personnel
records as part of the settlement agreement for potentially unrelated appeals and
discrimination complaints. One supervisor reported he was told there was a financial
incentive for DOI to settle because it would cost the bureau more to fight the appeal than
to compromise. Although he agreed that the settlement may have been more cost-
efficient, he pointed out that factors other than cost-efficiency should have been
considered. Another supervisor said there was a perception that the bureau “buys
employees off for $10,000 to retire.” In another case, we learned that the bureau paid a
full year’s salary at the Senior Executive level in order to secure the employee’s
retirement, citing a cost-benefit analysis.

The reported frustrations of supervisors and the perception that challenges to disciplinary
actions will be settled or “bought” are bolstered by the experience of human resources
personnel. Over 60 percent of these respondents have been involved in one or more
disciplinary actions that resulted in settlement; of this 60 percent, 33 percent had been
involved in three settled cases or more.

Discipline Administered Unfairly and Inconsistently
One study suggests that employees’ perception about the fairness of discipline is an
important influence on their behavior. A large, empirical study published in Business
Ethics Quarterly found that “a broad spectrum of unethical actions was significantly
lower if employees believed that their organization generally treated people fairly.”3 In
3
  “Organizational Justice and Ethics Program ‘Follow-Through’: Influences on Employees' Harmful and
Helpful Behavior” by Linda Klebe Trevino and Gary R. Weaver, Business Ethics Quarterly, Vol. 11,
Issue 4, 2001.


                                               - 12 -
addition, results of this study indicated that an organization's history of follow-through
encourages employees to report ethical problems.

Participants at most of the employee group meetings overwhelmingly opined that
discipline was not administered fairly. Many written comments generated by the
employee survey suggest that employees are generally not confident that supervisors and
managers will properly respond to misconduct when they encounter it, or administer
discipline fairly when circumstances warrant.

During most meetings, employees reported that disciplinary action, or the lack thereof,
was often based on favoritism. One former employee stated, “Their sense of fair play
was nonexistent, issuing inconsistent discipline and blatantly refusing to discipline
abusers within their clique.”

Lesser treatment of supervisory misconduct is
antithetical to the position of responsibility and trust
that supervisors hold. However, at over half of the
group meetings, employees reported that
supervisors were either not disciplined at all or
disciplined more leniently.

The Departmental Manual assigns supervisors the
responsibility of maintaining standards of conduct
among the employees they supervise. Logically,
they should be held to a higher standard of conduct. In fact, several recent Merit Systems
Protection Board (MSPB)4 decisions support the notion that it is appropriate for agencies
to penalize supervisors more harshly for some misconduct.

Contrary to the notion that supervisors may warrant harsher penalties when they engage
in misconduct, we found instances that verified employees’ perceptions, instances in
which supervisors received a lesser penalty than non-supervisors for the same offenses.
For example, a supervisor received a Letter of Reprimand for charge card delinquency,
while a non-supervisory employee in the same bureau and region was suspended for 14
days for the same offense.

We also encountered a situation where a manager was found to have: (1) retaliated
against employees, (2) created an abusive and disruptive work environment through
favoritism and inconsistency in carrying out policies, and (3) based employee awards on
personal preference rather than merit. No formal disciplinary action was ever initiated
against the manager. Instead, the individual was reassigned to a non-supervisory position
and then given a directed reassignment to another position a year later. The individual
ultimately declined the reassignment and quickly retired with an unblemished record.



4
  The MSPB is a federal administrative tribunal that may hear employee appeals of disciplinary actions if
the matter is an adverse action for a suspension over 14 days through removal.


                                                  - 13 -
We met with the non-supervisory employees at five locations within the bureau and
region where this situation occurred. Because of similar experiences previously, most of
these employees had the same perception of a lack of discipline for managers. The
following comments came from these meeting participants:

   •   “Problem supervisors are just moved around.”
   •   “The joke is if you mess up, you get moved ‘up and out’ to an easier place.”
   •   “Problem employees are promoted to where they’re going to retire.”


Other Issues Identified
In addition to learning of employees’ perceptions, we identified four specific areas of
concern regarding DOI’s disciplinary process: guidance, settlement authority, training,
and case management. Ineffective guidance fails to establish settlement authority or
provide management with procedural resources necessary to address misconduct
effectively; resolution of disciplinary actions through settlement may be thwarting the
effectiveness of the program; a lack of training contributes to the overall level of
uncertainty about the conduct and discipline process at DOI; and absent a comprehensive
case management system, DOI cannot ensure follow-up or restore credibility through
accountability.

To address these shortcomings, DOI needs to make a comprehensive, coordinated effort
to revise, communicate, and enforce standards of conduct and the disciplinary process.


Guidance
We evaluated DOI-issued guidance as well as that of seven other federal agencies. We
found that DOI guidance was confusing, difficult to find, difficult to understand, and in
some instances in conflict with itself. We also found that bureaus have issued
supplementary guidance, pursuant to delegation, that conflicts with that of the DOI and
other bureaus. For instance, four bureaus developed their own penalty guidelines for
misconduct involving government-issued charge cards. Even though the DOI guidance
recommends from a written reprimand to removal for the first and subsequent offenses of
not paying the full balance on charge cards, the guidance for three bureaus (USGS, NPS,
and Minerals Management Service) started with counseling or a warning, whereas the
Fish and Wildlife Service started with a minimum 3-day suspension. While bureau
policies may benefit the bureaus individually, they collectively undermine the consistent
application of discipline and contribute to the perception of unfairness.

Existing DOI guidance consists of an outdated DM section on discipline, last updated in
1982, and a Handbook on Charges and Penalty Selection for Disciplinary and Adverse
Actions, last updated in 2002. The Handbook is a completely separate document from the
DM, which makes it more difficult for the user to locate. Its format, style, and definitions
differ completely from the DM, making the two documents incongruous. For example
the DM’s definition of the term “adverse action” differs from the Handbook, which omits


                                           - 14 -
suspensions of 14 days and fewer from its definition. The Handbook also contains poorly
written guidance on consideration and application of the Douglas Factors5, which are
critical to thorough and defensible disciplinary actions.

     Organized in a user-friendly format—We identified three agencies (SBA, AID,
      and EPA) with excellent user-friendly guidance. For example, SBA’s guidance is
      contained in a well-organized handbook, with a table of contents and sections of
      chapters written in question and answer format.

     Provided samples of documents—SBA and EPA provide supervisors with
      sample documents to assist them in the disciplinary process. For example, EPA
      includes a sample letter of reprimand as an attachment to its guidance.

     Alternative discipline—Four of the benchmarked agencies (AID, SBA, USDA,
      and EPA) included information on the use of alternatives to formal discipline.
      Alternative discipline involves lesser corrective action and is generally intended
      for a first offense situation that is not an egregious offense. It is not an alternative
      in lieu of discipline.

The DM states that progressive discipline should be imposed "when practical." Of the
agencies benchmarked, however, only USDA lacked progressive penalty guidance for
subsequent offenses.

Many federal agencies, including DOI, use a Table of Penalties (TOP) to establish
penalties for misconduct. Essentially, a TOP is a chart or guide that establishes a range
of recommended penalties for first, second, and subsequent offenses in designated
categories of misconduct. The TOP provides a starting point or reference for supervisors
or managers to maintain consistency within the agency when proposing or deciding
disciplinary actions.

According to our survey, 52 percent of DOI supervisors did not believe or did not know
whether the TOP provided sufficient guidance on penalty selection. In addition, 45
percent of DOI supervisors did not believe or did not know whether DOI’s TOP contains
adequate guidance on progressive penalties. Among human resources personnel, 20
percent did not believe or did not know whether the TOP provides a list of charges that is
specific enough. Fifty-four percent of supervisors, 69 percent of Solicitor attorneys, and
20 percent of human resources personnel did not believe or did not know whether the
TOP provides sufficient guidance on charge selection.




5
 Douglas Factors are a set of criteria developed by MSPB that supervisors must consider in determining an
appropriate penalty for an act of employee misconduct.


                                                 - 15 -
Unfortunately, when benchmarked with seven other federal agencies, DOI’s TOP falls
short because it:

    Does not include a sufficient number of charges. All seven of the benchmarked
     agencies have significantly more charges, which are also more clearly defined,
     listed in their TOP. For example, FAA includes 64 charges and distinguished
     between penalties for supervisor and non-supervisor misconduct. DOI’s TOP is
     far less comprehensive.

    Does not categorize charges. Six of the seven benchmarked agencies have
     charges segregated by category, such as time and leave, conduct, alcohol/drug
     offenses, and security/safety. This makes it easier for the user to locate the charge
     easier. DOI’s TOP, on the other hand, does not categorize or define charges
     under categories. Rather, it includes a confusing and redundant “Possible
     Charges” column.

    Does not adequately address use of Douglas Factors. Six of the seven
     benchmarked agencies clearly discuss the use of the Douglas Factors in the
     various disciplinary action documents. DOI mentions the use of the Douglas
     Factors but does not clearly state how they are to be considered.

    Does not establish progressive penalties. Six of the seven benchmarked
     agencies provide progressive penalties between first and subsequent charges.
     Although many of the first offense penalties range from reprimand to removal,
     second and third offense penalties are very clearly established. For example,



                                         - 16 -
        many of NASA’s second offenses are 3- to 14-day suspensions, and any third
        offenses generally start at 7-day suspensions to removal. DOI’s TOP does not
        consistently impose a harsher minimum penalty for repeat offenses even though it
        is DOI policy to administer discipline in a progressive manner.




Settlement Authority
The only policy issued regarding settlements of disciplinary actions is contained in the
Solicitor’s Manual. The Solicitor’s Manual is not part of the DM and generally is only
distributed to employees of the Solicitor’s Office (SOL). The Solicitor’s Manual
delegates settlement authority in MSPB cases to the Associate Solicitor for General Law
and to Regional Solicitors, with limited exception.6 The Solicitor’s Manual fails to
provide for input by the affected bureau or other DOI officials in the settlement process
and offers no substantive guidance regarding settlement of MSPB matters. As a result,
the concerns expressed by managers about settlements cannot be discounted.

Training
Employees must be able to identify misconduct in order to report it. The information
gathered through interviews and employee group meetings strongly suggested that
employees were generally uncertain about DOI standards of conduct and the
consequences of misconduct. For example, in 59 percent of the group meetings, the
participants said they received little or no training or orientation on standards of conduct
or the consequences of misconduct.

Further, according to the survey results, a significant number of the leaders (supervisors,
human resources personnel, and attorneys) responsible for upholding conduct standards


6
 Chapter 5, Exceptions to General and Specific Delegations, #10. Approval of Settlements for Merit
Systems Protection Board (MSPB) and Discrimination Cases. Above a certain dollar amount, the matter
must be approved by the Solicitor.




                                               - 17 -
at DOI reported that they either had never received training or needed more training in
conduct and discipline.

Sixty-six percent of human resources personnel reported needing more training on
conduct and discipline actions; perhaps because 37 percent have had no training on the
topic in over 3 years, with an additional 13 percent reporting that they have never had any
training in conduct and discipline. Sixty-nine percent of human resources personnel also
reported that they do not believe supervisors are adequately trained in disciplinary
actions.

Over half of the supervisors surveyed responded that they need additional training on
how to handle misconduct and how to discipline employees, with about 54 percent
having had no training in over 3 years or no training at all.

The results of our evaluation highlighted an immediate need for training for supervisors
charged with enforcing discipline. Supervisors cannot address misconduct if they do not
know their options and responsibilities. Currently, supervisory training on conduct and
discipline is minimal. In fact, about 10 percent (4 hours) of a 40-hour required class for
new supervisors is devoted to training on conduct and discipline. Furthermore, neither
human resources personnel nor attorneys are required to receive subsequent training on
discipline throughout their careers.




                                          - 18 -
Case Management

Finally, the issues and concerns we have identified throughout this report have had a
cumulative affect on how misconduct cases are handled at DOI. We believe the lack of
or inadequate training combined with confusing and outdated guidance contributes to
ineffective management of misconduct cases. This is compounded by problems we
found regarding timeliness, tracking and following up on misconduct cases.

Human resources personnel, supervisors, and Solicitor attorneys expressed dissatisfaction
with the timeliness of the disciplinary process. Only 41 percent of human resources
personnel are satisfied with the timeliness of deciding officials in taking disciplinary
actions; less than 35 percent are satisfied with the timeliness of proposing officials. The
Office of the Solicitor enjoys a slightly higher level of satisfaction for timeliness at 55
percent.

DOI does not have a centralized process to track employee disciplinary actions. Rather,
action monitoring varied from office to office and among bureaus. According to the
survey, less than 20 percent of human resources respondents reported having automated
systems to track disciplinary cases. As a result, DOI could not produce statistics on all
disciplinary actions, report on specific types of actions within each bureau or across DOI,
or monitor the timeliness and progress of actions.

Without such information, managers cannot ensure the timely completion and follow-up
of disciplinary actions. For example, in an October 1998 incident involving personal use
of a government vehicle and absence without leave, the proposal letter for a 40-day
suspension was not issued until April 1999. Because of bureau inaction, disciplinary
action was ultimately cancelled in this case in December 2001.

A tracking system could also serve as a management tool to analyze and monitor trends,
target problems, and provide comprehensive information about settlement of cases.


Conclusion
If employees are skeptical about the equity and effectiveness of discipline imposed, their
confidence in the conduct and discipline process will be undermined. On the other hand,
if supervisors responsible for administering discipline do not have confidence that their
actions will be supported throughout the administrative process, their failure to take
appropriate action should not be an unexpected consequence. Unfortunately, this tragic
combination results in a perception that it is the individual who stands alone against
misconduct in DOI’s workplace. Thus, employees are discouraged from, and even afraid
of, reporting misconduct and supervisors are hesitant to take action, even when it is
brought to their attention.

The solution to this unfortunate state of affairs is relatively simple, but requires an
overhaul to the culture of conduct and discipline in DOI. Simply stated, DOI must


                                            - 19 -
develop and implement a comprehensive and consistent conduct and discipline program
that sends a clear signal that conduct of the highest standard is expected of all DOI
employees, that misconduct will not be tolerated and will be disciplined, and that
employees who report and supervisors who discipline misconduct will enjoy the full
support of DOI management.

To develop and maintain a credible conduct and disciplinary program, DOI management
must consistently address acts of misconduct at all levels. We believe the following
recommendations will not only address systemic problems discussed in this report but, if
implemented, will dramatically improve the current conduct and disciplinary program. In
addition to the recommendations, we include a compilation of employees’ responses to
our survey to provide insight on employees’ perceptions on conduct and discipline issues.
(See Appendix I.)

If the principles in this report are upheld, employees will grow increasingly willing to
report misconduct, supervisors will become increasingly willing to administer appropriate
discipline and the cycle that perpetuates the perception of inequity and despair will be
replaced by a process that bolsters fairness, confidence, and promotes the highest
standards of conduct.




                                         - 20 -
Recommendations
            We recommend that the Secretary:

            1. Ensure that all employees are aware of DOI and government
               standards regarding appropriate employee conduct, their
               responsibility to report observed misconduct to managers
               and in doing so, feel free of the fear of reprisal.

            2. Ensure that all supervisory performance plans include a
               critical element that holds the incumbent accountable for
               taking timely and appropriate disciplinary action when
               warranted.

            3. Provide supervisors, managers, human resources personnel,
               and Solicitor attorneys with training on when discipline is
               warranted, which discipline is appropriate, and how to
               ensure consistency.

            4. Revise and update DOI guidance on conduct and discipline
               (Departmental Manual and Handbook) and issue the new
               policy as a single source for DOI guidance on conduct and
               discipline. Rescind delegation of authority for
               bureaus/offices to supplement DOI policies on discipline.

            5. Memorialize in policy the roles and responsibilities of the
               Office of the Solicitor, the bureau managers, and Human
               Resources in the disciplinary process, including final
               settlement authority, in order to promote DOI-wide
               consistency in the administration of the conduct and
               discipline program.

            6. Develop and implement a centralized management
               information system for DOI-wide oversight of disciplinary
               actions to facilitate consistency of penalties and
               accountability for settlements.




                       - 21 -
                                                                                                          Appendix 1
                         Survey Questions and Responses7
    For questions one through twelve in the following section response percentages are listed
                     for the Department as a whole and by Bureau/Office.


ALL EMPLOYEES (Weighted Data)

                                                                                                               I am not
1) How often do you                                                                                            aware of
                             Always         Often        Sometimes            Rarely              Never
observe misconduct in                                                                                             any
your workplace?                                                                                               misconduct
DOI                            3.4%        12.2%             26.8%            38.4%                4.9%          14.4%
BIA                           10.5%        19.1%             33.6%            24.0%                4.2%           8.7%
BLM                            2.5%        12.3%             29.3%            38.9%                .3%           13.7%
BOR                            1.9%        11.5%             26.5%            41.4%                5.5%          13.2%
Departmental Offices           4.5%        11.5%             24.2%            33.2%                7.5%          19.1%
FWS                            1.7%        10.2%             21.1%            41.6%                6.5%          18.8%
MMS                            3.4%        11.6%             25.2%            36.7%                6.7%          16.4%
NPS                            2.1%        12.0%             27.2%            43.1%                3.0%          12.6%
OSM                            2.5%         6.0%             24.0%            38.4%                6.0%          23.1%
USGS                           0.9%         6.0%             22.3%            48.4%                6.7%          15.8%
                                                     Deters other
                                                                         Deters me from
2) How does discipline impact            Corrects     employees                                                 I do not
                                                                          engaging in        Has no impact
misconduct in your workplace?           misconduct from engaging                                                  know
                                                                          misconduct
      (Select all that apply)                       in misconduct
DOI                                        24.3%             26.7%            22.3%               19.2%          29.8%
BIA                                        24.1%             25.8%            23.9%               26.1%          19.3%
BLM                                        23.2%             25.9%            22.8%               19.9%          29.1%
BOR                                        20.8%             27.4%            26.3%               18.2%          31.6%
Departmental Offices                       18.1%             17.8%            14.0%               23.8%          39.2%
FWS                                        24.5%             23.9%            20.3%               17.4%          36.3%
MMS                                        17.7%             19.4%            18.1%               22.9%          36.7%
NPS                                        30.1%             35.4%            24.8%               14.4%          24.5%
OSM                                        20.8%             19.4%            20.5%               22.1%          37.5%
USGS                                       32.5%             31.8%            17.1%               14.2%          31.4%



7
 Due to rounding, response percentages for each question may not always add to 100 percent. For questions marked
“select all that apply”, percentages will total more than 100 percent because respondents could select multiple answers.
Weighting procedures have been applied where applicable to ensure that the demographic make-up of the Departmental
workforce is properly reflected.

                                                    - 22 -
                                                                                                    Appendix 1
ALL EMPLOYEES (Weighted Data)
                                        To punish     To deter
                                                                            To correct
3) What is the main purpose of          employees employees                               None of the   I do not
                                                                          inappropriate
discipline in your workplace?               for    from engaging                            above         know
                                                                             behavior
                                        misconduct in misconduct
DOI                                        7.3%        13.8%                 52.5%          11.5%       14.9%
BIA                                       7.8%            16.6%              48.1%          16.6%       11.0%
BLM                                       7.0%            13.3%              54.6%          11.6%       13.5%
BOR                                       11.4%           13.7%              47.6%          11.1%       16.3%
Departmental Offices                      4.8%            10.5%              50.5%          11.3%       22.9%
FWS                                       5.5%            12.3%              52.5%          11.2%       18.5%
MMS                                       7.8%            12.3%              48.8%          11.3%       19.7%
NPS                                       7.6%            14.4%              58.3%           9.5%       10.2%
OSM                                       4.6%            16.6%              46.3%          13.3%       19.1%
USGS                                      6.4%            16.6%              56.4%           7.9%       12.8%

                                                                                                        I do not
4) Do you expect that misconduct will be disciplined in your                  Yes             No
                                                                                                          know
workplace?
DOI                                                                          59.0%          27.9%       13.1%
BIA                                                                          49.4%          37.3%       13.3%
BLM                                                                          57.1%          30.6%       12.3%
BOR                                                                          58.5%          27.0%       14.4%
Departmental Offices                                                         54.3%          30.4%       15.3%
FWS                                                                          63.2%          22.0%       14.7%
MMS                                                                          53.2%          29.7%       17.1%
NPS                                                                          65.1%          24.8%       10.2%
OSM                                                                          55.6%          30.3%       14.1%
USGS                                                                         70.6%          20.0%        9.4%

5) Is discipline                                                                                        I do not
                              Always           Often         Sometimes           Rarely      Never
administered fairly in your                                                                               know
workplace?
DOI                           11.7%           16.1%               21.6%           18.1%       6.3%      26.2%
BIA                           10.8%           13.0%               23.8%           23.3%      13.4%      15.7%
BLM                              7.7%         16.0%               21.9%           19.7%       6.2%      28.5%
BOR                              7.3%         15.3%               23.6%           19.8%       5.4%      28.5%
Departmental Offices          10.1%           11.3%               17.0%           17.9%       8.0%      35.6%
FWS                           15.4%           14.9%               18.4%           14.7%       4.6%      32.1%
MMS                              8.4%         15.4%               23.0%           17.7%       4.9%      30.6%
NPS                           16.2%           20.9%               24.4%           16.6%       4.0%      17.9%
OSM                           11.6%           12.7%               19.2%           14.9%       6.5%      35.1%
USGS                          19.1%           23.5%               18.0%           11.1%       2.0%      26.2%

                                                 - 23 -
                                                                                                Appendix 1
ALL EMPLOYEES (Weighted Data)
                                                                                             Take
                                                                              Take
                                                                                          appropriate
6) What do you think your supervisor      Ignore the        Ignore the     appropriate
                                                                                            action
would do if he/she became aware of      misconduct no      misconduct       action to
                                                                                         depending on   I do not
                                         matter who       depending on     correct it no
misconduct in your workplace?                                                                who          Know
                                        committed the    who committed     matter who
                                                                                          committed
                                         misconduct      the misconduct   committed the
                                                                                              the
                                                                           misconduct
                                                                                          misconduct
DOI                                         3.1%            20.3%            49.9%         18.3%        8.5%
BIA                                         4.3%            29.5%            38.3%         20.9%        7.1%
BLM                                         4.0%            21.4%            47.5%         17.8%        9.2%
BOR                                         2.2%            21.3%            47.7%         19.8%        8.9%
Departmental Offices                        5.2%            20.4%            46.8%         16.3%        11.4%
FWS                                         2.0%            17.5%            55.9%         16.8%        7.7%
MMS                                         3.8%            18.8%            49.8%         16.1%        11.5%
NPS                                         2.0%            16.5%            53.9%         19.9%        7.6%
OSM                                         4.0%            19.1%            48.5%         14.8%        13.5%
USGS                                        1.8%            13.1%            63.9%         14.8%        6.4%
                                                                              Maybe,
                                                                                        No, not under
7) Would you report misconduct if you knew it existed?   Yes, under all     depending                    I do not
                                                                                             any
                                                         circumstances       upon the                      know
                                                                                        circumstances
                                                                          circumstances
DOI                                                         36.2%            55.9%           3.0%         4.9%
BIA                                                         45.5%            44.6%           5.4%         4.4%
BLM                                                         33.8%            58.1%           2.5%         5.6%
BOR                                                         26.9%            63.6%           4.2%         5.3%
Departmental Offices                                        28.8%            59.7%           2.5%         9.0%
FWS                                                         35.7%            57.5%           1.9%         4.9%
MMS                                                         27.2%            61.4%           4.5%         6.9%
NPS                                                         43.2%            52.9%           1.6%         2.4%
OSM                                                         31.0%            57.1%           3.8%         8.2%
USGS                                                        43.9%            50.2%           2.1%         3.8%




                                            - 24 -
                                                                                                  Appendix 1
ALL EMPLOYEES (Weighted Data)
                                                                                                       I fear that
                                                                                         I fear that
                                         Nothing                   I do not want                           my
8) What deters you from reporting                                                        my peers
                                        deters me I do not want to to get a co-                        supervisor
misconduct?                                                                              will single
                                      from reporting get involved      worker                          will single
                                                                                         me out for
                                        misconduct                   In trouble                        me out for
         (Select all that apply)                                                         retaliation
                                                                                                         reprisal
DOI                                       34.9%              9.7%           10.0%          12.1%          15.6%
BIA                                       33.6%              9.7%            7.1%          16.2%         21.2%
BLM                                       32.4%             10.1%            9.2%          13.0%         16.8%
BOR                                       29.5%             11.2%           12.9%          15.4%         17.3%
Departmental Offices                      31.1%              9.9%           11.1%          11.1%         12.5%
FWS                                       36.8%              9.3%            9.9%           8.6%         13.1%
MMS                                       29.8%             13.7%           10.6%          13.7%         16.1%
NPS                                       40.8%              7.8%           10.3%          10.3%         14.1%
OSM                                       37.8%              8.6%           11.3%           8.6%         9.2%
USGS                                      45.9%              7.7%           10.6%           8.3%         8.6%
                                                                          Nothing will
                                                          It is not my    be done by     None of the    I do not
                                                         responsibility       my           above          know
                                                                          supervisor
DOI                                                          6.0%           20.4%          12.1%          3.7%
BIA                                                          4.7%           28.0%           7.2%         3.8%
BLM                                                          5.7%           22.6%          11.3%         4.5%
BOR                                                          7.3%           17.9%          12.8%         3.4%
Departmental Offices                                         8.9%           23.2%          12.6%         5.3%
FWS                                                          6.2%           16.8%          14.4%         3.2%
MMS                                                          7.7%           21.4%          14.0%         4.9%
NPS                                                          5.1%           17.2%          13.5%         2.6%
OSM                                                          8.6%           18.9%          9.7%          5.1%
USGS                                                         6.1%           15.1%          13.4%         2.2%

                                                                                                        I do not
9) Does misconduct go undisciplined in your workplace?                       Yes             No
                                                                                                          know
DOI                                                                         41.8%          28.7%         29.5%
BIA                                                                         54.5%          26.7%         18.8%
BLM                                                                         45.0%          24.4%         30.6%
BOR                                                                         40.1%          25.4%         34.5%
Departmental Offices                                                        39.4%          25.7%         34.9%
FWS                                                                         33.9%          32.7%         33.4%
MMS                                                                         39.2%          22.9%         37.9%
NPS                                                                         42.5%          34.4%         23.1%
OSM                                                                         34.3%          25.4%         40.3%
USGS                                                                        31.0%          39.2%         29.8%




                                           - 25 -
                                                                                         Appendix 1
ALL EMPLOYEES (Weighted Data)

10) How are the following types of misconduct usually treated in your                           I do not
                                                                        Ignored   Disciplined
workplace?                                                                                        know

   Accessing pornography on government computers
       DOI                                                               3.5%       46.6%       49.9%
       BIA                                                               6.6%       37.8%       55.6%
       BLM                                                               2.6%       50.8%       46.6%
       BOR                                                               2.8%       58.8%       38.4%
       Departmental Offices                                              3.1%       39.2%       57.7%
       FWS                                                               2.3%       38.1%       59.6%
       MMS                                                               3.2%       45.8%       51.0%
       NPS                                                               4.2%       50.8%       45.0%
       OSM                                                               3.8%       37.2%       59.0%
       USGS                                                              3.8%       55.3%       40.9%
   Not paying balances of government charge cards on time
       DOI                                                              7.6%        48.5%       43.9%
       BIA                                                              12.6%       59.9%       27.5%
       BLM                                                              8.9%        45.5%       45.6%
       BOR                                                              5.6%        44.8%       49.6%
       Departmental Offices                                             3.2%        36.7%       60.1%
       FWS                                                              5.9%        46.9%       47.2%
       MMS                                                               3.6%       41.6%       54.8%
       NPS                                                              7.8%        52.3%       39.9%
       OSM                                                               4.0%       43.7%       52.3%
       USGS                                                             6.7%        54.2%       39.1%
   Personal use of government charge cards
       DOI                                                              5.8%        54.9%       39.3%
       BIA                                                              12.8%       57.9%       29.3%
       BLM                                                              5.9%        54.1%       40.0%
       BOR                                                              3.4%        58.3%       38.3%
       Departmental Offices                                             2.5%        39.4%       58.0%
       FWS                                                              3.9%        51.6%       44.5%
       MMS                                                               3.4%       44.5%       52.1%
       NPS                                                              6.4%        61.7%       31.9%
       OSM                                                               4.3%       44.2%       51.5%
       USGS                                                             3.4%        62.8%       33.8%
   Personal use of government vehicles
       DOI                                                              13.1%       44.0%       43.0%
       BIA                                                              24.1%       41.0%       34.9%
       BLM                                                              13.9%       44.0%       42.1%
       BOR                                                              10.5%       46.6%       42.8%
       Departmental Offices                                             2.2%        28.0%       69.8%
       FWS                                                               9.7%       42.7%       47.7%
       MMS                                                               3.8%       29.2%       67.0%
       NPS                                                              16.0%       54.0%       30.1%
       OSM                                                               8.1%       39.4%       52.6%
       USGS                                                              8.9%       50.9%       40.2%




                                             - 26 -
                                                                                         Appendix 1
ALL EMPLOYEES (Weighted Data)

                                                                                                I do not
10) How are the following types of misconduct usually treated in your   Ignored   Disciplined
                                                                                                  know
workplace? (Continued)
    Personal use of government tools or equipment (beyond policy)
       DOI                                                              18.6%       31.8%       49.6%
       BIA                                                              23.6%       28.1%       48.3%
       BLM                                                              20.2%       30.7%       49.1%
       BOR                                                              19.6%       29.0%       51.4%
       Departmental Offices                                             10.5%       27.4%       62.1%
       FWS                                                              14.4%       32.2%       53.5%
       MMS                                                              15.8%       24.3%       59.9%
       NPS                                                              20.8%       41.7%       37.5%
       OSM                                                              11.6%       22.4%       66.0%
       USGS                                                             17.2%       37.4%       45.4%
    Personal use of the Internet (beyond policy)
       DOI                                                              19.4%       32.0%       48.6%
       BIA                                                              14.3%       33.9%       51.7%
       BLM                                                              24.1%       30.5%       45.4%
       BOR                                                              19.2%       34.7%       46.0%
       Departmental Offices                                             19.9%       28.8%       51.3%
       FWS                                                              16.2%       30.5%       53.3%
       MMS                                                              20.7%       25.3%       54.0%
       NPS                                                              21.0%       34.2%       44.8%
       OSM                                                              20.8%       26.1%       53.1%
       USGS                                                             19.7%       35.5%       44.8%
    Personal use of e-mail (beyond policy)
       DOI                                                              19.7%       27.8%       52.5%
       BIA                                                              15.7%       29.3%       55.0%
       BLM                                                              24.1%       26.8%       49.1%
       BOR                                                              19.8%       25.7%       54.4%
       Departmental Offices                                             18.0%       28.4%       53.7%
       FWS                                                              15.4%       27.9%       56.8%
       MMS                                                              23.4%       21.0%       55.6%
       NPS                                                              21.1%       30.8%       48.1%
       OSM                                                              20.8%       23.2%       56.1%
       USGS                                                             22.0%       30.1%       47.8%
    Time and Leave abuse
       DOI                                                              27.4%       41.5%       31.1%
       BIA                                                              39.2%       36.1%       24.7%
       BLM                                                              29.4%       36.2%       34.4%
       BOR                                                              25.7%       40.2%       34.1%
       Departmental Offices                                             27.2%       40.8%       32.0%
       FWS                                                              20.4%       45.6%       34.0%
       MMS                                                              29.3%       36.1%       34.6%
       NPS                                                              25.8%       49.4%       24.8%
       OSM                                                              25.9%       34.2%       39.9%
       USGS                                                             21.3%       52.4%       26.3%




                                             - 27 -
                                                                                        Appendix 1
ALL EMPLOYEES (Weighted Data)

10) How are the following types of misconduct usually treated in your                           I do not
                                                                        Ignored   Disciplined
workplace? (Continued)                                                                            know

   Sexual harassment
       DOI                                                               8.9%       52.1%       39.0%
       BIA                                                              14.3%       39.4%       46.3%
       BLM                                                               8.4%       58.7%       32.9%
       BOR                                                              10.8%       52.8%       36.4%
       Departmental Offices                                             8.7%        39.3%       52.0%
       FWS                                                               6.3%       50.0%       43.8%
       MMS                                                              10.2%       46.2%       43.7%
       NPS                                                               7.6%       60.0%       32.4%
       OSM                                                               5.7%       46.9%       47.4%
       USGS                                                              6.0%       62.6%       31.4%
   Travel voucher fraud
       DOI                                                               4.7%       41.2%       54.2%
       BIA                                                               8.6%       37.0%       54.4%
       BLM                                                               4.5%       39.2%       56.3%
       BOR                                                               3.7%       40.7%       55.6%
       Departmental Offices                                              0.9%       33.0%       66.1%
       FWS                                                               4.3%       42.5%       53.2%
       MMS                                                               4.1%       36.1%       59.8%
       NPS                                                               4.5%       47.7%       47.8%
       OSM                                                               3.0%       41.2%       55.8%
       USGS                                                              3.0%       52.3%       44.8%
   Working under the influence of alcohol
       DOI                                                              11.2%       40.3%       48.5%
       BIA                                                              17.5%       43.5%       39.0%
       BLM                                                              14.2%       39.0%       46.7%
       BOR                                                              11.3%       34.1%       54.7%
       Departmental Offices                                             10.6%       30.0%       59.4%
       FWS                                                               5.8%       37.5%       56.7%
       MMS                                                              13.9%       28.5%       57.6%
       NPS                                                               8.5%       53.3%       38.1%
       OSM                                                               7.8%       35.6%       56.6%
       USGS                                                              9.3%       45.7%       45.0%
   Working under the influence of drugs
       DOI                                                              5.4%        39.3%       55.3%
       BIA                                                              11.3%       38.3%       50.4%
       BLM                                                              5.6%        38.5%       55.8%
       BOR                                                              6.5%        34.8%       58.7%
       Departmental Offices                                             3.2%        30.5%       66.3%
       FWS                                                              2.7%        37.3%       60.0%
       MMS                                                               4.6%       26.0%       69.4%
       NPS                                                              4.1%        52.9%       43.0%
       OSM                                                               2.2%       32.3%       65.5%
       USGS                                                             3.9%        45.1%       51.0%




                                             - 28 -
                                                                                               Appendix 1
ALL EMPLOYEES (Weighted Data)

                                                                                                       I do not
10) How are the following types of misconduct usually treated in your         Ignored   Disciplined
                                                                                                         know
workplace? (Continued)
   Workplace violence
      DOI                                                                      6.9%       47.6%        45.4%
      BIA                                                                      12.9%      38.7%        48.4%
      BLM                                                                      6.2%       50.1%        43.6%
      BOR                                                                      8.6%       45.2%        46.2%
      Departmental Offices                                                     6.3%       40.0%        53.7%
      FWS                                                                      4.0%       44.6%        51.4%
      MMS                                                                       6.9%      45.9%        47.2%
      NPS                                                                      6.4%       59.2%        34.4%
      OSM                                                                       6.7%      40.4%        52.8%
      USGS                                                                     3.5%       56.7%        39.8%
                                                                                        Disciplinary
11) Within the last three years, please indicate which topics you                       actions (How
                                                                    Equal
have received training on.                                        Opportunity
                                                                              Diversity to Deal with    Ethics
                                                                                         Problem
                       (Select all that apply)                                          Employees)
DOI                                                                39.8%       48.9%      23.7%        66.5%
BIA                                                                29.2%       13.2%      16.5%        43.5%
BLM                                                                52.5%       59.9%      24.8%        82.3%
BOR                                                                39.9%       61.8%      20.9%        68.7%
Departmental Offices                                               21.4%       47.8%      17.0%        59.6%
FWS                                                                30.3%       45.3%      18.3%        60.0%
MMS                                                                35.7%       53.6%      22.0%        94.7%
NPS                                                                49.1%       51.9%      39.6%        66.1%
OSM                                                                62.8%       70.6%      21.8%        95.7%
USGS                                                               34.7%       66.7%      27.8%        52.2%
                                                                                           Use of
                                                                             Sexual                  None of the
                                                                                        government
                                                                           harassment                  above
                                                                                        credit cards
DOI                                                                          56.3%        72.6%        10.4%
BIA                                                                          40.9%        67.1%        19.7%
BLM                                                                          76.4%        92.1%         1.3%
BOR                                                                          60.2%        63.7%        12.4%
Departmental Offices                                                         42.3%        39.4%        18.7%
FWS                                                                          46.3%        63.5%        16.7%
MMS                                                                          57.4%        57.3%         1.1%
NPS                                                                          56.2%        83.6%         6.8%
OSM                                                                          73.6%        71.7%         1.3%
USGS                                                                         48.4%        68.0%        10.3%




                                                 - 29 -
                                                                                               Appendix 1
ALL EMPLOYEES (Weighted Data)
                                                                             Three or
                                                                                                     I do not
12) How many times have you heard about settlements       Once      Twice     more       Never
                                                                                                       know
related to disciplinary actions in your workplace?                            times
DOI                                                       14.0%     12.3%     19.9%      40.8%       13.0%
BIA                                                       13.5%     11.1%      16.7%     43.3%       15.3%
BLM                                                       14.4%     14.6%      23.4%     35.0%       12.7%
BOR                                                       15.7%     14.7%      21.5%     36.1%       12.0%
Departmental Offices                                      14.7%      8.8%      10.2%     54.2%       12.2%
FWS                                                       14.3%      8.8%      14.0%     50.8%       12.0%
MMS                                                       13.5%     14.6%      27.1%     30.1%       14.6%
NPS                                                       12.4%     12.9%      25.9%     35.5%       13.4%
OSM                                                       11.1%     10.5%      15.9%     42.4%       20.0%
USGS                                                      14.2%     14.1%      19.4%     42.0%       10.3%


Response percentages for questions 13 through 91 in the following section are listed
for the Department as a whole. 8 Responses by Bureau/ Office can be found on the
                      OIG website (http://www.oig.doi.gov).
ALL EMPLOYEES (Weighted Data)
                                                                                           Yes           No
13) Are you an attorney in the Solicitor’s Office?
                                                                                           0.6%        99.4%
                                                                                           Yes           No
14) Are you an employee who works on disciplinary matters in a human resources
office?                                                                                    1.6%        98.4%

                                                                                           Yes           No
15) Do you supervise employees?
                                                                                          20.9%        79.1%


SUPERVISORS (Weighted Data)
16) Please indicate whether the following are formal or                            Neither Formal    I do not
                                                          Formal       Informal
informal types of discipline.                                                       nor Informal       know
        Demotion                                          94.1%         0.5%            2.3%           3.2%
        Letter of Counseling                              40.0%         50.9%           3.5%           5.6%
        Letter of Reprimand                               88.9%         8.7%            0.5%           1.9%
        Removal                                           97.6%         0.4%            0.5%           1.5%
        Suspension                                        97.4%         0.7%            0.5%           1.4%
        Verbal counseling                                  6.9%         86.2%           4.7%           2.1%


8
 Due to rounding, response percentages for each question may not always add to 100 percent. For questions
marked “select all that apply”, percentages will total more than 100 percent because respondents could select
multiple answers. Weighting procedures have been applied where applicable to ensure that the demographic
make-up of the Departmental workforce is properly reflected.
                                               - 30 -
                                                                                                   Appendix 1
SUPERVISORS (Weighted Data)

                                                                                            Yes             No
17) Do you know where to go to get procedures and policies on discipline?
                                                                                           92.7%           7.3%
                                                                                                          I do not
18) Are you familiar with the Table of                      Somewhat      Somewhat                       know what
                                                Familiar                                 Unfamiliar
Penalties?                                                   familiar     unfamiliar                    the Table of
                                                                                                        Penalties is
                                                 25.2%        34.8%         8.0%           16.3%          15.7%

19) Please indicate your level of
agreement (from strongly agree to strongly      Strongly                                  Strongly        I do not
                                                              Agree       Disagree
disagree) with the following statements          Agree                                    Disagree          know
about the DOI Table of Penalties
        Contains a range of penalties that is
        appropriate
                                                 10.1%        51.6%         3.5%           0.6%           34.2%
        Contains adequate guidance on
        progressiveness of penalties
                                                  6.9%        48.5%         8.3%           1.3%           35.0%
        Provides a list of charges that is
        specific enough
                                                  5.6%        44.1%        10.2%           1.3%           38.7%
        Provides sufficient guidance on
        penalty selection
                                                  5.1%        43.1%        13.1%           1.4%           37.3%
        Provides sufficient guidance on
        charge selection
                                                  4.8%        41.4%        13.0%           1.0%           39.9%

                                                                                                          I do not
                                                                             Yes            No
                                                                                                            know
20) Are you aware of the types of disciplinary actions you can
initiate?                                                                  82.1%           12.9%           5.0%
                                                                                        I have never
                                                                                           received
                                                                                          training on
                                                Within the 1 to 2 years   3 or more                       I do not
21) When was the last time you received                                                misconduct and
                                                last year      ago        years ago                         know
training on misconduct and how to                                                           how to
discipline employees?                                                                      discipline
                                                                                         employees
                                                 17.9%        27.1%        34.0%           19.3%           1.7%
                                                                                                          I do not
                                                                             Yes            No
22) Do you feel you need training on misconduct and how to                                                  know
discipline employees?
                                                                           51.2%           45.3%           3.5%


                                                                                       Depends on the     I do not
                                                               Yes           No
23) Would you consider recommending an award for an                                    circumstances        know
employee who has been disciplined for misconduct?
                                                              11.1%        20.7%           66.6%           1.6%




                                                 - 31 -
                                                                                                       Appendix 1
SUPERVISORS (Weighted Data)
                                                                          Letter of          Letter of
                                                           Demotion                                             Removal
                                                                         Counseling         Reprimand
24) Please indicate which actions have you taken for         3.7%           48.7%              46.6%              23.8%
misconduct.
                                                                                                                 I have not
                 (Select all that apply)                               Verbal                                  disciplined an
                                                          Suspension                           Other           employee for
                                                                     counseling
                                                                                                                misconduct

                                                            27.5%           79.8%              8.0%               14.4%
                                                      I have been
                                                                     I have been
                                                          both a
25) Which of the following                                              both a
statements best describes your   I have                proposing                     I have never
                                          I have been                 proposing
                                been a                    and   a                       been a        None of the
involvement in disciplinary                a deciding                    and a
                               proposing                deciding                    proposing or a      above
actions?                                     official                  deciding
                                 official               official on                 deciding official
                                                                    official on the
                                                        separate
                                                                    same action
                                                         actions
                                   33.7%       6.0%         22.8%            5.0%              17.3%              15.2%
26) Over the last 4 years,
approximately how many times have                                                                               More than
                                           None          1 to 5       6 to 10       11 to 15     16 to 20
you disciplined employees using the                                                                             20 times
following types of discipline?
    Demotion                               97.0%         2.9%          0.0%           0.0%         0.0%            0.1%

    Letter of Counseling                   51.0%       46.3%           2.2%           0.3%         0.1%            0.1%

    Letter of Reprimand                    58.6%       40.3%           0.9%           0.1%         0.0%            0.1%

    Removal                                81.4%       18.3%           0.2%           0.0%         0.0%            0.1%

    Suspension                             75.0%       24.1%           0.7%           0.1%         0.0%            0.1%

    Verbal counseling                      17.1%       63.2%          13.1%           3.5%         1.0%            2.2%
                                                             Allowed
                                                         employees to
                                                                            Relieved         Transferred
                                                           resign with
                                                                          employees of      employees to
                                                         no indication
                                                                             certain      other positions at
                                                                                                                  Other
                                                         of disciplinary
                                                                         responsibilities    same grade
                                                            action on
                                                          their record
27) What actions have you taken with employees in lieu
of discipline?                                              18.0%           24.9%              7.9%               10.8%
                                                                                                           I am not
                 (Select all that apply)                                   Relieved       Detailed
                                                                                                         aware of any
                                                                         employees of   employees to
                                                                                                         actions taken
                                                                          supervisory other positions or
                                                                                                           in lieu of
                                                                            duties         offices
                                                                                                           discipline

                                                                             8.0%              7.7%               55.3%




                                              - 32 -
                                                                                                          Appendix 1
SUPERVISORS (Weighted Data)
                                                                               Letter of        Letter of
                                                                Demotion                                       Removal
                                                                              Counseling       Reprimand
28) For which of the following disciplinary actions do
you consult human resources?                                     47.8%          37.2%            48.7%           50.5%

                  (Select all that apply)                                       Verbal                    None of the
                                                             Suspension                  All of the above
                                                                              counseling                    above
                                                                 50.5%          12.2%            46.5%           4.8%
                                                   An
 29) In general, who selects the                Employee           My          Solicitor’s
                                       I do                                                       Other       I do not know
initial penalty in a disciplinary               Relations       supervisor   Office attorney
action related to misconduct?                   Specialist

                                    41.6%        25.1%           13.9%           0.6%             4.4%           14.4%

30) Have you worked with a Solicitor’s Office attorney on a discipline issue?                     Yes             No

                                                                                                 19.5%           80.5%
31) Thinking about the last time you
worked with a Solicitor’s Office attorney on                              Neither
                                                             Somewhat                          Somewhat
a discipline issue, please rate the following   Satisfied               Satisfied nor                         Dissatisfied
                                                              Satisfied                        Dissatisfied
items using the scale from satisfied to                                 Dissatisfied
dissatisfied:
    Amount of time it took for the
                                                 56.4%           19.2%           9.7%            10.2%           4.5%
    attorney to get back with you
    Availability of the attorney                 55.3%           20.7%          10.4%            10.0%           3.5%

    Courteousness of the attorney                77.1%           12.1%           7.3%             3.0%           0.5%
    Knowledge of misconduct and
                                                 67.3%           19.4%           9.5%             2.2%           1.7%
    disciplinary topics
    Timeliness in responding to your
                                                 54.0%           22.2%          10.4%             9.7%           3.8%
    request
    Overall level of service                     60.0%           19.5%          10.9%             6.6%           3.0%

32) Have you worked with a human resources staff member on a discipline issue?                    Yes             No

                                                                                                 72.8%           27.2%
33) Thinking about the last time you worked
with a human resources staff member on a                                       Neither
                                                                  Somewhat                 Somewhat
discipline issue, please rate the following         Satisfied                Satisfied nor              Dissatisfied
                                                                   Satisfied               Dissatisfied
items using the scale from satisfied to                                      Dissatisfied
dissatisfied:
    Amount of time it took for the staff
                                                     70.8%           14.9%           4.1%           6.3%         3.9%
    member to get back with you
    Availability of the staff member                 68.9%           17.5%           4.5%           6.6%         2.5%
    Courteousness of the staff member                81.3%           10.8%           4.7%           2.5%         0.7%
    Knowledge of misconduct and
                                                     72.3%           15.5%           5.1%           4.8%         2.2%
    disciplinary topics
    Timeliness in responding to your request         67.5%           16.9%           4.8%           6.5%         4.2%
    Overall level of service                         69.0%           15.8%           6.0%           6.1%         3.0%

                                                - 33 -
                                                                                                              Appendix 1
SUPERVISORS (Weighted Data)
                                                             I have          I have
                                               I have
                                I have no                discretionary authority to
                                              complete                                                            I do not know
                               authority to               authority to    settle cases
                                            authority to                                                          what authority
34) What authority do you have unilaterally               settle cases only with the                  Other
                                            settle cases                                                             I have to
to settle cases arising out of     settle                   under a      consent of my
                                             that do not                                                           settle a case
disciplinary actions?             cases                  specific dollar supervisors/
                                            cost money
                                                               limit       managers
                                      44.3%         3.2%          2.2%            11.3%               1.3%            37.8%
35) Please indicate your level of                                Neither
                                  Strongly                                                          Strongly         I do not
agreement with the following                       Agree        Agree nor       Disagree
                                   Agree                                                            Disagree           know
statement regarding                                             Disagree
settlements--Judges persuade
the Agency to settle by
suggesting that the penalty will   6.9%            14.5%          18.0%            7.1%               2.0%            51.6%
be decreased or overturned

                                                                                                           I thought the
                                             I was fearful                                                case would be
36) Have you wanted to take          I was
                                              of an equal                                    I lacked          settled
disciplinary action but chose not fearful of employment I did not want       I feared
                                                                                         knowledge of the      anyway
to because…                            an                  to offend the  retaliation by
                                              opportunity                                  disciplinary       because
                                  employee                   employee    the employee
                                                 (EEO)                                       process      similar actions
                                  grievance
      (Select all that apply)                  complaint                                                   were settled
                                                                                                             in the past
       Responses of all
                                       7.7%        10.7%          2.2%             5.5%               8.9%             4.4%
        supervisors:
                                                Management
 (See below for filtered results                mitigated
                                 It took time              Management                                               I will always
 excluding supervisors who did away from (decreased          would not
                                                                        The employee
                                                                                                                         take
   not select the option “I will              the penalty)               was a good                   Other
                                     other                  support the                                              disciplinary
    always take disciplinary                     similar                  performer
                                     duties                   action                                                    action
            action”.)                          actions  in
                                                   the past

                                      11.7%        10.6%          21.4%            8.7%              14.4%            36.1%
                                                                                                                   I thought the
                                                I was fearful
                                                                                                                  case would be
36) Have you wanted to take       I was fearful of an equal                                          I lacked
                                                              I did not want       I feared                       settled anyway
disciplinary action but chose not      of an    employment                                       knowledge of the
                                                               to offend the    retaliation by                        because
                                    employee     opportunity                                       disciplinary
to because…                         grievance      (EEO)
                                                                 employee      the employee
                                                                                                     process
                                                                                                                  similar actions
                                                                                                                  were settled in
                                                  complaint
      (Select all that apply)                                                                                         the past
                                      12.0%        16.8%          3.5%             8.6%              13.9%             6.9%
                                                               Management
Responses of supervisors                                        mitigated    Management
who did not select the option                   It took time                             The employee
                                                               (decreased     would not
“I will always take                              away from the penalty)                   was a good                   Other
                                                                             support the
disciplinary action”:                           other duties similar actions               performer
                                                                               action
                                                                in the past
                                                   18.4%          16.6%           33.5%              13.7%            22.5%
                                                                                Three or                             I do not
37) Over the last four years, how many              One            Two                                None
                                                                                 more                                  know
disciplinary actions were you involved with
that resulted in a settlement?                     11.6%          6.5%             5.0%              74.6%             2.4%



                                                   - 34 -
                                                                                                       Appendix 1

HUMAN RESOURCES PERSONNEL (Weighted Data)
38) Over the last four years, how
                                             One            Two          Three or more         None        I do not know
many disciplinary actions were you
involved with that resulted in a
settlement?                                17.2%           13.4%             32.8%             31.5%            5.1%
                                                                                            None of the
                                         Leniently      Appropriately       Harshly                        I do not know
39) How are employees disciplined                                                             above
in your servicing area?
                                           27.7%           64.2%              1.2%              3.0%            3.8%
40) Are you aware of instances where no disciplinary action was
                                                                              Yes                No        I do not know
taken on the following?
    Accessing pornography on government Computers                            11.2%             75.1%           13.7%

    Not paying balances of government charge cards on time                   33.0%             54.3%           12.7%

    Personal use of government charge cards                                  25.2%             61.5%           13.4%

    Personal use of government vehicles                                      23.0%             63.7%           13.2%
    Personal use of government tools or equipment (beyond
                                                                             20.4%             58.2%           21.5%
    policy)
    Personal use of the Internet (beyond policy)                             21.9%             58.2%           19.9%

    Personal use of e-mail (beyond policy)                                   18.3%             57.6%           24.1%

    Time and Leave abuse                                                     41.1%             50.3%            8.5%

    Sexual harassment                                                         9.5%             72.6%           17.9%

    Travel voucher fraud                                                      9.3%             65.1%           25.6%

    Working under the influence of alcohol                                   17.8%             63.9%           18.4%

    Working under the influence of drugs                                      5.3%             69.7%           25.1%

    Workplace violence                                                        8.4%             73.0%           18.6%
                                                                                            Reluctance to
                                                                                            deal with EEO
                                                                         Lack of support                   Reluctance to
                                                         Cases will be                          (equal
                                                                              from                        deal with future
                                                        settled anyway                       employment
                                                                          management                        grievances
                                                                                             opportunity)
41) What factors deter supervisors in your servicing                                          complaints
area from disciplining employees?
                                                           16.6%             39.5%             48.3%           46.4%
               (Select all that apply)
                                                                         The disciplinary
                                                                                             None of the
                                                                           process is too                   I do not know
                                                                                               above
                                                                         time-consuming

                                                                             53.4%             15.1%            8.4%




                                               - 35 -
                                                                                                               Appendix 1
HUMAN RESOURCES PERSONNEL (Weighted Data)
42) Please indicate your level of
agreement (from strongly agree to                                       Neither
                                           Strongly                                                       Strongly       I do not
strongly disagree) with the following                      Agree       Agree nor           Disagree
                                            Agree                                                         Disagree         know
statements about the DOI Table of                                      Disagree
Penalties
    Contains a range of penalties
                                           22.3%           58.4%            7.3%              5.9%            0.6%         5.5%
    that is appropriate
    Contains adequate guidance on
                                           18.6%           52.8%            11.2%             9.1%            2.5%         5.9%
    progressiveness of penalties
    Provides a list of charges that is
                                           13.9%           53.5%            12.7%           11.0%             2.2%         6.7%
    specific enough
    Provides sufficient guidance on
                                           15.3%           49.0%            15.5%             9.9%            3.6%         6.7%
    penalty selection
    Provides sufficient guidance on
                                           13.4%           50.1%            16.2%           10.5%             3.4%         6.4%
    charge selection
                                                             Automated         Automated                              Manual log
                                                                                                     Automated
                                                             system for        system for                              sheet for
                                                                                                     system for
                                                             managing           managing                               recording
                                                                                                     managing
                                                                formal           informal                                formal
                                                                                                      reported
                                                             disciplinary      disciplinary                           disciplinary
                                                                                                     misconduct
                                                               actions            actions                               actions
43) Does your office maintain any of the following
                                                               12.1%                7.3%               4.8%             24.3%
systems?
                                                             Manual log
                 (Select all that apply)                                       Manual log
                                                              sheet for
                                                                                sheet for
                                                              recording                          None of the
                                                                                recording                            I do not know
                                                               informal                            above
                                                                                 reported
                                                             disciplinary
                                                                               misconduct
                                                                actions

                                                               18.0%               15.3%              46.1%             17.9%
                                                           Supervisors
                                    HR         HR writes
                                                             prepare      Supervisors
                                provides a      letters                                   Supervisors
                                                          letters from a prepare letters
44) Which of the following       template      based on                                  do not involve              None of the
                                                             standard      and send
scenarios best describes how     letter for   facts given                                  HR in the                   above
letters regarding disciplinary                            template and them to HR to
                               supervisors        by                                        process
actions are prepared?                                     send them to       review
                               to complete    supervisors
                                                          HR to review
                                  9.9%          41.6%          29.0%               16.1%               0.6%             2.8%
45) Please choose a response for
                                                                                                                        I do not
each statement regarding how               Always          Often      Sometimes            Rarely         Never
                                                                                                                          know
penalties for misconduct are selected
    Supervisors select penalties for
    discipline without consulting HR          0.2%         4.5%             12.2%          35.3%          40.2%           7.6%

    Supervisors approach HR with an
    idea of an appropriate penalty for
    misconduct and determine the            26.4%          40.6%            19.4%             4.4%         3.1%           6.1%
    penalty in consultation with HR

    HR makes a decision on the
    penalty without input from the            0.7%         1.8%             4.1%           19.1%          67.7%           6.5%
    supervisor


                                                  - 36 -
                                                                                                       Appendix 1
HUMAN RESOURCES PERSONNEL (Weighted Data)
46) Excluding the Symposium on           Within the       1 to 2 years      3 or more
Employee and Labor Relations                                                                   Never       I do not know
                                         last year            ago           years ago
(SOELR), when was the last time
you attended training on conduct and      20.7%              26.2%            37.3%            13.2%            2.6%
disciplinary actions?

                                                                                                Yes              No
47) Do you feel you need more training on conduct and disciplinary actions?
                                                                                               66.1%           33.9%

                                                                                Yes             No         I do not know
48) Are most managers adequately trained in disciplinary actions?
                                                                              20.2%            69.1%           10.7%

                                                                                Yes             No         I do not know
49) Does your office have sufficient staff to assist management
with disciplinary actions in a timely manner?
                                                                              60.6%            34.8%            4.6%
                                                            Employees
                                                         were allowed to
                                                                           Employees        Employees        Employees
                                                          resign with no
                                                                         were detailed to were relieved of were relieved of
                                                           indication of
                                                                         other positions      certain       supervisory
                                                            disciplinary
                                                                            or offices    responsibilities     duties
                                                         action on their
50) What actions have been taken with employees                record
in lieu of discipline?
                                                             54.0%            36.2%            42.0%           31.7%
               (Select all that apply)                     Employees
                                                                          I am not aware
                                                         were transferred
                                                                           of any actions    None of the
                                                             to other                                       I do not know
                                                                          taken in lieu of     above
                                                           positions at
                                                                              discipline
                                                           same grade

                                                             38.3%            15.2%            3.7%             6.2%

                                                                                Yes             No         I do not know
51) Are supervisors adequately trained in disciplinary actions?
                                                                              19.4%            71.0%            9.5%

                                                                                                Yes              No
52) Have you worked with a manager (deciding official) on a discipline issue?
                                                                                               85.2%           14.8%
53) Thinking about the last time you worked
with a manager (deciding official) on a                                       Neither
                                                                 Somewhat                 Somewhat
discipline issue, please rate the following       Satisfied                 Satisfied nor                    Dissatisfied
                                                                  Satisfied               Dissatisfied
items using the scale from satisfied to                                     Dissatisfied
dissatisfied.
    Amount of time it took for the manager to
                                                   49.2%           20.9%          13.1%         12.5%           4.3%
    get back with you
   Courteousness of the manager                    76.4%           10.3%          8.3%           2.9%           2.2%
   Knowledge of misconduct and disciplinary
                                                   32.6%           29.5%          18.8%         14.6%           4.5%
   topics
   Selection of penalty                            45.9%           27.4%          13.2%          9.6%           3.8%
   Timeliness in taking disciplinary actions       40.6%           21.3%          9.8%          17.4%           10.9%

                                                - 37 -
                                                                                                      Appendix 1
HUMAN RESOURCES PERSONNEL (Weighted Data)

                                                                                                Yes              No
54) Have you worked with a supervisor (proposing official) on a discipline issue?
                                                                                                84.3%          15.7%
55) Thinking about the last time you
worked with a supervisor (proposing
                                                       Somewhat      Neither Satisfied Somewhat
official) on a discipline issue please   Satisfied                                                           Dissatisfied
                                                        Satisfied    nor Dissatisfied Dissatisfied
rate the following items using the
scale from satisfied to dissatisfied
     Amount of time it took for the
                                          40.7%          30.5%               9.8%               14.7%           4.3%
     supervisor to get back with you
   Courteousness of the supervisor        71.3%          14.9%               7.5%               5.2%            1.1%
   Knowledge of misconduct and
                                          25.8%          31.5%               19.3%              18.5%           5.0%
   disciplinary topics
   Selection of penalty                   37.2%          33.7%               16.5%              9.3%            3.3%
   Timeliness in taking disciplinary
                                          34.7%          26.1%               12.1%              18.1%           9.1%
   actions
                                                                                                Yes              No
56) Have you worked with a Solicitor’s Office attorney on a discipline issue?
                                                                                                56.7%          43.3%
57) Thinking about the last time you
worked with a Solicitors Office
                                                       Somewhat      Neither Satisfied Somewhat
attorney on a discipline issue please    Satisfied                                                           Dissatisfied
                                                        Satisfied    nor Dissatisfied Dissatisfied
rate the following items using the
scale from satisfied to dissatisfied
    Amount of time it took for the
                                          52.50%         25.9%               3.5%               13.2%           5.0%
    attorney to get back with you
    Availability of the attorney          51.8%          24.2%               5.1%               12.9%           6.1%

    Courteousness of the attorney         74.8%          11.5%               8.1%               2.4%            3.2%
    Knowledge of misconduct and
                                          62.8%          19.9%               5.7%               8.1%            3.5%
    disciplinary topics
    Timeliness in responding to your
                                          54.8%          22.6%               9.7%               8.9%            4.0%
    request
    Overall level of service              57.4%          20.9%               10.8%              5.8%            5.1%
                                                                                                               I do not
                                                                             Yes                 No
58) Do you personally have authority to settle cases related to                                                  know
disciplinary actions?
                                                                             8.9%               86.7%           4.4%
59) Please indicate your level of                                    Neither
                                           Strongly                                               Strongly      I do not
agreement with the following statement                  Agree       Agree nor        Disagree
                                            Agree                                                 Disagree        know
regarding settlements -Judges persuade                              Disagree
the Agency to settle by suggesting that
the penalty will be decreased or            13.5%       21.9%        22.4%            6.1%            2.6%       33.5%
overturned.
                                                                                                                I do not
                                                                                       Yes             No
60) Is the Solicitor’s Office adequately staffed to advise human resources                                        know
staff on disciplinary matters?
                                                                                      22.0%        26.7%         51.3%


                                              - 38 -
                                                                                                        Appendix 1
HUMAN RESOURCES PERSONNEL (Weighted Data)
                                                                                                                 I do not
61) Does the Solicitor’s Office have the expertise to represent the Agency in            Yes            No
                                                                                                                   know
conduct-related personnel litigation?
                                                                                         49.4%         9.1%      41.5%
                                                                        Only if the                  I have
62) If you request assistance from the Solicitor’s                      employee                     never       I do not
Office, under what conditions will the Solicitor’s            Always                     Never
                                                                          has an                   requested       know
Office represent the Agency before the Merit                             attorney                  assistance
System Protection Board (MSPB)?
                                                              41.0%        4.2%          0.2%          17.7%     36.9%
                                                                                                                 I do not
63) Does the Solicitor’s Office have the appropriate number of staff to                  Yes            No
                                                                                                                   know
represent the Agency in conduct-related personnel litigation?
                                                                                         15.2%         24.0%     60.8%

                                                                                                       Yes         No
64) Do you supervise other employees?
                                                                                                       53.3%     46.7%



SOLICITOR ATTORNEYS
65) What is your area of                              Environmental
                                                                                                                Land
specialization?                                        and Natural
                                        Energy Law                       Fiscal Law        Indian Law        Management
                                                       Resources
                                                                                                                Law
    (Select all that apply)                                Law
                                          15.1%           67.9%             5.7%               32.1%            36.8%
Responses of all
attorneys:                                               Personnel
                                                                        Procurement        No area of
                                                       Litigation and                                           Other
                                                                        and Patents       specialization
    (See below for responses of                         Civil Rights
 attorneys who assist management
on disciplinary matters at least once                     27.4%             8.5%                2.8%            17.9%
              per year.)
                                                      Environmental
65) What is your area of                                                                                        Land
                                                       and Natural
specialization?                         Energy Law                       Fiscal Law        Indian Law        Management
                                                       Resources
                                                                                                                Law
                                                           Law
    (Select all that apply)
                                          16.0%           60.0%            10.0%               30.0%            46.0%
Responses of attorneys
who assist management                                    Personnel
                                                                        Procurement        No area of
on disciplinary matters at                             Litigation and                                           Other
                                                                        and Patents       specialization
least once per year:                                    Civil Rights
                                                          58.0%            14.0%               40.0%            20.0%
                                                                                          More than 15
                                                       1-4 times per    5-15 times per
66) How often do you assist                                                                times per            Never
                                                            year             year
Bureau/Departmental management on                                                             year
disciplinary matters? (Do not include
disciplinary matters within SOL.)                         22.9%            12.8%               11.9%            52.3%




                                                     - 39 -
                                                                                                      Appendix 1
SOLICITOR ATTORNEYS
                                                                                          Reluctance to
                                                                                            deal with     Reluctance
                                                                      Lack of support
                                                  Cases will be                            EEO (equal     to deal with
                                                                           from
                                                 settled anyway                           employment         future
                                                                       management
                                                                                           opportunity)   grievances
67) What factors deter supervisors from
                                                                                           complaints
disciplining employees?
                                                        6.7%              25.0%              33.7%          30.8%
            (Select all that apply)
                                                                      The disciplinary
                                                                                           None of the      I do not
                                                                        process is too
                                                                                             above            know
                                                                      time-consuming
                                                                          40.4%               4.8%          41.3%

                                                                                              Yes             No
68) Have you worked with a human resources staff member on a discipline
issue?
                                                                                             47.7%          52.3%
69) Thinking about the last time
you worked with a human
                                                                           Neither
resources staff member on a                              Somewhat                          Somewhat
                                          Satisfied                      Satisfied nor                    Dissatisfied
discipline issue, please rate the                         Satisfied                        Dissatisfied
                                                                         Dissatisfied
following items using the scale
from satisfied to dissatisfied
    Amount of time it took for the
    staff member to get back with          71.2%           23.1%             1.9%             1.9%           1.9%
    you
   Availability of the staff member        69.2%           26.9%             1.9%             1.9%           0.0%
   Courteousness of the staff
                                           84.6%           13.5%             0.0%             1.9%           0.0%
   member
   Knowledge of misconduct and
                                           67.3%           23.1%             5.8%             3.8%           0.0%
   disciplinary topics
   Timeliness in responding to
                                           72.5%           15.7%             3.9%             3.9%           3.9%
   your request
   Overall level of service                71.2%           17.3%             0.0%            11.5%           0.0%

                                                                                              Yes             No
70) Have you worked with a manager (deciding official) on a discipline issue?
                                                                                             42.2%          57.8%
71) Thinking about the last time you
worked with a manager (deciding                                             Neither
                                                         Somewhat                          Somewhat
official) on a discipline issue, please    Satisfied                      Satisfied nor                   Dissatisfied
                                                          Satisfied                        Dissatisfied
rate the following items using the                                        Dissatisfied
scale from satisfied to dissatisfied
    Amount of time it took for the
                                            71.7%          15.2%             8.7%             2.2%           2.2%
    manager to get back with you
    Courteousness of the manager
                                            82.6%          8.7%              4.3%             2.2%           2.2%
   Knowledge of misconduct and
                                            47.8%          21.7%             10.9%            17.4%          2.2%
   disciplinary topics
   Selection of penalty                     47.8%          26.1%             6.5%             13.0%          6.5%
   Timeliness in taking disciplinary
                                            48.9%          22.2%              4.4%            15.6%          8.9%
   actions

                                               - 40 -
                                                                                                     Appendix 1
SOLICITOR ATTORNEYS
                                                                                               Yes              No
72) Have you worked with a supervisor (proposing official) on a discipline issue?
                                                                                              38.5%           61.5%
73) Thinking about the last time
you worked with a supervisor
                                                                        Neither
(proposing official) on a discipline                   Somewhat                          Somewhat
                                         Satisfied                    Satisfied nor                         Dissatisfied
issue, please rate the following                        Satisfied                        Dissatisfied
                                                                      Dissatisfied
items using the scale from satisfied
to dissatisfied
   Amount of time it took for the
   supervisor to get back with you        73.8%          14.3%              9.5%              0.0%             2.4%

   Courteousness of the
                                          78.6%          11.9%              7.1%              0.0%             2.4%
   supervisor
   Knowledge of misconduct and
                                          50.0%          16.7%           19.0%                9.5%             4.8%
   disciplinary topics
   Selection of penalty                   45.2%          26.2%           19.0%                4.8%             4.8%
   Timeliness in taking disciplinary
                                          45.2%          31.0%              7.1%              9.5%             7.1%
   actions

74) Please indicate your level of
agreement (from strongly agree to        Strongly                Neither Agree                  Strongly       I do not
strongly disagree) with the                            Agree                       Disagree
                                          Agree                  nor Disagree                   Disagree         know
following statements about the DOI
Table of Penalties
    Contains a range of penalties
                                          5.7%         30.5%         5.7%             1.9%           1.0%       55.2%
    that is appropriate
    Contains adequate guidance on
                                          4.8%         21.9%         9.5%             5.7%           1.9%       56.2%
    progressiveness of penalties
    Provides a list of charges that is
                                          2.9%         23.1%         9.6%             5.8%           1.9%       56.7%
    specific enough
    Provides sufficient guidance on
                                          3.8%         22.9%         6.7%             7.6%           2.9%       56.2%
    penalty selection
    Provides sufficient guidance on
                                          2.9%         19.0%         9.5%           10.5%            1.9%       56.2%
    charge selection
75) Please indicate your level of        Strongly                Neither Agree                  Strongly       I do not
                                                       Agree                       Disagree
agreement (from strongly agree to         Agree                  nor Disagree                   Disagree         know
strongly disagree) with the
following statement regarding
settlements -- Judges persuade the
Agency to settle by suggesting that
the penalty will be decreased or          4.7%         21.5%         9.3%             8.4%           1.9%       54.2%
overturned.

Responses of all attorneys:

Responses of attorneys who
assist management on
                                          9.6%         36.5%        15.4%           15.4%            3.8%       19.2%
disciplinary matters at least
once per year:




                                              - 41 -
                                                                                                      Appendix 1
SOLICITOR ATTORNEYS
76) Excluding the Symposium on Employee and              Within
                                                                    1 to 2 years     3 or more                    I do not
Labor Relations (SOELR), when was the last              the last                                     Never
                                                                        ago          years ago                      know
time you attended training on conduct and                 year
disciplinary actions?
                                                         6.4%          14.7%           18.3%         56.9%         3.7%

                                                                                                    Yes             No
77) Do you feel like you need more training on conduct and disciplinary actions?
                                                                                                   56.5%          43.5%
78) How much influence does the Solicitor’s       Significant             Some            Little        No        I do not
Office attorney have in the selection of a        influence             influence      influence    influence       know
proposed penalty in disciplinary actions
related to misconduct?                               13.0%               23.1%           9.3%         1.9%        52.8%
79) When must your office                                           Only if the
                                                    If                                               At our       I do not
represent the Department              Always                       employee has        Never
                                                requested                                          discretion       know
before the Merit Systems                                            an attorney
Protection Board (MSPB) in
disciplinary cases?                   30.6%       11.1%                1.9%             6.5%          0.9%        49.1%
                                                                                                                  I do not
                                                                                      Yes             No
80) Is your office adequately staffed to advise management on                                                       know
disciplinary matters?
                                                                                     25.9%           34.3%        39.8%
                                                                                                                  I do not
81) Does your office have adequate staff to represent the Agency in                   Yes             No
                                                                                                                    know
conduct-related personnel litigation?
                                                                                     27.1%           37.4%        35.5%
82) How much influence does                                            Some            Little          No         I do not
                                       Significant influence
the Solicitor’s Office attorney                                      influence      influence      influence        know
have in the selection of the
charge in disciplinary actions                 14.8%                  22.2%           7.4%           2.8%         52.8%
related to misconduct?
                                      I have litigated before        I have litigated before
                                                                                                 I have litigated before
                                        the Merit Systems           the Equal Employment
                                                                                                 the Office of Hearings
                                         Protection Board                 Opportunity
                                                                                                   and Appeals (OHA)
                                             (MSPB)                  Commission (EEOC)
83) Please indicate your litigation
experience in conduct-related                  40.7%                        38.9%                         31.5%
disciplinary actions.
                                                                                                  I have never litigated
      (Select all that apply)          I have assisted the Department of Justice/US
                                                                                                 an appeal involving a
                                      Attorneys in federal court litigation arising out of
                                                                                                 conduct-related action
                                                  discipline-based actions
                                                              30.6%                                       51.9%




                                               - 42 -
                                                                                                             Appendix 1
SOLICITOR ATTORNEYS
                                                                                      I have
                                                                                                         I have authority to
                                           I have no        I have complete        discretionary
                                                                                                          settle cases only
                                         authority to      authority to settle   authority to settle
                                                                                                         with the consent of
                                          unilaterally     cases that do not      cases under a
84) What authority do you have                                                                            my supervisors /
                                         settle cases          cost money         specific dollar
to settle cases arising out of                                                                                managers
                                                                                        limit
disciplinary actions?
                                            25.2%                0.9%                    9.3%                    10.3%
      (Select all that apply)                                                                            I do not know what
                                          I have authority to settle cases
                                                                                        Other             authority I have to
                                         only with the consent of Agency
                                                                                                            settle a case
                                                   management
                                                                                         4.7%                    43.9%
                                                     31.8%
                                           Automated         Automated                Automated system          Manual log
                                           system for        system for                  for managing             sheet for
                                           managing        managing non-                  settlements            recording
                                         conduct related   conduct related             (conduct or non-           conduct
85) Does your office maintain                cases             cases                   conduct related)        related cases
any of the following systems?
                                               12.8%                12.8%                   5.5%                  11.9%
      (Select all that apply)          Manual log sheet for           Manual log sheet
                                                                                                None of the        I do not
                                      recording non-conduct           for recording all
                                                                                                  above              know
                                          related cases                 settlements
                                                 11.9%                         4.6%                  20.2%          58.7%
                                                                                                                   I do not
86) Does your office have the expertise to represent                  Yes                       No
                                                                                                                     know
the Agency in conduct-related personnel litigation?
                                                                    68.5%                    7.4%                  24.1%

                                                                                                Yes                  No
87) Do you supervise other employees?
                                                                                             22.9%                 77.1%

DEMOGRAPHICS
                                  Bureau of Bureau of Land Bureau of       Minerals      National Park
                                Indian Affairs Management Reclamation Management Service   Service
88) Please indicate where         12.0%                17.3%            9.5%                7.9%                  14.4%
you work.                       Office of Surface        U.S. Fish and Wildlife U.S. Geological         Other Departmental
                                     Mining                     Service             Survey                    Offices
                                      4.2%                      16.1%                   8.7%                     10.0%
                                                                      Regional
89) Please indicate where       Field Office     Headquarters                          State Office    Other No Response
                                                                       Office
you are located.
                                  49.0%                13.1%            20.7%             6.8%         10.0%        0.4%
90) Please indicate how         Less than 1                                              11 to 20      Over 20       No
                                                  1 to 5 years      6 to 10 years
long you have worked for           year                                                   years         years     Response
DOI.                               2.3%                16.9%            10.4%            31.8%         38.3%        0.2%
                                                General
                                Executive                      Senior Executive Wage Grade
91) Please indicate your                        Schedule                                       Other No Response
                                Schedule                           Service      (WG, WL, etc.)
pay plan.                                         (GS)
                                  0.3%           92.8%               0.4%                4.6%          1.6%         0.4%


                                                 - 43 -
                                                                                        Appendix 2


                           Evaluation Methodology
This evaluation was conducted during 2002 and 2003 in accordance with the Quality Standards for
Inspections issued by the President’s Council on Integrity and Efficiency. The evaluation’s objective
was to determine whether the DOI disciplinary program achieved results that promoted the efficiency
of the Department. The scope of the evaluation was fiscal years 1999 through 2002, i.e., the case files
and other departmental records we examined were created during this period.

By statute (5 U.S.C. 7503 and 5 U.S.C. 7513), disciplinary actions may only be taken for “such cause
as will promote the efficiency of the service.” Accordingly, we evaluated the Department’s program
against this standard. We considered whether (1) discipline is consistently applied throughout the
Department; (2) it corrects inappropriate behavior; and (3) it deters further misconduct. We used the
following instruments and techniques.

In-person interviews
We conducted 114 interviews at 39 separate locations with headquarters, regional, and field staff
from each of the eight bureaus and the departmental offices. These interviews included managers,
employee relations specialists, solicitor attorneys, union representatives, equal employment
opportunity counselors, and high-ranking departmental officials.

In addition, we obtained the observations and opinions of non-supervisory staff through voluntary
open meetings at 22 locations. These meetings, attended by over 400 employees, were held
exclusively for the “rank and file”; supervisory staff did not attend.

Case File Review
We reviewed 154 completed disciplinary action files at 11 locations to determine how the actions
were processed and the results of those actions.

Benchmarking
To identify best practices, we benchmarked DOI’s guidance on conduct and discipline with the
guidance of seven other federal agencies, including: the Federal Aviation Administration (FAA), the
National Aeronautics and Space Administration (NASA), the Small Business Administration (SBA),
the Department of Agriculture (USDA), the Department of Commerce (DOC), the Agency for
International Development (USAID), and the Environmental Protection Agency (EPA).

Nationwide Survey
The IG Employee Survey on Conduct and Discipline was administered in March 2003 to a stratified
random sample of over 25,000 permanent DOI employees throughout the United States. This
voluntary, anonymous survey was the largest and most inclusive survey undertaken by the Office of
Inspector General. It was designed to identify broad issues concerning discipline that exist

                                          - 44 -
                                                                                          Appendix 2
Department-wide by gathering the perceptions and opinions of the largest possible number of
employees.

Survey Administration

The survey was conducted primarily through the Internet, with employees notified of their selection
for the survey by e-mail. Paper survey forms were sent to employees without access to the Internet
due to the Cobell v. Norton litigation (the Bureau of Indian Affairs, Office of the Special Trustee for
American Indians, Office of Hearings and Appeals, Office of the Assistant Secretary for Indian
Affairs, and the Office of the Solicitor).

Of the 25,038 employees contacted (21,519 via e-mail and 3,519 through the U.S. Postal Service),
9,340 employees responded to the survey, resulting in a 37 percent overall response rate. The actual
number of complete and usable records was 8,922, representing a usable response rate of 36 percent.
These 8,922 records are comprised of: 5,198 non-supervisors, 3,304 supervisors, 311 human
resources personnel, and 109 Office of the Solicitor attorneys.

Survey Sample Determination

To ensure a representative data set, a statistically valid random sample was drawn from all permanent
employees in each of the eight bureaus and the departmental offices. The sample was stratified by
bureau/office and four position categories: supervisory, non-supervisory, human resources, and
Office of Solicitor attorneys. To further ensure that the survey results were statistically unbiased, the
data were weighted where applicable to account for over- and under-represented groups within the
sample. Weighting ensures that the demographic make-up of the departmental workforce is reflected
in the final data set.

Reliability of Results and Margin of Error

Whenever conclusions are drawn from sample data, there is always a chance that the conclusion will
be incorrect due to sampling error. A sampling error is the difference between the estimate derived
from a sample of the population and the “true” value that would result if every single person in the
population had been polled under the same conditions. To account for this sampling error, we
computed the confidence interval (percent certainty) for the responses of each population (i.e., all
employees, supervisors, non-supervisors, employee relations, and Office of Solicitor attorneys) in the
survey. This interval determines our confidence that the actual response percentage is within plus or
minus “x” percent of what it would be if the entire workforce had been polled with complete
accuracy. In this survey, the 95-percent confidence interval for the all employee, Department-wide
percentages has a margin of error of plus or minus 1.1 percent. In other words, we can say with 95-
percent certainty that the results for this group have a statistical precision of plus or minus 1.1
percentage point.




                                           - 45 -
                            Survey Questions and Responses1
          Response percentages are listed for the Department as a whole (DOI), and by Bureau.

ALL EMPLOYEES (Weighted Data)
1) How often do you observe                                                                          I am not aware of
                                      Always        Often       Sometimes     Rarely      Never
misconduct in your workplace?                                                                         any misconduct
DOI                                    3.4%        12.2%         26.8%        38.4%       4.9%            14.4%
BIA                                   10.5%        19.1%         33.6%        24.0%       4.2%             8.7%
BLM                                    2.5%        12.3%         29.3%        38.9%        .3%            13.7%
BOR                                   1.9%         11.5%         26.5%        41.4%       5.5%            13.2%
Departmental Offices                   4.5%        11.5%         24.2%        33.2%       7.5%            19.1%
FWS                                    1.7%        10.2%         21.1%        41.6%       6.5%            18.8%
MMS                                    3.4%        11.6%         25.2%        36.7%       6.7%            16.4%
NPS                                   2.1%         12.0%         27.2%        43.1%       3.0%            12.6%
OSM                                    2.5%         6.0%         24.0%        38.4%       6.0%            23.1%
USGS                                  0.9%         6.0%          22.3%        48.4%       6.7%            15.8%
                                                    Deters other
2) How does discipline impact                                           Deters me from
                                        Corrects     employees                                                I do not
misconduct in your workplace?                                            engaging in        Has no impact
                                       misconduct from engaging                                                 know
(Select all that apply)                                                  misconduct
                                                   in misconduct
DOI                                      24.3%         26.7%                22.3%               19.2%          29.8%
BIA                                      24.1%         25.8%                23.9%               26.1%          19.3%
BLM                                      23.2%         25.9%                22.8%               19.9%          29.1%
BOR                                      20.8%         27.4%                26.3%               18.2%          31.6%
Departmental Offices                     18.1%         17.8%                14.0%               23.8%          39.2%
FWS                                      24.5%         23.9%                20.3%               17.4%          36.3%
MMS                                      17.7%         19.4%                18.1%               22.9%          36.7%
NPS                                      30.1%         35.4%                24.8%               14.4%          24.5%
OSM                                      20.8%         19.4%                20.5%               22.1%          37.5%
USGS                                     32.5%         31.8%                17.1%               14.2%          31.4%
                                       To punish     To deter
                                                                           To correct
3) What is the main purpose of         employees    employees                                None of the      I do not
                                                                         inappropriate
discipline in your workplace?              for    from engaging                                above            know
                                                                            behavior
                                       misconduct in misconduct
DOI                                       7.3%        13.8%                 52.5%               11.5%          14.9%
BIA                                       7.8%        16.6%                 48.1%               16.6%          11.0%
BLM                                       7.0%        13.3%                 54.6%               11.6%          13.5%
BOR                                      11.4%        13.7%                 47.6%               11.1%          16.3%
Departmental Offices                      4.8%        10.5%                 50.5%               11.3%          22.9%
FWS                                       5.5%        12.3%                 52.5%               11.2%          18.5%
MMS                                       7.8%        12.3%                 48.8%               11.3%          19.7%
NPS                                       7.6%        14.4%                 58.3%               9.5%           10.2%
OSM                                       4.6%        16.6%                 46.3%               13.3%          19.1%
USGS                                      6.4%        16.6%                 56.4%               7.9%           12.8%


    1 Due to rounding, response percentages for each question may not always add to 100 percent. For questions
    marked “select all that apply”, percentages will total more than 100 percent because respondents could select
    multiple answers. Weighting procedures have been applied where applicable to ensure that the demographic make-
    up of the Departmental workforce is properly reflected.

                                                            1
ALL EMPLOYEES (Weighted Data)
                                                                                                      I do not
4) Do you expect that misconduct will be disciplined in your workplace?      Yes           No
                                                                                                        know
DOI                                                                          59.0%        27.9%        13.1%
BIA                                                                          49.4%        37.3%        13.3%
BLM                                                                          57.1%        30.6%        12.3%
BOR                                                                          58.5%        27.0%        14.4%
Departmental Offices                                                         54.3%        30.4%        15.3%
FWS                                                                          63.2%        22.0%        14.7%
MMS                                                                          53.2%        29.7%        17.1%
NPS                                                                          65.1%        24.8%        10.2%
OSM                                                                          55.6%        30.3%        14.1%
USGS                                                                         70.6%        20.0%        9.4%
5) Is discipline administered                                                                          I do not
                                    Always          Often        Sometimes   Rarely       Never
fairly in your workplace?                                                                                know
DOI                                 11.7%           16.1%          21.6%     18.1%         6.3%        26.2%
BIA                                 10.8%           13.0%          23.8%     23.3%        13.4%        15.7%
BLM                                  7.7%           16.0%          21.9%     19.7%         6.2%        28.5%
BOR                                  7.3%           15.3%          23.6%     19.8%         5.4%        28.5%
Departmental Offices                10.1%           11.3%          17.0%     17.9%         8.0%        35.6%
FWS                                 15.4%           14.9%          18.4%     14.7%         4.6%        32.1%
MMS                                  8.4%           15.4%          23.0%     17.7%         4.9%        30.6%
NPS                                 16.2%           20.9%          24.4%     16.6%         4.0%        17.9%
OSM                                 11.6%           12.7%          19.2%     14.9%         6.5%        35.1%
USGS                                19.1%           23.5%          18.0%     11.1%         2.0%        26.2%

                                                          Ignore the                           Take
                                         Ignore the                   Take appropriate
6) What do you think your                                misconduct                         appropriate
                                       misconduct no                  action to correct                      I do
supervisor would do if he/she                           depending on                          action
                                        matter who                    it no matter who                       not
became aware of misconduct in                                who                           depending on
                                       committed the                    committed the                       know
your workplace?                                         committed the                     who committed
                                        misconduct                       misconduct
                                                         misconduct                       the misconduct
DOI                                          3.1%               20.3%        49.9%           18.3%          8.5%
BIA                                          4.3%               29.5%        38.3%           20.9%          7.1%
BLM                                          4.0%               21.4%        47.5%           17.8%         9.2%
BOR                                          2.2%               21.3%        47.7%           19.8%          8.9%
Departmental Offices                         5.2%               20.4%        46.8%           16.3%         11.4%
FWS                                          2.0%               17.5%        55.9%           16.8%          7.7%
MMS                                          3.8%               18.8%        49.8%           16.1%         11.5%
NPS                                          2.0%               16.5%        53.9%           19.9%          7.6%
OSM                                          4.0%               19.1%        48.5%           14.8%         13.5%
USGS                                         1.8%               13.1%        63.9%           14.8%         6.4%




                                                            2
ALL EMPLOYEES (Weighted Data)
                                                                  Maybe, depending         No, not under
7) Would you report misconduct if you        Yes, under all                                                    I do not
                                                                      upon the                  any
knew it existed?                             circumstances                                                       know
                                                                   circumstances           circumstances
DOI                                              36.2%                  55.9%                  3.0%             4.9%
BIA                                              45.5%                  44.6%                  5.4%             4.4%
BLM                                              33.8%                  58.1%                  2.5%             5.6%
BOR                                              26.9%                  63.6%                  4.2%             5.3%
Departmental Offices                             28.8%                  59.7%                  2.5%             9.0%
FWS                                              35.7%                  57.5%                  1.9%             4.9%
MMS                                              27.2%                  61.4%                  4.5%             6.9%
NPS                                              43.2%                  52.9%                  1.6%             2.4%
OSM                                              31.0%                  57.1%                  3.8%             8.2%
USGS                                             43.9%                  50.2%                  2.1%             3.8%
                                           Nothing                     I do not want       I fear that my I fear that my
8) What deters you from reporting         deters me     I do not want   to get a co-          peers will   supervisor will
misconduct? (Select all that apply)     from reporting to get involved     worker          single me out single me out
                                          misconduct                     In trouble        for retaliation  for reprisal
DOI                                        34.9%             9.7%            10.0%            12.1%            15.6%
BIA                                        33.6%             9.7%             7.1%            16.2%            21.2%
BLM                                        32.4%            10.1%             9.2%            13.0%            16.8%
BOR                                        29.5%            11.2%            12.9%            15.4%            17.3%
Departmental Offices                       31.1%             9.9%            11.1%            11.1%            12.5%
FWS                                        36.8%             9.3%             9.9%             8.6%            13.1%
MMS                                        29.8%            13.7%            10.6%            13.7%            16.1%
NPS                                        40.8%            7.8%             10.3%            10.3%            14.1%
OSM                                        37.8%             8.6%            11.3%             8.6%            9.2%
USGS                                       45.9%            7.7%             10.6%            8.3%             8.6%
                                                  It is not my      Nothing will be done     None of the       I do not
                                                 responsibility      by my supervisor          above             know
DOI                                                  6.0%                 20.4%                 12.1%           3.7%
BIA                                                  4.7%                 28.0%                  7.2%           3.8%
BLM                                                  5.7%                 22.6%                 11.3%           4.5%
BOR                                                  7.3%                 17.9%                 12.8%           3.4%
Departmental Offices                                 8.9%                 23.2%                 12.6%           5.3%
FWS                                                  6.2%                 16.8%                 14.4%           3.2%
MMS                                                  7.7%                 21.4%                 14.0%           4.9%
NPS                                                  5.1%                 17.2%                 13.5%           2.6%
OSM                                                  8.6%                 18.9%                  9.7%           5.1%
USGS                                                 6.1%                 15.1%                 13.4%           2.2%




                                                            3
ALL EMPLOYEES (Weighted Data)
9) Does misconduct go undisciplined in your workplace?                     Yes         No       I do not know
DOI                                                                       41.8%      28.7%         29.5%
BIA                                                                       54.5%      26.7%         18.8%
BLM                                                                       45.0%      24.4%         30.6%
BOR                                                                       40.1%      25.4%         34.5%
Departmental Offices                                                      39.4%      25.7%         34.9%
FWS                                                                       33.9%      32.7%         33.4%
MMS                                                                       39.2%      22.9%         37.9%
NPS                                                                       42.5%      34.4%         23.1%
OSM                                                                       34.3%      25.4%         40.3%
USGS                                                                      31.0%      39.2%         29.8%
10) How are the following types of misconduct usually treated in your
                                                                        Ignored   Disciplined   I do not know
workplace?
    Accessing pornography on government computers
        DOI                                                              3.5%       46.6%          49.9%
        BIA                                                              6.6%       37.8%          55.6%
        BLM                                                              2.6%       50.8%          46.6%
        BOR                                                              2.8%       58.8%          38.4%
        Departmental Offices                                             3.1%       39.2%          57.7%
        FWS                                                              2.3%       38.1%          59.6%
        MMS                                                              3.2%       45.8%          51.0%
        NPS                                                              4.2%       50.8%          45.0%
        OSM                                                              3.8%       37.2%          59.0%
        USGS                                                             3.8%       55.3%          40.9%
    Not paying balances of government charge cards on time
        DOI                                                              7.6%       48.5%          43.9%
        BIA                                                             12.6%       59.9%          27.5%
        BLM                                                              8.9%       45.5%          45.6%
        BOR                                                              5.6%       44.8%          49.6%
        Departmental Offices                                             3.2%       36.7%          60.1%
        FWS                                                              5.9%       46.9%          47.2%
        MMS                                                              3.6%       41.6%          54.8%
        NPS                                                             7.8%        52.3%          39.9%
        OSM                                                              4.0%       43.7%          52.3%
        USGS                                                            6.7%        54.2%          39.1%
    Personal use of government charge cards
        DOI                                                              5.8%       54.9%          39.3%
        BIA                                                             12.8%       57.9%          29.3%
        BLM                                                              5.9%       54.1%          40.0%
        BOR                                                              3.4%       58.3%          38.3%
        Departmental Offices                                             2.5%       39.4%          58.0%
        FWS                                                              3.9%       51.6%          44.5%
        MMS                                                              3.4%       44.5%          52.1%
        NPS                                                             6.4%        61.7%          31.9%
        OSM                                                              4.3%       44.2%          51.5%
        USGS                                                            3.4%        62.8%          33.8%

                                                         4
ALL EMPLOYEES (Weighted Data)
10) How are the following types of misconduct usually treated in your
                                                                        Ignored   Disciplined   I do not know
workplace? (Continued)
    Personal use of government vehicles
        DOI                                                             13.1%       44.0%          43.0%
        BIA                                                             24.1%       41.0%          34.9%
        BLM                                                             13.9%       44.0%          42.1%
        BOR                                                             10.5%       46.6%          42.8%
        Departmental Offices                                             2.2%       28.0%          69.8%
        FWS                                                              9.7%       42.7%          47.7%
        MMS                                                              3.8%       29.2%          67.0%
        NPS                                                             16.0%       54.0%          30.1%
        OSM                                                              8.1%       39.4%          52.6%
        USGS                                                            8.9%        50.9%          40.2%
    Personal use of government tools or equipment (beyond policy)
        DOI                                                             18.6%       31.8%          49.6%
        BIA                                                             23.6%       28.1%          48.3%
        BLM                                                             20.2%       30.7%          49.1%
        BOR                                                             19.6%       29.0%          51.4%
        Departmental Offices                                            10.5%       27.4%          62.1%
        FWS                                                             14.4%       32.2%          53.5%
        MMS                                                             15.8%       24.3%          59.9%
        NPS                                                             20.8%       41.7%          37.5%
        OSM                                                             11.6%       22.4%          66.0%
        USGS                                                            17.2%       37.4%          45.4%
    Personal use of the Internet (beyond policy)
        DOI                                                             19.4%       32.0%          48.6%
        BIA                                                             14.3%       33.9%          51.7%
        BLM                                                             24.1%       30.5%          45.4%
        BOR                                                             19.2%       34.7%          46.0%
        Departmental Offices                                            19.9%       28.8%          51.3%
        FWS                                                             16.2%       30.5%          53.3%
        MMS                                                             20.7%       25.3%          54.0%
        NPS                                                             21.0%       34.2%          44.8%
        OSM                                                             20.8%       26.1%          53.1%
        USGS                                                            19.7%       35.5%          44.8%
    Personal use of e-mail (beyond policy)
        DOI                                                             19.7%       27.8%          52.5%
        BIA                                                             15.7%       29.3%          55.0%
        BLM                                                             24.1%       26.8%          49.1%
        BOR                                                             19.8%       25.7%          54.4%
        Departmental Offices                                            18.0%       28.4%          53.7%
        FWS                                                             15.4%       27.9%          56.8%
        MMS                                                             23.4%       21.0%          55.6%
        NPS                                                             21.1%       30.8%          48.1%
        OSM                                                             20.8%       23.2%          56.1%
        USGS                                                            22.0%       30.1%          47.8%



                                                         5
ALL EMPLOYEES (Weighted Data)
10) How are the following types of misconduct usually treated in your
                                                                        Ignored   Disciplined   I do not know
workplace? (Continued)
    Time and Leave abuse
        DOI                                                             27.4%       41.5%          31.1%
        BIA                                                             39.2%       36.1%          24.7%
        BLM                                                             29.4%       36.2%          34.4%
        BOR                                                             25.7%       40.2%          34.1%
        Departmental Offices                                            27.2%       40.8%          32.0%
        FWS                                                             20.4%       45.6%          34.0%
        MMS                                                             29.3%       36.1%          34.6%
        NPS                                                             25.8%       49.4%          24.8%
        OSM                                                             25.9%       34.2%          39.9%
        USGS                                                            21.3%       52.4%          26.3%
    Sexual harassment
        DOI                                                              8.9%       52.1%          39.0%
        BIA                                                             14.3%       39.4%          46.3%
        BLM                                                              8.4%       58.7%          32.9%
        BOR                                                             10.8%       52.8%          36.4%
        Departmental Offices                                             8.7%       39.3%          52.0%
        FWS                                                              6.3%       50.0%          43.8%
        MMS                                                             10.2%       46.2%          43.7%
        NPS                                                             7.6%        60.0%          32.4%
        OSM                                                              5.7%       46.9%          47.4%
        USGS                                                            6.0%        62.6%          31.4%
    Travel voucher fraud
        DOI                                                              4.7%       41.2%          54.2%
        BIA                                                              8.6%       37.0%          54.4%
        BLM                                                              4.5%       39.2%          56.3%
        BOR                                                              3.7%       40.7%          55.6%
        Departmental Offices                                             0.9%       33.0%          66.1%
        FWS                                                              4.3%       42.5%          53.2%
        MMS                                                              4.1%       36.1%          59.8%
        NPS                                                              4.5%       47.7%          47.8%
        OSM                                                              3.0%       41.2%          55.8%
        USGS                                                             3.0%       52.3%          44.8%
    Working under the influence of alcohol
        DOI                                                             11.2%       40.3%          48.5%
        BIA                                                             17.5%       43.5%          39.0%
        BLM                                                             14.2%       39.0%          46.7%
        BOR                                                             11.3%       34.1%          54.7%
        Departmental Offices                                            10.6%       30.0%          59.4%
        FWS                                                              5.8%       37.5%          56.7%
        MMS                                                             13.9%       28.5%          57.6%
        NPS                                                             8.5%        53.3%          38.1%
        OSM                                                              7.8%       35.6%          56.6%
        USGS                                                            9.3%        45.7%          45.0%


                                                         6
ALL EMPLOYEES (Weighted Data)
10) How are the following types of misconduct usually treated in your
                                                                           Ignored      Disciplined   I do not know
workplace? (Continued)
    Working under the influence of drugs
       DOI                                                                  5.4%          39.3%          55.3%
       BIA                                                                 11.3%          38.3%          50.4%
       BLM                                                                  5.6%          38.5%          55.8%
       BOR                                                                  6.5%          34.8%          58.7%
       Departmental Offices                                                 3.2%          30.5%          66.3%
       FWS                                                                  2.7%          37.3%          60.0%
       MMS                                                                  4.6%          26.0%          69.4%
       NPS                                                                 4.1%           52.9%          43.0%
       OSM                                                                  2.2%          32.3%          65.5%
       USGS                                                                3.9%           45.1%          51.0%
    Workplace violence
       DOI                                                                  6.9%          47.6%          45.4%
       BIA                                                                 12.9%          38.7%          48.4%
       BLM                                                                  6.2%          50.1%          43.6%
       BOR                                                                  8.6%          45.2%          46.2%
       Departmental Offices                                                 6.3%          40.0%          53.7%
       FWS                                                                  4.0%          44.6%          51.4%
       MMS                                                                  6.9%          45.9%          47.2%
       NPS                                                                 6.4%           59.2%          34.4%
       OSM                                                                  6.7%          40.4%          52.8%
       USGS                                                                3.5%           56.7%          39.8%
11) Within the last three years, please indicate which                             Disciplinary actions
                                                           Equal
topics you have received training on. (Select all that                  Diversity   (How to Deal with      Ethics
                                                         Opportunity
apply)                                                                            Problem Employees)
DOI                                                        39.8%        48.9%             23.7%            66.5%
BIA                                                        29.2%        13.2%             16.5%            43.5%
BLM                                                        52.5%        59.9%             24.8%            82.3%
BOR                                                        39.9%        61.8%             20.9%            68.7%
Departmental Offices                                       21.4%        47.8%             17.0%            59.6%
FWS                                                        30.3%        45.3%             18.3%            60.0%
MMS                                                        35.7%        53.6%             22.0%            94.7%
NPS                                                        49.1%        51.9%             39.6%            66.1%
OSM                                                        62.8%        70.6%             21.8%            95.7%
USGS                                                       34.7%        66.7%             27.8%            52.2%
                                                                 Sexual      Use of government        None of the
                                                               harassment       credit cards            above
DOI                                                              56.3%             72.6%                10.4%
BIA                                                              40.9%             67.1%                19.7%
BLM                                                              76.4%             92.1%                 1.3%
BOR                                                              60.2%             63.7%                12.4%
Departmental Offices                                             42.3%             39.4%                18.7%
FWS                                                              46.3%             63.5%                16.7%
MMS                                                              57.4%             57.3%                 1.1%
NPS                                                              56.2%             83.6%                 6.8%
OSM                                                              73.6%             71.7%                 1.3%
USGS                                                             48.4%             68.0%                10.3%
                                                           7
ALL EMPLOYEES (Weighted Data)
12) How many times have you heard about settlements                             Three or            I do not
                                                           Once       Twice                 Never
related to disciplinary actions in your workplace?                             more times             know
DOI                                                        14.0%     12.3%       19.9%      40.8%    13.0%
BIA                                                        13.5%     11.1%       16.7%      43.3%    15.3%
BLM                                                        14.4%     14.6%       23.4%      35.0%    12.7%
BOR                                                        15.7%     14.7%       21.5%      36.1%    12.0%
Departmental Offices                                       14.7%      8.8%       10.2%      54.2%    12.2%
FWS                                                        14.3%      8.8%       14.0%      50.8%    12.0%
MMS                                                        13.5%     14.6%       27.1%      30.1%    14.6%
NPS                                                        12.4%     12.9%       25.9%      35.5%    13.4%
OSM                                                        11.1%     10.5%       15.9%      42.4%    20.0%
USGS                                                       14.2%     14.1%       19.4%      42.0%    10.3%
13) Are you an attorney in the Solicitor’s Office?                                          Yes       No
DOI                                                                                         0.6%    99.4%
BIA                                                                                           .     100.0%
BLM                                                                                           .     100.0%
BOR                                                                                           .     100.0%
Departmental Offices                                                                          .     100.0%
FWS                                                                                           .     100.0%
MMS                                                                                           .     100.0%
NPS                                                                                           .     100.0%
OSM                                                                                           .     100.0%
USGS                                                                                          .     100.0%
14) Are you an employee who works on disciplinary matters in a human resources office?      Yes      No
DOI                                                                                         1.6%    98.4%
BIA                                                                                         0.5%    99.5%
BLM                                                                                         1.6%    98.4%
BOR                                                                                         1.3%    98.7%
Departmental Offices                                                                        1.1%    98.9%
FWS                                                                                         0.6%    99.4%
MMS                                                                                         1.1%    98.9%
NPS                                                                                         4.5%    95.5%
OSM                                                                                         1.3%    98.7%
USGS                                                                                        2.2%    97.8%
15) Do you supervise employees?                                                              Yes     No
DOI                                                                                         20.9%   79.1%
BIA                                                                                         12.9%   87.1%
BLM                                                                                         14.6%   85.4%
BOR                                                                                         11.6%   88.4%
Departmental Offices                                                                        11.5%   88.5%
FWS                                                                                         17.2%   82.8%
MMS                                                                                         13.3%   86.7%
NPS                                                                                         49.3%   50.7%
OSM                                                                                         10.2%   89.8%
USGS                                                                                        48.4%   51.6%




                                                       8
SUPERVISORS (Weighted Data)
                                                                                     Neither
16) Please indicate whether the following are formal or                                         I do not
                                                              Formal    Informal   Formal nor
informal types of discipline.                                                                     know
                                                                                    Informal
        Demotion
                 DOI                                           94.1%     0.5%        2.3%        3.2%
                 BIA                                           84.9%     0.9%        7.0%        7.3%
                 BLM                                           94.7%     0.7%        2.4%        2.2%
                 BOR                                           94.0%     0.8%        2.4%        2.8%
                 Departmental Offices                          96.6%       .         1.7%        1.7%
                 FWS                                           95.1%     0.4%        1.1%        3.4%
                 MMS                                           97.3%     0.7%        0.7%        1.3%
                 NPS                                           95.7%     0.3%        1.7%        2.3%
                 OSM                                           94.6%       .           .         5.4%
                 USGS                                          92.5%     0.3%        2.4%        4.8%
        Letter of Counseling
                 DOI                                           40.0%    50.9%        3.5%        5.6%
                 BIA                                           35.9%    53.3%        5.8%        4.9%
                 BLM                                           38.1%    53.7%        3.3%        4.9%
                 BOR                                           39.0%    55.0%        2.0%        4.0%
                 Departmental Offices                          55.1%    39.0%        1.7%        4.2%
                 FWS                                           45.3%    45.5%        3.2%        6.0%
                 MMS                                           44.6%    45.9%        3.4%        6.1%
                 NPS                                           39.1%    53.0%        3.4%        4.5%
                 OSM                                           40.5%    51.4%        5.4%        2.7%
                 USGS                                          37.1%    47.0%        3.8%       12.1%
        Letter of Reprimand
                 DOI                                           88.9%     8.7%        0.5%        1.9%
                 BIA                                           86.6%    10.0%        1.7%        1.7%
                 BLM                                           89.4%     8.6%        0.2%        1.8%
                 BOR                                           88.7%     8.5%        0.4%        2.4%
                 Departmental Offices                          88.9%     6.8%          .         4.3%
                 FWS                                           89.5%     8.5%        0.4%        1.5%
                 MMS                                           93.8%     3.4%        0.7%        2.1%
                 NPS                                           88.2%    9.8%         0.3%        1.7%
                 OSM                                           91.9%     8.1%          .           .
                 USGS                                          90.7%    6.3%         0.8%        2.2%
        Removal
                 DOI                                           97.6%     0.4%        0.5%        1.5%
                 BIA                                           93.9%     0.6%        2.0%        3.5%
                 BLM                                           98.2%     0.5%        0.4%        0.9%
                 BOR                                           98.4%       .         0.4%        1.2%
                 Departmental Offices                          96.6%     1.7%          .         1.7%
                 FWS                                           97.5%     0.3%        0.4%        1.8%
                 MMS                                           98.7%       .           .         1.3%
                 NPS                                           98.3%     0.4%        0.3%        1.0%
                 OSM                                          100.0%%      .           .           .
                 USGS                                          96.5%       .         1.1%        2.4%



                                                          9
SUPERVISORS (Weighted Data)
                                                                                           Neither
16) Please indicate whether the following are formal or                                               I do not
                                                               Formal       Informal     Formal nor
informal types of discipline. (Continued)                                                               know
                                                                                          Informal
        Suspension
                DOI                                             97.4%        0.7%            0.5%      1.4%
                BIA                                             94.9%        1.4%            1.1%      2.6%
                BLM                                             96.9%        0.9%            0.5%      1.6%
                BOR                                             98.0%        0.4%            0.4%      1.2%
                Departmental Offices                            98.3%          .               .       1.7%
                FWS                                             97.6%        0.1%            0.3%      2.0%
                MMS                                             98.7%        0.7%              .       0.7%
                NPS                                             97.9%        1.1%            0.4%      0.6%
                OSM                                            100.0%%         .               .         .
                USGS                                            97.3%          .             0.5%      2.2%
        Verbal Counseling
                DOI                                             6.9%        86.2%            4.7%      2.1%
                BIA                                             9.7%        79.7%            7.7%      2.9%
                BLM                                             5.9%        87.2%            4.6%      2.4%
                BOR                                             6.4%        89.2%            3.2%      1.2%
                Departmental Offices                            8.5%        84.7%            4.2%      2.5%
                FWS                                             8.3%        86.2%            2.8%      2.7%
                MMS                                             8.1%        83.1%            6.8%      2.0%
                NPS                                             6.8%        86.6%            5.4%      1.3%
                OSM                                             5.4%        81.1%            8.1%      5.4%
                USGS                                            4.3%        88.7%            3.8%      3.2%

17) Do you know where to go to get procedures and policies on discipline?              Yes             No
DOI                                                                                    92.7%           7.3%
BIA                                                                                    94.9%          5.1%
BLM                                                                                    94.0%          6.0%
BOR                                                                                    93.7%          6.3%
Departmental Offices                                                                   88.2%          11.8%
FWS                                                                                    92.2%          7.8%
MMS                                                                                    93.9%          6.1%
NPS                                                                                    92.1%          7.9%
OSM                                                                                    97.3%          2.7%
USGS                                                                                   91.1%          8.9%




                                                          10
SUPERVISORS (Weighted Data)
                                                                                                   I do not know
18) Are you familiar with the Table of               Somewhat      Somewhat
                                         Familiar                                  Unfamiliar     what the Table of
Penalties?                                            familiar     unfamiliar
                                                                                                    Penalties is
DOI                                      25.2%         34.8%          8.0%          16.3%              15.7%
BIA                                      46.0%         38.9%          4.0%           6.3%               4.9%
BLM                                      30.9%         36.9%          6.5%          15.3%              10.4%
BOR                                      28.7%         35.9%         11.6%          11.6%              12.4%
Departmental Offices                     13.6%         33.9%          5.9%          20.3%              26.3%
FWS                                      19.5%         32.7%         10.0%          21.4%              16.3%
MMS                                      18.9%         33.8%          4.7%          18.9%              23.6%
NPS                                      24.9%         35.4%         8.2%           14.9%              16.6%
OSM                                      27.0%         35.1%         10.8%          16.2%              10.8%
USGS                                     10.8%         28.6%         8.6%           24.5%              27.5%
19) Please indicate your level of agreement (from
                                                        Strongly                            Strongly      I do not
strongly agree to strongly disagree) with the following            Agree        Disagree
                                                         Agree                              Disagree        know
statements about the DOI Table of Penalties
    Contains a range of penalties that is appropriate
                 DOI                                     10.1%     51.6%         3.5%           0.6%      34.2%
                 BIA                                      8.7%     73.4%         3.8%           0.6%      13.5%
                 BLM                                     15.0%     52.7%         3.8%           0.2%      28.2%
                 BOR                                     11.2%     57.4%         2.8%           0.8%      27.7%
                 Departmental Offices                     6.8%     39.3%         0.9%           0.9%      52.1%
                 FWS                                      7.3%     50.7%         2.9%           0.9%      38.3%
                 MMS                                      6.8%     50.0%         1.4%             .       41.8%
                 NPS                                     10.6%     51.2%         4.6%           0.9%      32.8%
                 OSM                                        .      59.5%         5.4%             .       35.1%
                 USGS                                    8.2%      34.7%         1.4%           0.3%      55.5%
    Contains adequate guidance on progressiveness of penalties
                 DOI                                      6.9%     48.5%          8.3%          1.3%      35.0%
                 BIA                                      6.8%     63.4%         13.3%          1.9%      14.6%
                 BLM                                      9.9%     49.6%         10.8%          0.7%      28.9%
                 BOR                                      9.7%     51.8%         7.7%           1.6%      29.1%
                 Departmental Offices                     6.8%     33.3%          3.4%          1.7%      54.7%
                 FWS                                      4.3%     46.9%          8.3%          1.0%      39.5%
                 MMS                                      6.2%     45.2%          5.5%            .       43.2%
                 NPS                                     7.1%      50.1%         8.0%           1.6%      33.1%
                 OSM                                        .      48.6%          8.1%          5.4%      37.8%
                 USGS                                    4.6%      34.4%         4.1%           0.8%      56.0%
    Provides a list of charges that is specific enough
                 DOI                                      5.6%     44.1%         10.2%          1.3%      38.7%
                 BIA                                      6.8%     63.1%         13.7%          1.4%      15.0%
                 BLM                                      7.7%     47.3%         12.4%          0.7%      31.8%
                 BOR                                      5.6%     48.8%          8.5%          2.0%      35.1%
                 Departmental Offices                     3.5%     28.1%          7.9%          0.9%      59.6%
                 FWS                                      4.0%     41.5%          9.9%          1.3%      43.3%
                 MMS                                      4.8%     43.8%          6.2%            .       45.2%
                 NPS                                     6.2%      44.0%         11.6%          1.9%      36.3%
                 OSM                                        .      51.4%          5.4%          5.4%      37.8%
                 USGS                                    3.3%      29.9%         3.3%           0.3%      63.2%
                                                       11
SUPERVISORS (Weighted Data)
19) Please indicate your level of agreement (from
strongly agree to strongly disagree) with the following    Strongly                                Strongly        I do not
                                                                           Agree      Disagree
statements about the DOI Table of Penalties                 Agree                                  Disagree          know
(Continued)
   Provides sufficient guidance on penalty selection
               DOI                                           5.1%          43.1%         13.1%         1.4%        37.3%
               BIA                                           6.1%          57.5%         19.0%         2.4%        15.0%
               BLM                                           6.9%          45.9%         15.5%         0.9%        30.7%
               BOR                                           6.8%          46.6%         11.6%         2.4%        32.5%
               Departmental Offices                          3.5%          33.9%          3.5%         1.7%        57.4%
               FWS                                           3.0%          40.7%         12.1%         1.3%        43.0%
               MMS                                           5.6%          41.7%          9.7%           .         43.1%
               NPS                                           5.5%          43.3%         14.5%         1.4%        35.3%
               OSM                                             .           45.9%         13.5%         5.4%        35.1%
               USGS                                          2.7%          31.6%         6.0%          0.5%        59.1%
   Provides sufficient guidance on charge selection
               DOI                                           4.8%          41.4%         13.0%         1.0%        39.9%
               BIA                                           5.6%          60.3%         16.7%         1.7%        15.7%
               BLM                                           6.0%          45.0%         15.5%         0.4%        33.1%
               BOR                                           6.5%          46.4%          9.7%         2.4%        35.1%
               Departmental Offices                          2.6%          33.3%          5.1%         0.9%        58.1%
               FWS                                           2.6%          37.3%         12.4%         1.0%        46.7%
               MMS                                           6.2%          40.4%          8.9%           .         44.5%
               NPS                                           5.3%          41.4%         14.9%         1.1%        37.2%
               OSM                                             .           37.8%         18.9%         2.7%        40.5%
               USGS                                          3.0%          27.7%         5.2%          0.5%        63.5%

20) Are you aware of the types of disciplinary actions you can initiate?           Yes            No          I do not know
DOI                                                                                82.1%         12.9%            5.0%
BIA                                                                                86.1%         10.8%            3.1%
BLM                                                                                83.1%         12.4%           4.5%
BOR                                                                                86.1%          9.1%            4.8%
Departmental Offices                                                               64.7%         24.4%           10.9%
FWS                                                                                80.4%         13.8%            5.8%
MMS                                                                                83.1%         11.5%           5.4%
NPS                                                                                84.1%         11.8%            4.1%
OSM                                                                                73.0%         10.8%           16.2%
USGS                                                                               75.4%         17.4%           7.2%




                                                          12
SUPERVISORS (Weighted Data)
                                                                                          I have never
21) When was the last time you
                                                                                        received training
received training on misconduct and      Within the    1 to 2 years     3 or more                           I do not
                                                                                       on misconduct and
how to discipline employees?             last year         ago          years ago                             know
                                                                                        how to discipline
                                                                                           employees
DOI                                        17.9%         27.1%           34.0%              19.3%             1.7%
BIA                                        16.1%         21.2%           39.9%              21.5%             1.1%
BLM                                        26.0%         29.5%           27.5%              16.4%            0.5%
BOR                                        24.2%         29.8%           32.1%              12.3%            1.6%
Departmental Offices                        5.0%         22.7%           35.3%              31.1%            5.9%
FWS                                        13.8%         21.8%           42.5%              20.0%             1.9%
MMS                                        19.5%         33.6%           26.2%              18.1%            2.7%
NPS                                        18.9%         32.2%           31.0%              16.4%             1.6%
OSM                                         2.7%         16.2%           40.5%              29.7%            10.8%
USGS                                       9.4%          18.4%           38.0%              31.8%            2.4%

22) Do you feel you need training on misconduct and how to discipline                                       I do not
                                                                                 Yes            No
employees?                                                                                                    know
DOI                                                                            51.2%           45.3%         3.5%
BIA                                                                            71.8%           25.4%         2.8%
BLM                                                                            46.0%           51.6%         2.4%
BOR                                                                            41.0%           55.4%         3.6%
Departmental Offices                                                           55.5%           39.5%         5.0%
FWS                                                                            50.8%           45.2%         4.0%
MMS                                                                            45.6%           49.7%         4.7%
NPS                                                                            51.9%           44.9%         3.2%
OSM                                                                            50.0%           50.0%           .
USGS                                                                           47.1%           47.6%         5.3%

23) Would you consider recommending an award for an                                    Depends on the       I do not
                                                                 Yes        No
employee who has been disciplined for misconduct?                                      circumstances          know
DOI                                                            11.1%       20.7%            66.6%            1.6%
BIA                                                             9.0%       37.2%            52.6%            1.2%
BLM                                                             9.1%       19.9%            67.9%            3.1%
BOR                                                            13.5%       18.7%            67.3%            0.4%
Departmental Offices                                            8.4%       23.5%            64.7%            3.4%
FWS                                                            10.4%       18.1%            70.3%            1.3%
MMS                                                            15.4%       17.4%            67.1%              .
NPS                                                            11.4%       19.6%            67.7%            1.3%
OSM                                                            16.2%       16.2%            64.9%            2.7%
USGS                                                           13.9%       17.6%            66.8%            1.6%




                                                        13
SUPERVISORS (Weighted Data)
24) Please indicate which actions have
                                                            Letter of        Letter of
you taken for misconduct. (Select all that   Demotion                                       Removal        Suspension
                                                           Counseling       Reprimand
apply)
DOI                                              3.7%          48.7%          46.6%          23.8%           27.5%
BIA                                              6.8%          43.4%          69.0%          33.0%           44.8%
BLM                                              4.2%          51.0%          51.7%          24.3%           28.9%
BOR                                              2.0%          54.8%          48.0%          23.0%           29.0%
Departmental Offices                             2.5%          47.5%          35.0%          14.2%           20.0%
FWS                                              1.9%          38.8%          38.0%          19.0%           20.0%
MMS                                              2.0%          44.3%          39.6%          14.8%           23.5%
NPS                                              4.5%          56.6%          46.2%          25.9%           28.0%
OSM                                                .           32.4%          29.7%           2.7%           10.8%
USGS                                             2.4%          36.1%          39.3%          22.5%           24.1%
                                                                 Verbal                      I have not disciplined an
                                                                                 Other
                                                               counseling                    employee for misconduct
DOI                                                               79.8%           8.0%                14.4%
BIA                                                               78.3%          7.6%                  7.3%
BLM                                                               80.9%          8.0%                 13.4%
BOR                                                               84.1%          9.5%                 11.9%
Departmental Offices                                              65.0%          4.2%                 26.7%
FWS                                                               77.3%          7.2%                 18.2%
MMS                                                               75.2%          6.7%                 20.1%
NPS                                                               83.6%          8.7%                 11.8%
OSM                                                               75.7%          13.5%                21.6%
USGS                                                              73.0%          7.5%                 21.9%
                                                                           I have been
25) Which of the                                    I have been both                        I have never
                           I have        I have                               both a
following statements                                a proposing and                             been a       None of
                          been a         been a                           proposing and
best describes your                                 a deciding official                     proposing or       the
                         proposing      deciding                            a deciding
involvement in                                         on separate                            a deciding      above
                           official      official                         official on the
disciplinary actions?                                    actions                                official
                                                                           same action
DOI                        33.7%          6.0%           22.8%                 5.0%           17.3%          15.2%
BIA                        42.7%          6.0%           26.2%                 4.0%           10.6%          10.6%
BLM                        30.0%          6.4%           26.9%                 6.4%           17.3%          13.1%
BOR                        35.1%          8.4%           21.9%                 3.6%           15.5%          15.5%
Departmental Offices       26.7%         10.8%           17.5%                 2.5%           20.0%          22.5%
FWS                        28.2%          6.1%           20.3%                 5.6%           20.7%          19.1%
MMS                        26.4%          2.7%           22.3%                 6.8%           16.9%          25.0%
NPS                        37.0%          4.6%           23.8%                 5.2%           16.5%          12.8%
OSM                        40.5%          5.4%           16.2%                 2.7%           18.9%          16.2%
USGS                       32.5%          7.8%           17.2%                 3.2%           20.4%          18.8%




                                                          14
SUPERVISORS (Weighted Data)
26) Over the last 4 years, approximately how many                                                    More
times have you disciplined employees using the      None     1 to 5   6 to 10   11 to 15 16 to 20   than 20
following types of discipline?                                                                       times
     Demotion
         DOI                                         97.0%   2.9%        .         .        .        0.1%
         BIA                                        94.5%    5.5%        .         .        .          .
         BLM                                        96.2%    3.8%        .         .        .          .
         BOR                                        99.1%    0.9%        .         .        .          .
         Departmental Offices                       97.2%    1.9%        .         .        .        0.9%
         FWS                                        98.3%    1.6%        .         .        .        0.2%
         MMS                                        100.0%     .         .         .        .          .
         NPS                                        96.5%    3.5%        .         .        .          .
         OSM                                        100.0%     .         .         .        .          .
         USGS                                       97.6%    2.4%        .         .        .          .
     Letter of Counseling
         DOI                                        51.0%    46.3%    2.2%       0.3%     0.1%       0.1%
         BIA                                        45.5%    50.5%    3.4%       0.6%       .          .
         BLM                                        48.3%    48.7%    2.7%       0.4%       .          .
         BOR                                        45.5%    50.8%    3.7%         .        .          .
         Departmental Offices                       50.4%    46.0%    0.9%       0.9%       .        1.8%
         FWS                                        61.8%    37.2%    0.7%       0.1%       .        0.1%
         MMS                                        60.8%    39.2%      .          .        .          .
         NPS                                        45.6%    51.1%    2.6%       0.5%     0.3%         .
         OSM                                        62.9%    31.4%    5.7%         .        .          .
         USGS                                       63.2%    36.2%    0.6%         .        .          .
     Letter of Reprimand
         DOI                                        58.6%    40.3%     0.9%      0.1%      0.0%      0.1%
         BIA                                        34.8%    61.3%     3.0%      0.3%      0.3%      0.3%
         BLM                                        55.4%    43.2%     1.4%        .         .         .
         BOR                                        57.4%    41.3%     0.4%      0.9%        .         .
         Departmental Offices                       65.5%    32.7%     0.9%        .         .       0.9%
         FWS                                        68.3%    31.3%     0.3%        .         .       0.1%
         MMS                                        69.1%    30.9%       .         .         .         .
         NPS                                        58.0%    41.1%     0.8%      0.2%        .         .
         OSM                                        77.1%    22.9%       .         .         .         .
         USGS                                       66.4%    33.6%       .         .         .         .
     Removal
         DOI                                         81.4%   18.3%     0.2%      0.0%         .      0.1%
         BIA                                        67.7%    31.3%     0.7%      0.3%       .          .
         BLM                                        81.7%    18.3%       .         .        .          .
         BOR                                        83.2%    16.8%       .         .        .          .
         Departmental Offices                       86.9%    12.1%       .         .        .        0.9%
         FWS                                        83.7%    16.1%       .         .        .        0.2%
         MMS                                        88.2%    11.8%       .         .        .          .
         NPS                                        81.9%    17.6%     0.3%        .        .        0.2%
         OSM                                        100.0%      .        .         .        .          .
         USGS                                       81.3%    18.7%       .         .        .          .


                                                    15
SUPERVISORS (Weighted Data)
26) Over the last 4 years, approximately how many                                                                 More
times have you disciplined employees using the             None      1 to 5       6 to 10    11 to 15 16 to 20   than 20
following types of discipline? (Continued)                                                                        times
    Suspension
       DOI                                                 75.0%     24.1%         0.7%       0.1%         .      0.1%
       BIA                                                 53.8%     43.9%         2.0%       0.3%       .          .
       BLM                                                 75.7%     23.5%         0.8%         .        .          .
       BOR                                                 71.4%     26.9%         1.3%       0.4%       .          .
       Departmental Offices                                80.0%     19.0%           .          .        .        1.0%
       FWS                                                 81.8%     17.9%         0.2%         .        .        0.2%
       MMS                                                 80.3%     19.0%         0.7%         .        .          .
       NPS                                                 75.1%     24.1%         0.6%       0.2%       .          .
       OSM                                                 94.4%      5.6%           .          .        .          .
       USGS                                                79.0%     20.7%         0.3%         .        .          .
    Verbal Counseling
       DOI                                                 17.1%     63.2%        13.1%       3.5%      1.0%      2.2%
       BIA                                                 12.9%     68.5%        12.1%       2.6%      1.5%      2.4%
       BLM                                                 13.6%     65.3%        14.9%       3.5%      1.1%      1.7%
       BOR                                                 15.0%     62.2%        13.8%       4.9%      1.6%      2.4%
       Departmental Offices                                22.2%     60.7%         9.4%       3.4%      1.7%      2.6%
       FWS                                                 21.8%     61.7%        12.2%       2.7%      0.4%      1.3%
       MMS                                                 21.2%     63.7%        10.3%       4.1%        .       0.7%
       NPS                                                 14.6%     62.8%        14.3%       4.3%      1.0%      3.0%
       OSM                                                 27.0%     51.4%         8.1%       5.4%      2.7%      5.4%
       USGS                                                25.7%     61.1%        10.0%       1.4%      0.5%      1.4%
                                      Allowed employees to
                                                                   Detailed             Relieved           Relieved
27) What actions have you                 resign with no
                                                                employees to          employees of       employees of
taken with employees in lieu of            indication of
                                                                other positions          certain          supervisory
discipline? (Select all that apply)   disciplinary action on
                                                                   or offices        responsibilities       duties
                                            their record
DOI                                            18.0%                 7.7%                   24.9%              8.0%
BIA                                           21.4%                 12.7%                   23.9%              9.3%
BLM                                           19.8%                  8.7%                   31.6%              9.3%
BOR                                           23.4%                  7.9%                   19.4%              5.6%
Departmental Offices                          12.5%                  4.2%                   15.8%              3.3%
FWS                                           13.2%                  6.5%                   25.2%              8.6%
MMS                                           10.1%                  2.0%                   12.8%              6.0%
NPS                                           18.1%                  8.1%                   25.1%              7.8%
OSM                                             8.1%                 5.4%                   18.9%                .
USGS                                          19.5%                  4.5%                   23.8%              8.6%




                                                           16
SUPERVISORS (Weighted Data)
  27) What actions have you taken with      Transferred employees                           I am not aware of any
 employees in lieu of discipline? (Select    to other positions at           Other          actions taken in lieu of
       all that apply) Continued                 same grade                                       discipline
DOI                                                 7.9%                     10.8%                  55.3%
BIA                                                 7.9%                     11.0%                  47.3%
BLM                                                10.7%                     10.9%                  52.8%
BOR                                                 7.5%                      9.5%                  54.0%
Departmental Offices                                5.8%                     10.8%                  61.7%
FWS                                                 6.2%                      8.6%                  60.6%
MMS                                                 7.4%                      7.4%                  69.8%
NPS                                                 8.1%                     12.6%                  54.2%
OSM                                                 2.7%                     13.5%                  64.9%
USGS                                                6.7%                      8.8%                  56.4%
28) For which of the following disciplinary actions do you                    Letter of    Letter of
                                                                  Demotion                                Removal
consult human resources? (Select all that apply)                             Counseling   Reprimand
DOI                                                                47.8%       37.2%        48.7%          50.5%
BIA                                                                42.8%       31.0%        51.0%          51.3%
BLM                                                                46.6%       37.0%        47.2%          49.0%
BOR                                                                46.0%       41.7%        47.6%          47.6%
Departmental Offices                                               33.3%       32.5%        35.8%          34.2%
FWS                                                                48.0%       39.4%        48.1%          50.1%
MMS                                                                39.6%       37.6%        39.6%          40.9%
NPS                                                                53.6%       38.1%        52.9%          55.9%
OSM                                                                45.9%       43.2%        45.9%          45.9%
USGS                                                               40.9%       33.7%        42.2%          42.8%
                                                                               Verbal      All of the    None of the
                                                              Suspension
                                                                             counseling     above          above
DOI                                                                50.5%       12.2%        46.5%           4.8%
BIA                                                                52.4%       17.5%        40.0%           5.1%
BLM                                                                48.6%       12.3%        50.6%           4.9%
BOR                                                                47.6%       12.7%        52.4%           4.0%
Departmental Offices                                               35.8%       11.7%        58.3%           5.0%
FWS                                                                49.9%       10.4%        45.4%           5.7%
MMS                                                                42.3%       13.4%        59.7%           4.7%
NPS                                                                56.0%       10.9%        41.2%           4.9%
OSM                                                                45.9%       13.5%        62.2%             .
USGS                                                               42.0%       13.6%        54.5%           4.0%




                                                             17
SUPERVISORS (Weighted Data)
                                                           An
                                                                                     Solicitor’s
29) In general, who selects the initial                 Employee         My                                    I do not
                                               I do                                    Office      Other
penalty in a disciplinary action related                Relations     supervisor                                 know
                                                                                      attorney
to misconduct?                                          Specialist
DOI                                           41.6%       25.1%         13.9%          0.6%         4.4%        14.4%
BIA                                           48.7%       24.4%         16.1%          0.9%         5.4%         4.4%
BLM                                           51.9%       19.3%         12.6%          0.4%         3.3%        12.6%
BOR                                           49.6%       22.6%         11.9%            .          4.0%        11.9%
Departmental Offices                          34.5%       20.2%         14.3%          2.5%         4.2%        24.4%
FWS                                           42.0%       22.4%         13.5%          0.6%         2.8%        18.8%
MMS                                           43.2%       25.7%          9.5%          0.7%         1.4%        19.6%
NPS                                           38.3%       26.4%         15.4%          0.7%         5.9%        13.2%
OSM                                           41.7%       36.1%          2.8%            .          2.8%        16.7%
USGS                                          26.5%       36.1%         12.6%          0.8%         4.3%        19.8%
30) Have you worked with a Solicitor’s Office attorney on a discipline issue?             Yes                 No
DOI                                                                                     19.5%               80.5%
BIA                                                                                     32.3%               67.7%
BLM                                                                                     20.9%               79.1%
BOR                                                                                     18.3%               81.7%
Departmental Offices                                                                    18.3%               81.7%
FWS                                                                                     14.4%               85.6%
MMS                                                                                     10.1%               89.9%
NPS                                                                                     20.9%               79.1%
OSM                                                                                     27.0%               73.0%
USGS                                                                                    13.1%               86.9%
31) Thinking about the last time you worked with                                     Neither
a Solicitor’s Office attorney on a discipline issue,                 Somewhat       Satisfied   Somewhat
                                                       Satisfied                                             Dissatisfied
please rate the following items using the scale                       Satisfied        nor      Dissatisfied
from satisfied to dissatisfied:                                                    Dissatisfied
    Amount of time it took for the attorney to get back with you
                DOI                                     56.4%         19.2%           9.7%         10.2%         4.5%
                BIA                                     42.0%         26.8%           7.1%         13.4%        10.7%
                BLM                                     59.6%         18.4%           8.8%         11.4%         1.8%
                BOR                                     56.5%         23.9%           8.7%         10.9%           .
                Departmental Offices                    68.8%         18.8%           6.3%          6.3%           .
                FWS                                     54.9%         18.6%           7.8%         11.8%         6.9%
                MMS                                     69.2%          7.7%           7.7%         15.4%           .
                NPS                                     60.6%         16.9%          11.3%          8.5%         2.8%
                OSM                                     66.7%         22.2%             .          11.1%           .
                USGS                                    52.2%         15.2%          15.2%          6.5%        10.9%




                                                           18
SUPERVISORS (Weighted Data)
31) Thinking about the last time you worked with                                  Neither
a Solicitor’s Office attorney on a discipline issue,               Somewhat      Satisfied   Somewhat
                                                       Satisfied                                          Dissatisfied
please rate the following items using the scale                     Satisfied       nor      Dissatisfied
from satisfied to dissatisfied: (Continued)                                     Dissatisfied
    Availability of the attorney
                   DOI                                  55.3%       20.7%         10.4%        10.0%         3.5%
                   BIA                                  46.4%       24.1%         12.5%        11.6%         5.4%
                   BLM                                  53.5%       23.7%         11.4%         9.6%         1.8%
                   BOR                                  54.5%       18.2%         13.6%        11.4%         2.3%
                   Departmental Offices                 66.7%       20.0%          6.7%         6.7%           .
                   FWS                                  52.0%       24.5%          5.9%        14.7%         2.9%
                   MMS                                  61.5%       15.4%          7.7%        15.4%           .
                   NPS                                  59.2%       18.3%         10.6%         8.5%         3.5%
                   OSM                                  66.7%       11.1%         11.1%        11.1%           .
                   USGS                                 59.6%       17.0%          8.5%         6.4%         8.5%
    Courteousness of the attorney
                   DOI                                  77.1%       12.1%          7.3%         3.0%         0.5%
                   BIA                                  70.3%       20.7%          6.3%         2.7%           .
                   BLM                                  83.0%        9.8%          3.6%         2.7%         0.9%
                   BOR                                  75.6%       13.3%          4.4%         6.7%           .
                   Departmental Offices                 73.3%       13.3%         13.3%           .            .
                   FWS                                  75.5%        9.8%         10.8%         2.9%         1.0%
                   MMS                                  69.2%          .          23.1%         7.7%           .
                   NPS                                  78.7%       10.6%          7.1%         2.8%         0.7%
                   OSM                                  77.8%       22.2%            .            .            .
                   USGS                                 74.5%       10.6%         12.8%         2.1%           .
    Knowledge of misconduct and disciplinary topics
                   DOI                                  67.3%       19.4%          9.5%         2.2%         1.7%
                   BIA                                  62.2%       19.8%         11.7%         4.5%         1.8%
                   BLM                                  68.1%       23.0%          7.1%           .          1.8%
                   BOR                                  65.9%       18.2%          9.1%         4.5%         2.3%
                   Departmental Offices                 75.0%        6.3%         12.5%           .          6.3%
                   FWS                                  64.7%       17.6%         10.8%         5.9%         1.0%
                   MMS                                  84.6%          .           7.7%         7.7%           .
                   NPS                                  69.5%       20.6%          8.5%           .          1.4%
                   OSM                                  77.8%       11.1%            .         11.1%           .
                   USGS                                 63.8%       14.9%         14.9%         4.3%         2.1%
    Timeliness in responding to your request
                   DOI                                  54.0%       22.2%         10.4%         9.7%          3.8%
                   BIA                                  38.7%       27.0%          8.1%        15.3%         10.8%
                   BLM                                  50.0%       28.9%          9.6%         8.8%          2.6%
                   BOR                                  54.3%       26.1%         17.4%         2.2%            .
                   Departmental Offices                 68.8%       18.8%         12.5%           .             .
                   FWS                                  48.0%       26.5%          8.8%        11.8%          4.9%
                   MMS                                  76.9%          .          15.4%         7.7%            .
                   NPS                                  62.1%       16.4%         10.7%         9.3%          1.4%
                   OSM                                  66.7%       22.2%            .         11.1%            .
                   USGS                                 53.2%       19.1%         10.6%         8.5%          8.5%

                                                           19
SUPERVISORS (Weighted Data)
31) Thinking about the last time you worked with                                    Neither
a Solicitor’s Office attorney on a discipline issue,                 Somewhat      Satisfied   Somewhat
                                                        Satisfied                                           Dissatisfied
please rate the following items using the scale                       Satisfied       nor      Dissatisfied
from satisfied to dissatisfied: (Continued)                                       Dissatisfied
   Overall level of service
                   DOI                                   60.0%         19.5%         10.9%         6.6%         3.0%
                   BIA                                   42.7%         27.3%         13.6%        10.9%         5.5%
                   BLM                                   62.3%         22.8%          8.8%         5.3%         0.9%
                   BOR                                   60.9%         21.7%         10.9%         6.5%           .
                   Departmental Offices                  64.7%         17.6%          5.9%         5.9%         5.9%
                   FWS                                   55.9%         19.6%         13.7%         9.8%         1.0%
                   MMS                                   69.2%          7.7%         15.4%         7.7%           .
                   NPS                                   66.7%         15.6%         10.6%         3.5%         3.5%
                   OSM                                   77.8%         11.1%            .         11.1%           .
                   USGS                                  53.2%         19.1%         10.6%         8.5%         8.5%

32) Have you worked with a human resources staff member on a discipline issue?                  Yes             No

DOI                                                                                            72.8%          27.2%
BIA                                                                                            71.1%          28.9%
BLM                                                                                            76.2%          23.8%
BOR                                                                                            76.6%          23.4%
Departmental Offices                                                                           68.3%          31.7%
FWS                                                                                            65.3%          34.7%
MMS                                                                                            69.8%          30.2%
NPS                                                                                            76.1%          23.9%
OSM                                                                                            73.0%          27.0%
USGS                                                                                           69.2%          30.8%
33) Thinking about the last time you worked                                         Neither
with a human resources staff member on a                            Somewhat       Satisfied   Somewhat
                                                       Satisfied                                            Dissatisfied
discipline issue, please rate the following items                    Satisfied        nor      Dissatisfied
using the scale from satisfied to dissatisfied:                                   Dissatisfied
    Amount of time it took for the staff member to get back with you
                DOI                                   70.8%        14.9%             4.1%         6.3%          3.9%
                BIA                                   52.4%        19.6%             5.2%        12.8%         10.0%
                BLM                                   71.9%        17.4%             4.3%         3.8%          2.6%
                BOR                                   78.2%        14.0%             1.6%         4.1%          2.1%
                Departmental Offices                  75.6%          7.7%            5.1%        10.3%          1.3%
                FWS                                   77.0%        13.0%             3.0%         4.5%          2.6%
                MMS                                   73.8%          9.7%            6.8%         5.8%          3.9%
                NPS                                   68.5%        15.1%             4.9%         7.3%          4.3%
                OSM                                   85.2%        11.1%             3.7%           .             .
                USGS                                  76.4%        12.7%             2.3%         5.4%          3.1%




                                                            20
SUPERVISORS (Weighted Data)
33) Thinking about the last time you worked
                                                                             Neither
with a human resources staff member on a
                                                              Somewhat      Satisfied   Somewhat
discipline issue, please rate the following items Satisfied                                          Dissatisfied
                                                               Satisfied       nor      Dissatisfied
using the scale from satisfied to dissatisfied:
                                                                           Dissatisfied
(Continued)
    Availability of the staff member
                  DOI                               68.9%      17.5%          4.5%         6.6%          2.5%
                  BIA                               49.2%      23.2%          7.6%        12.0%          8.0%
                  BLM                               70.1%      19.4%          3.8%         5.3%          1.4%
                  BOR                               76.7%      15.5%          2.1%         3.1%          2.6%
                  Departmental Offices              73.1%      10.3%          7.7%         6.4%          2.6%
                  FWS                               72.6%      17.5%          4.1%         4.3%          1.5%
                  MMS                               77.7%       7.8%          3.9%         7.8%          2.9%
                  NPS                               66.8%      17.5%          4.9%         8.4%          2.4%
                  OSM                               74.1%      22.2%          3.7%           .             .
                  USGS                              77.1%      14.7%          3.1%         3.9%          1.2%
    Courteousness of the staff member
                  DOI                               81.3%      10.8%          4.7%         2.5%          0.7%
                  BIA                               68.8%      17.6%          6.0%         5.6%          2.0%
                  BLM                               85.6%       8.6%          2.9%         1.9%          1.0%
                  BOR                               84.9%      10.4%          3.1%         1.0%          0.5%
                  Departmental Offices              83.3%       6.4%          6.4%         3.8%            .
                  FWS                               85.9%       7.7%          4.3%         1.3%          0.9%
                  MMS                               84.2%       6.9%          6.9%         1.0%          1.0%
                  NPS                               76.5%      13.6%          5.8%         3.5%          0.6%
                  OSM                               96.3%       3.7%            .            .             .
                  USGS                              91.1%       5.1%          3.5%         0.4%            .
    Knowledge of misconduct and disciplinary topics
                  DOI                               72.3%      15.5%          5.1%         4.8%          2.2%
                  BIA                               65.3%      17.1%          6.8%         7.2%          3.6%
                  BLM                               72.4%      17.4%          4.0%         3.8%          2.4%
                  BOR                               77.7%      14.5%          2.6%         2.6%          2.6%
                  Departmental Offices              76.6%       9.1%          5.2%         5.2%          3.9%
                  FWS                               80.5%      12.2%          3.4%         2.8%          1.1%
                  MMS                               62.7%      17.6%          8.8%         8.8%          2.0%
                  NPS                               66.5%      17.0%          6.9%         6.7%          2.8%
                  OSM                               70.4%      29.6%            .            .             .
                  USGS                              85.3%      10.9%          2.7%         1.2%            .
    Timeliness in responding to your request
                  DOI                               67.5%      16.9%          4.8%         6.5%          4.2%
                  BIA                               50.8%      19.7%          7.4%        10.7%         11.5%
                  BLM                               71.0%      18.9%          2.9%         3.8%          3.4%
                  BOR                               75.6%      15.0%          2.1%         3.6%          3.6%
                  Departmental Offices              72.7%      11.7%          6.5%         6.5%          2.6%
                  FWS                               73.4%      15.4%          3.9%         5.1%          2.1%
                  MMS                               70.3%      10.9%          6.9%         8.9%          3.0%
                  NPS                               63.6%      17.8%          6.4%         7.7%          4.7%
                  OSM                               77.8%      18.5%          3.7%           .             .
                  USGS                              73.3%      14.3%          2.7%         7.4%          2.3%
                                                        21
SUPERVISORS (Weighted Data)
   Overall level of service
                 DOI                                69.0%           15.8%           6.0%         6.1%          3.0%
                 BIA                                51.2%           20.1%           9.0%        12.7%          7.0%
                 BLM                                72.0%           17.2%           4.1%         4.1%          2.6%
                 BOR                                74.0%           16.1%           2.6%         4.7%          2.6%
                 Departmental Offices               75.0%            6.6%           6.6%        10.5%          1.3%
                 FWS                                75.5%           13.8%           4.5%         3.9%          2.4%
                 MMS                                70.3%            9.9%           3.0%        14.9%          2.0%
                 NPS                                64.5%           17.1%           8.5%         6.6%          3.4%
                 OSM                                81.5%           14.8%             .          3.7%            .
                 USGS                               80.2%           11.6%           3.1%         3.9%          1.2%
                                                             I have           I have
                                            I have
                                                          discretionar      authority to                    I do not
                           I have no       complete
34) What authority do                                      y authority     settle cases                    know what
                         authority to    authority to
you have to settle                                          to settle      only with the       Other       authority I
                          unilaterally   settle cases
cases arising out of                                      cases under     consent of my                     have to
                         settle cases     that do not
disciplinary actions?                                      a specific      supervisors/                   settle a case
                                         cost money
                                                           dollar limit     managers
DOI                         44.3%           3.2%              2.2%            11.3%            1.3%          37.8%
BIA                         39.6%           5.1%              2.2%            13.6%            1.9%          37.7%
BLM                         43.4%           5.5%              2.7%            13.3%            1.8%          33.3%
BOR                         39.7%           4.8%              3.2%            15.1%            1.2%          36.1%
Departmental Offices        46.2%           3.4%              0.8%            15.1%            1.7%          32.8%
FWS                         43.3%           2.1%              0.8%             9.6%            1.2%          43.0%
MMS                         48.3%           1.4%              2.0%             9.5%            0.7%          38.1%
NPS                         47.2%           2.4%              2.0%             9.9%            1.1%          37.4%
OSM                         35.1%           2.7%              5.4%             8.1%              .           48.6%
USGS                        42.9%           2.4%              3.5%            10.7%            0.5%          39.9%

35) Please indicate your level of agreement
                                                                           Neither
with the following statement regarding           Strongly                                        Strongly     I do not
                                                                Agree     Agree nor Disagree
settlements--Judges persuade the Agency to        Agree                                          Disagree       know
                                                                          Disagree
settle by suggesting that the penalty will be
decreased or overturned
DOI                                                6.9%         14.5%       18.0%      7.1%        2.0%        51.6%
BIA                                                8.0%         16.9%       22.9%      11.7%       3.4%        37.0%
BLM                                                 7.8%        18.8%       20.3%      7.7%        1.6%        43.8%
BOR                                                 6.4%         8.8%       16.5%      5.6%        3.2%        59.4%
Departmental Offices                               10.2%        11.0%       12.7%      5.1%        2.5%        58.5%
FWS                                                 4.9%        12.1%       14.5%      5.5%        1.5%        61.4%
MMS                                                 6.1%        10.1%       16.2%      4.1%        0.7%        62.8%
NPS                                                 7.3%        15.5%       18.7%      7.2%        1.9%        49.5%
OSM                                                 5.6%        19.4%       13.9%        .         2.8%        58.3%
USGS                                                6.0%        11.7%       16.3%      7.3%        1.4%        57.3%




                                                           22
SUPERVISORS (Weighted Data)
36) Have you wanted
                                                                                                       I thought the
to take disciplinary
                                                                                                        case would
action but chose not to                   I was fearful
                                                                                          I lacked       be settled
because…                  I was fearful    of an equal      I did not      I feared
                                                                                        knowledge          anyway
                               of an      employment         want to      retaliation
                                                                                            of the        because
(Select all that apply)     employee       opportunity     offend the       by the
                                                                                        disciplinary       similar
                            grievance         (EEO)        employee       employee
                                                                                          process      actions were
Responses of all                            complaint
                                                                                                          settled in
supervisors:
                                                                                                          the past
DOI                           7.7%           10.7%              2.2%        5.5%           8.9%            4.4%
BIA                           5.6%            6.2%              0.6%        4.2%           6.5%            5.9%
BLM                           8.0%           11.3%              3.4%        5.3%          10.9%            6.2%
BOR                           4.4%            9.9%              2.4%        6.0%           4.8%            3.2%
Departmental Offices         11.7%           13.3%              3.3%        6.7%          10.8%            3.3%
FWS                           7.8%            7.4%              3.2%        6.8%           6.8%            3.1%
MMS                           5.4%           11.4%              1.3%        3.4%           6.0%            2.7%
NPS                           9.0%           13.7%              1.5%        5.5%          10.9%            4.8%
OSM                          13.5%           16.2%                .         8.1%           5.4%            5.4%
USGS                          5.6%            8.3%              2.7%        4.8%           7.2%            2.9%
                                          Management
                                             mitigated
                                                           Management          The                     I will always
                          It took time     (decreased
                                                             would not      employee                        take
                           away from       the penalty)                                     Other
                                                            support the    was a good                   disciplinary
                          other duties        similar
                                                              action        performer                      action
                                          actions in the
                                               past
DOI                          11.7%            10.6%             21.4%          8.7%        14.4%          36.1%
BIA                          13.2%            13.8%             25.9%          9.3%        13.2%          34.4%
BLM                          12.5%            12.9%             23.6%          8.5%        15.2%          35.9%
BOR                          10.3%             9.9%             15.1%         10.3%        15.5%          41.7%
Departmental Offices         17.5%            10.8%             19.2%          6.7%        11.7%          39.2%
FWS                          11.9%             6.8%             14.7%          7.5%        15.0%          37.0%
MMS                          11.4%             6.7%             15.4%          6.0%        12.1%          46.3%
NPS                          11.9%            12.2%             26.1%          9.7%        14.1%          32.8%
OSM                          13.5%             5.4%             18.9%         13.5%        16.2%          37.8%
USGS                          7.8%             6.7%             15.0%          7.2%        14.2%          40.9%
36) Have you wanted
to take disciplinary
action but chose not to                                                                                I thought the
because…                                                                                                case would
                                          I was fearful
                                                                                          I lacked       be settled
                          I was fearful    of an equal      I did not      I feared
(Select all that apply)                                                                 knowledge          anyway
                               of an      employment         want to      retaliation
                                                                                            of the        because
                            employee       opportunity     offend the       by the
Responses of                                                                            disciplinary       similar
                            grievance         (EEO)        employee       employee
supervisors who did                                                                       process      actions were
                                            complaint
not select the option                                                                                     settled in
“I will always take                                                                                       the past
disciplinary action”:

DOI                          12.0%           16.8%              3.5%        8.6%          13.9%           6.9%
BIA                          8.6%            9.4%               0.9%        6.4%          9.9%            9.0%
BLM                          12.5%           17.6%              5.4%        8.2%          17.0%           9.6%
                                                           23
SUPERVISORS (Weighted Data)
BOR                          7.5%             17.0%              4.1%        10.2%           8.2%        5.4%
Departmental Offices        19.2%             21.9%              5.5%        11.0%           17.8%       5.5%
FWS                         12.3%             11.7%              5.1%        10.8%           10.8%       4.8%
MMS                         10.0%             21.3%              2.5%         6.3%           11.3%       5.0%
NPS                         13.3%             20.4%              2.3%        8.1%            16.3%       7.1%
OSM                         21.7%             26.1%              4.5%        13.0%           8.7%        8.7%
USGS                        9.5%              14.0%              3.5%         8.1%           12.2%       6.9%
                                         Management mitigated           Management
                         It took time                                                     The employee
                                            (decreased the                would not
                          away from                                                        was a good    Other
                                         penalty) similar actions        support the
                         other duties                                                       performer
                                               in the past                 action
DOI                          5.0%                 16.6%                    33.5%             13.7%       22.5%
BIA                         18.4%                 21.0%                    39.5%             14.2%       20.2%
BLM                         20.2%                 20.1%                    36.8%             13.3%       23.8%
BOR                         19.5%                 17.0%                    25.9%             17.7%       26.5%
Departmental Offices        17.7%                 17.8%                    31.5%             11.0%       19.2%
FWS                         28.8%                 10.8%                    23.3%             11.9%       23.8%
MMS                         18.9%                 12.5%                    28.8%             11.3%       22.5%
NPS                         21.3%                 18.1%                    38.8%             14.4%       21.0%
OSM                         17.7%                  8.7%                    30.4%             21.7%       26.1%
USGS                        21.7%                 11.3%                    25.3%             12.2%       24.0%
37) Over the last four years, how many
                                                                               Three or                  I do not
disciplinary actions were you involved with           One           Two                        None
                                                                                more                       know
that resulted in a settlement?
DOI                                               11.6%             6.5%         5.0%          74.6%      2.4%
BIA                                               12.7%             7.3%        10.7%          66.4%      2.8%
BLM                                               12.5%             9.3%         6.4%          69.5%      2.4%
BOR                                               14.3%             5.2%         4.0%          73.4%      3.2%
Departmental Offices                               7.5%             4.2%         2.5%          81.7%      4.2%
FWS                                               10.4%             4.3%         1.8%          82.0%      1.4%
MMS                                               13.4%             2.7%         0.7%          81.2%      2.0%
NPS                                               11.3%             6.9%         5.9%          73.5%      2.4%
OSM                                               10.8%             2.7%           .           83.8%      2.7%
USGS                                              10.7%             5.9%         2.4%          78.1%      2.9%




                                                            24
HUMAN RESOURCES PERSONNEL (Weighted Data)
38) Over the last four years, how many
                                                                        Three or
disciplinary actions were you involved       One             Two                     None        I do not know
                                                                         more
with that resulted in a settlement?
DOI                                         17.2%            13.4%      32.8%        31.5%           5.1%
BIA                                            .             21.4%      50.0%        21.4%           7.1%
BLM                                         15.1%            15.1%      28.3%        37.7%          3.8%
BOR                                         12.5%             6.3%      53.1%        21.9%           6.3%
Departmental Offices                        20.0%            13.3%      13.3%        46.7%          6.7%
FWS                                         13.2%            16.9%      46.3%        16.9%           6.6%
MMS                                         23.1%            23.1%      23.1%        23.1%          7.7%
NPS                                         20.9%            11.5%      26.6%        35.9%           5.0%
OSM                                            .             20.0%      20.0%        40.0%          20.0%
USGS                                        23.5%            17.6%      47.1%        11.8%             .

39) How are employees disciplined in                                               None of the
                                           Leniently    Appropriately   Harshly                  I do not know
your servicing area?                                                                 above
DOI                                         27.7%            64.2%       1.2%         3.0%           3.8%
BIA                                         16.7%            50.0%      16.7%         8.3%           8.3%
BLM                                         34.6%            55.8%         .         3.8%           5.8%
BOR                                         34.4%            62.5%      3.1%            .              .
Departmental Offices                        13.3%            73.3%         .            .           13.3%
FWS                                         22.3%            61.4%       3.2%         9.6%           3.6%
MMS                                         23.1%            61.5%         .            .           15.4%
NPS                                         28.8%            66.9%         .         2.2%            2.2%
OSM                                            .             60.0%         .         20.0%          20.0%
USGS                                        11.8%            88.2%         .            .              .
40) Are you aware of instances where no disciplinary action was taken
                                                                          Yes          No        I do not know
on the following?
        Accessing pornography on government computers
                                      DOI                                11.2%       75.1%          13.7%
                                      BIA                                 7.1%       78.6%          14.3%
                                      BLM                                11.3%       77.4%          11.3%
                                      BOR                                 6.3%       84.4%           9.4%
                                      Departmental Offices                6.7%       60.0%          33.3%
                                      FWS                                   .        80.5%          19.5%
                                      MMS                                   .        69.2%          30.8%
                                      NPS                                17.5%       69.4%          13.1%
                                      OSM                                   .        80.0%          20.0%
                                      USGS                                  .        93.8%          6.3%




                                                        25
HUMAN RESOURCES PERSONNEL (Weighted Data)
40) Are you aware of instances where no disciplinary action was taken
                                                                        Yes      No     I do not know
on the following? (Continued)
       Not paying balances of government charge cards on time
                                       DOI                              33.0%   54.3%      12.7%
                                      BIA                               57.1%   35.7%       7.1%
                                      BLM                               34.0%   54.7%      11.3%
                                      BOR                               40.6%   43.8%      15.6%
                                      Departmental Offices              20.0%   53.3%      26.7%
                                      FWS                               44.6%   51.8%       3.6%
                                      MMS                               30.8%   53.8%      15.4%
                                      NPS                               26.5%   58.3%      15.1%
                                      OSM                               40.0%   60.0%         .
                                      USGS                              35.3%   58.8%      5.9%
       Personal use of government charge cards
                                       DOI                              25.2%   61.5%      13.4%
                                      BIA                               57.1%   42.9%         .
                                      BLM                               17.3%   63.5%      19.2%
                                      BOR                               37.5%   53.1%       9.4%
                                      Departmental Offices              20.0%   53.3%      26.7%
                                      FWS                               19.1%   77.3%       3.6%
                                      MMS                                7.7%   61.5%      30.8%
                                      NPS                               26.7%   60.0%      13.3%
                                      OSM                               20.0%   60.0%      20.0%
                                      USGS                              17.6%   76.5%      5.9%
       Personal use of government vehicles
                                       DOI                              23.0%   63.7%      13.2%
                                      BIA                               21.4%   64.3%      14.3%
                                      BLM                               23.5%   62.7%      13.7%
                                      BOR                               22.6%   71.0%       6.5%
                                      Departmental Offices               6.7%   60.0%      33.3%
                                      FWS                               13.1%   70.9%      15.9%
                                      MMS                                7.7%   46.2%      46.2%
                                      NPS                               29.1%   60.5%      10.4%
                                      OSM                                  .    75.0%      25.0%
                                      USGS                              11.8%   76.5%      11.8%
       Personal use of government tools or equipment (beyond policy)
                                       DOI                              20.4%   58.2%      21.5%
                                      BIA                                7.7%   69.2%      23.1%
                                      BLM                               22.6%   50.9%      26.4%
                                      BOR                               22.6%   67.7%       9.7%
                                      Departmental Offices                 .    66.7%      33.3%
                                      FWS                               22.7%   61.4%      15.9%
                                      MMS                               15.4%   46.2%      38.5%
                                      NPS                               23.9%   56.0%      20.1%
                                      OSM                                  .    40.0%      60.0%
                                      USGS                              5.9%    76.5%      17.6%

HUMAN RESOURCES PERSONNEL (Weighted Data)
                                                        26
HUMAN RESOURCES PERSONNEL (Weighted Data)
40) Are you aware of instances where no disciplinary action was taken
                                                                        Yes      No     I do not know
on the following? (Continued)
        Personal use of the Internet (beyond policy)
                                         DOI                            21.9%   58.2%      19.9%
                                         BIA                            23.1%   69.2%       7.7%
                                         BLM                            26.9%   51.9%      21.2%
                                         BOR                            21.9%   65.6%      12.5%
                                         Departmental Offices            6.7%   53.3%      40.0%
                                         FWS                            19.5%   64.5%      15.9%
                                         MMS                            15.4%   53.8%      30.8%
                                         NPS                            22.4%   56.0%      21.6%
                                         OSM                               .    40.0%      60.0%
                                         USGS                           17.6%   76.5%      5.9%
        Personal use of e-mail (beyond policy)
                                         DOI                            18.3%   57.6%      24.1%
                                         BIA                            21.4%   64.3%      14.3%
                                         BLM                            19.6%   52.9%      27.5%
                                         BOR                            31.3%   46.9%      21.9%
                                         Departmental Offices           13.3%   53.3%      33.3%
                                         FWS                            15.9%   61.4%      22.7%
                                         MMS                             7.7%   61.5%      30.8%
                                         NPS                            17.9%   57.5%      24.6%
                                         OSM                               .    40.0%      60.0%
                                         USGS                           5.9%    88.2%      5.9%
        Time and Leave abuse
                                         DOI                            41.1%   50.3%       8.5%
                                         BIA                            64.3%   35.7%         .
                                         BLM                            50.0%   38.5%      11.5%
                                         BOR                            43.8%   53.1%       3.1%
                                         Departmental Offices           13.3%   60.0%      26.7%
                                         FWS                            48.2%   45.4%       6.4%
                                         MMS                            30.8%   46.2%      23.1%
                                         NPS                            37.3%   54.5%       8.2%
                                         OSM                            20.0%   60.0%      20.0%
                                         USGS                           29.4%   70.6%         .
        Sexual harassment
                                         DOI                             9.5%   72.6%      17.9%
                                         BIA                            14.3%   57.1%      28.6%
                                         BLM                            11.3%   66.0%      22.6%
                                         BOR                             9.4%   84.4%       6.3%
                                         Departmental Offices              .    73.3%      26.7%
                                         FWS                             9.6%   74.1%      16.3%
                                         MMS                               .    61.5%      38.5%
                                         NPS                            9.7%    73.2%      17.1%
                                         OSM                            20.0%   60.0%      20.0%
                                         USGS                           5.9%    88.2%      5.9%

HUMAN RESOURCES PERSONNEL (Weighted Data)
                                                        27
HUMAN RESOURCES PERSONNEL (Weighted Data)
40) Are you aware of instances where no disciplinary action was taken
                                                                        Yes      No     I do not know
on the following? (Continued)
        Travel voucher fraud
                                         DOI                             9.3%   65.1%      25.6%
                                        BIA                             21.4%   57.1%      21.4%
                                        BLM                              5.7%   67.9%      26.4%
                                        BOR                             18.8%   65.6%      15.6%
                                        Departmental Offices             7.1%   64.3%      28.6%
                                        FWS                             15.9%   74.1%      10.0%
                                        MMS                             16.7%   66.7%      16.7%
                                        NPS                             6.9%    61.1%      32.0%
                                        OSM                                .    60.0%      40.0%
                                        USGS                            5.9%    76.5%      17.6%
        Working under the influence of alcohol
                                         DOI                            17.8%   63.9%      18.4%
                                        BIA                             42.9%   50.0%       7.1%
                                        BLM                             18.9%   58.5%      22.6%
                                        BOR                             21.9%   65.6%      12.5%
                                        Departmental Offices            13.3%   60.0%      26.7%
                                        FWS                             15.9%   67.7%      16.3%
                                        MMS                             15.4%   69.2%      15.4%
                                        NPS                             15.7%   65.0%      19.4%
                                        OSM                                .    75.0%      25.0%
                                        USGS                            11.8%   76.5%      11.8%
        Working under the influence of drugs
                                         DOI                            5.3%    69.7%      25.1%
                                        BIA                             7.1%    71.4%      21.4%
                                        BLM                             3.8%    71.2%      25.0%
                                        BOR                             9.7%    71.0%      19.4%
                                        Departmental Offices              .     66.7%      33.3%
                                        FWS                             3.2%    67.7%      29.1%
                                        MMS                               .     61.5%      38.5%
                                        NPS                             6.0%    67.9%      26.1%
                                        OSM                               .     60.0%      40.0%
                                        USGS                            5.9%    82.4%      11.8%
        Workplace violence
                                         DOI                             8.4%   73.0%      18.6%
                                        BIA                             14.3%   64.3%      21.4%
                                        BLM                              1.9%   73.6%      24.5%
                                        BOR                             12.9%   80.6%       6.5%
                                        Departmental Offices             6.7%   73.3%      20.0%
                                        FWS                                .    80.5%      19.5%
                                        MMS                                .    75.0%      25.0%
                                        NPS                             11.5%   69.3%      19.2%
                                        OSM                             20.0%   60.0%      20.0%
                                        USGS                            11.8%   82.4%      5.9%




                                                        28
HUMAN RESOURCES PERSONNEL (Weighted Data)
                                                                                                              The
                                                                           Reluctance     Reluctance
41) What factors deter supervisors in your   Cases will      Lack of                                      disciplinary
                                                                           to deal with   to deal with
servicing area from disciplining             be settled    support from                                   process is
                                                                               EEO           future
employees? (Select all that apply)            anyway       management                                      too time-
                                                                            complaints    grievances
                                                                                                          consuming
DOI                                            16.6%           39.5%          48.3%           46.4%         53.4%
BIA                                            13.3%           53.3%          33.3%           40.0%         60.0%
BLM                                            15.1%           39.6%          50.9%           49.1%         60.4%
BOR                                            15.6%           46.9%          56.3%           46.9%         37.5%
Departmental Offices                           20.0%           46.7%          66.7%           53.3%         46.7%
FWS                                            10.7%           46.4%          39.3%           28.6%         46.4%
MMS                                            23.1%           30.8%          61.5%           53.8%         38.5%
NPS                                            19.5%           40.7%          46.6%           50.4%         57.8%
OSM                                               .               .           60.0%              .          60.0%
USGS                                           11.8%           5.9%           41.2%           35.3%         35.3%
                                                                                          None of the
                                                                                                         I do not know
                                                                                            above
DOI                                                                                           15.1%          8.4%
BIA                                                                                           13.3%         6.7%
BLM                                                                                           13.2%         3.8%
BOR                                                                                           15.6%         6.3%
Departmental Offices                                                                          13.3%         20.0%
FWS                                                                                           17.9%         14.0%
MMS                                                                                           15.4%         7.7%
NPS                                                                                           14.3%         8.9%
OSM                                                                                              .          20.0%
USGS                                                                                          29.4%         11.8%

42) Please indicate your level of
                                                                        Neither
agreement (from strongly agree to strongly   Strongly                                          Strongly      I do not
                                                           Agree       Agree nor   Disagree
disagree) with the following statements       Agree                                            Disagree        know
                                                                       Disagree
about the DOI Table of Penalties

Contains a range of penalties that is appropriate
        DOI                                    22.3%       58.4%         7.3%        5.9%        0.6%         5.5%
       BIA                                      7.1%       50.0%         7.1%       28.6%          .          7.1%
       BLM                                     19.6%       64.7%         5.9%        3.9%          .         5.9%
       BOR                                     28.1%       56.3%         6.3%          .         3.1%        6.3%
       Departmental Offices                    21.4%       50.0%         7.1%        7.1%          .         14.3%
       FWS                                     23.5%       49.8%        13.2%        3.3%        3.3%         7.0%
       MMS                                     16.7%       66.7%           .         8.3%          .         8.3%
       NPS                                     20.3%       62.3%         6.5%       7.3%           .         3.6%
       OSM                                     60.0%       20.0%           .           .           .         20.0%
       USGS                                    41.2%       35.3%        17.6%          .           .         5.9%




                                                          29
HUMAN RESOURCES PERSONNEL (Weighted Data)
42) Please indicate your level of
agreement (from strongly agree to strongly                        Neither
                                                Strongly                                Strongly   I do not
disagree) with the following statements                  Agree   Agree nor   Disagree
                                                 Agree                                  Disagree     know
about the DOI Table of Penalties                                 Disagree
(Continued)
Contains adequate guidance on progressiveness of penalties
         DOI                                     18.6%   52.8%    11.2%        9.1%       2.5%      5.9%
        BIA                                       7.1%   35.7%     7.1%       28.6%      14.3%      7.1%
        BLM                                      19.6%   56.9%     7.8%        9.8%         .      5.9%
        BOR                                      21.9%   56.3%     6.3%       6.3%       3.1%      6.3%
        Departmental Offices                     20.0%   66.7%       .           .          .      13.3%
        FWS                                      20.2%   46.5%    13.2%        9.9%       3.3%      7.0%
        MMS                                       8.3%   66.7%     8.3%        8.3%         .      8.3%
        NPS                                      14.5%   55.8%    15.2%        8.0%      2.2%       4.4%
        OSM                                      60.0%   20.0%       .           .          .      20.0%
        USGS                                     41.2%   23.5%    11.8%       11.8%      5.9%      5.9%
Provides a list of charges that is specific enough
         DOI                                     13.9%   53.5%    12.7%       11.0%       2.2%      6.7%
        BIA                                         .    35.7%    21.4%       14.3%      21.4%      7.1%
        BLM                                      15.7%   54.9%    13.7%        9.8%         .       5.9%
        BOR                                      16.1%   64.5%     6.5%        3.2%      3.2%       6.5%
        Departmental Offices                     13.3%   60.0%       .         6.7%         .      20.0%
        FWS                                      16.5%   36.6%     9.9%       23.0%       3.3%     10.7%
        MMS                                       8.3%   58.3%    16.7%        8.3%         .       8.3%
        NPS                                      11.6%   57.3%    13.8%       12.3%      0.7%       4.4%
        OSM                                      20.0%   60.0%       .           .          .      20.0%
        USGS                                     29.4%   29.4%    17.6%        5.9%      5.9%      11.8%
Provides sufficient guidance on penalty selection
         DOI                                     15.3%   49.0%    15.5%        9.9%       3.6%      6.7%
        BIA                                         .    50.0%     7.1%       21.4%      14.3%      7.1%
        BLM                                      17.6%   51.0%    17.6%        5.9%       2.0%      5.9%
        BOR                                      12.5%   68.8%     3.1%        6.3%       3.1%      6.3%
        Departmental Offices                     20.0%   53.3%       .         6.7%         .      20.0%
        FWS                                      19.8%   36.6%    16.5%       13.2%       3.3%     10.7%
        MMS                                       8.3%   50.0%    25.0%        8.3%         .       8.3%
        NPS                                      13.0%   47.8%    18.8%       13.1%       2.9%      4.4%
        OSM                                      40.0%   40.0%       .           .          .      20.0%
        USGS                                     29.4%   29.4%    17.6%          .       11.8%     11.8%
Provides sufficient guidance on charge selection
         DOI                                     13.4%   50.1%    16.2%       10.5%       3.4%      6.4%
        BIA                                         .    42.9%       .        28.6%      21.4%      7.1%
        BLM                                      13.7%   49.0%    21.6%        7.8%      2.0%      5.9%
        BOR                                      12.5%   65.6%     6.3%        6.3%      3.1%      6.3%
        Departmental Offices                     13.3%   60.0%     6.7%          .          .      20.0%
        FWS                                      19.8%   26.7%    26.3%        9.9%       6.6%     10.7%
        MMS                                       8.3%   75.0%       .         8.3%         .      8.3%
        NPS                                      10.8%   50.7%    17.4%       13.8%      2.9%      4.4%
        OSM                                      40.0%   40.0%       .           .          .      20.0%
        USGS                                     31.3%   43.8%    18.8%          .          .      6.3%

                                                      30
HUMAN RESOURCES PERSONNEL (Weighted Data)
                                  Automated system Automated system Automated system
43) Does your office maintain any                                                         Manual log sheet
                                     for managing        for managing      for managing
of the following systems? (Select                                                       for recording formal
                                  formal disciplinary       informal          reported
all that apply)                                                                          disciplinary actions
                                         actions      disciplinary actions  misconduct
DOI                                    12.1%                7.3%               4.8%                  24.3%
BIA                                    33.3%               13.3%              13.3%                  20.0%
BLM                                     5.7%                1.9%                 .                   18.9%
BOR                                    37.5%               34.4%              21.9%                  34.4%
Departmental Offices                   13.3%                6.7%                 .                   33.3%
FWS                                     7.1%                  .                  .                   39.3%
MMS                                    69.2%               30.8%              23.1%                  15.4%
NPS                                    3.0%                1.5%               1.5%                   24.4%
OSM                                       .                   .                  .                   80.0%
USGS                                   23.5%               17.6%              11.8%                     .
                                         Manual log sheet for   Manual log sheet for
                                                                                       None of the     I do not
                                          recording informal     recording reported
                                                                                         above           know
                                         disciplinary actions       misconduct
DOI                                               18.0%               15.3%              46.1%         17.9%
BIA                                               13.3%                6.7%              20.0%         20.0%
BLM                                               15.1%               11.3%              47.2%         26.4%
BOR                                               21.9%               25.0%              18.8%         12.5%
Departmental Offices                              20.0%               13.3%              33.3%         20.0%
FWS                                               25.0%               14.3%              40.5%         21.0%
MMS                                               15.4%               15.4%               7.7%          7.7%
NPS                                               20.0%               17.8%              57.9%         16.0%
OSM                                               40.0%               40.0%                 .          20.0%
USGS                                                 .                   .               64.7%         5.9%
                                                         Supervisors
44) Which of the         HR provides    HR writes                       Supervisors    Supervisors
                                                       prepare letters
following scenarios best a template   letters based                    prepare letters   do not
                                                      from a standard                                  None of
describes how letters      letter for on facts given                   and send them involve HR
                                                        template and                                  the above
regarding disciplinary   supervisors        by                            to HR to       in the
                                                     send them to HR
actions are prepared?    to complete   supervisors                         review       process
                                                          to review
DOI                         9.9%          41.6%            29.0%          16.1%           0.6%           2.8%
BIA                        16.7%          58.3%             8.3%          16.7%             .              .
BLM                         3.8%          46.2%            34.6%          15.4%             .              .
BOR                         6.3%          50.0%            25.0%          18.8%             .              .
Departmental Offices          .           53.3%            26.7%          13.3%             .           6.7%
FWS                        25.5%          19.1%            38.3%          13.5%             .            3.6%
MMS                        15.4%          69.2%             7.7%             .              .           7.7%
NPS                        12.4%          34.3%            32.1%          15.3%           1.5%          4.3%
OSM                           .           40.0%            20.0%          20.0%             .           20.0%
USGS                          .           64.7%            5.9%           29.4%             .              .




                                                      31
HUMAN RESOURCES PERSONNEL (Weighted Data)
45) Please choose a response for each
                                                                                                       I do not
statement regarding how penalties for        Always         Often   Sometimes   Rarely      Never
                                                                                                         know
misconduct are selected
Supervisors select penalties for discipline without consulting HR
 DOI                                              0.2%         4.5%    12.2%     35.3%       40.2%        7.6%
BIA                                                  .        21.4%   35.7%      21.4%      14.3%         7.1%
BLM                                                  .           .    11.3%      41.5%      39.6%         7.5%
BOR                                                  .           .    25.0%      40.6%      28.1%         6.3%
Departmental Offices                                 .         6.7%   13.3%      26.7%      33.3%        20.0%
FWS                                                  .        10.2%   17.4%      23.8%      34.5%        14.0%
MMS                                               7.7%           .     7.7%      38.5%      30.8%        15.4%
NPS                                                  .        6.0%     8.3%      34.6%      45.1%         6.0%
OSM                                                  .           .        .      66.7%          .        33.3%
USGS                                                 .           .        .      31.3%      68.8%           .
Supervisors approach HR with an idea of an appropriate penalty for misconduct and determine the penalty in
consultation with HR
 DOI                                             26.4%        40.6%    19.4%      4.4%       3.1%         6.1%
BIA                                              15.4%        46.2%   30.8%         .           .         7.7%
BLM                                              20.8%        45.3%   22.6%       3.8%          .         7.5%
BOR                                              21.9%        53.1%   18.8%         .        3.1%         3.1%
Departmental Offices                             13.3%        46.7%       .      13.3%       6.7%        20.0%
FWS                                              30.0%        42.8%   20.2%       3.3%          .         3.7%
MMS                                              15.4%        69.2%    7.7%         .           .         7.7%
NPS                                              29.7%        34.1%   19.6%       5.8%       5.1%         5.7%
OSM                                              80.0%           .        .         .           .        20.0%
USGS                                             35.3%        35.3%   17.6%       5.9%       5.9%           .
HR makes a decision on the penalty without input from the supervisor
 DOI                                              0.7%         1.8%    4.1%      19.1%       67.7%        6.5%
BIA                                                  .           .     7.7%      53.8%      30.8%         7.7%
BLM                                                  .           .     3.8%      18.9%      69.8%         7.5%
BOR                                                  .         3.1%    3.1%      34.4%      56.3%         3.1%
Departmental Offices                                 .         6.7%       .      20.0%      53.3%        20.0%
FWS                                                  .           .     7.0%      18.1%      63.9%        11.0%
MMS                                                  .           .     7.7%         .       84.6%         7.7%
NPS                                               0.7%        3.0%     4.5%      14.2%      72.4%         5.2%
OSM                                                  .           .        .      33.3%      33.3%        33.3%
USGS                                              6.3%           .        .      12.5%      81.3%           .




                                                       32
HUMAN RESOURCES PERSONNEL (Weighted Data)
46) Excluding the Symposium on Employee and
Labor Relations (SOELR), when was the last time         Within the       1 to 2    3 or more                    I do not
                                                                                                    Never
you attended training on conduct and disciplinary       last year      years ago   years ago                      know
actions?
 DOI                                                     20.7%          26.2%       37.3%           13.2%         2.6%
BIA                                                      35.7%          21.4%       28.6%           14.3%           .
BLM                                                      17.0%          30.2%       34.0%           15.1%        3.8%
BOR                                                      25.0%          21.9%       50.0%            3.1%           .
Departmental Offices                                     26.7%          40.0%       26.7%            6.7%           .
FWS                                                      15.9%          29.5%       41.8%           12.8%           .
MMS                                                      15.4%          23.1%       53.8%            7.7%           .
NPS                                                      19.6%          22.5%       39.1%           15.2%         3.6%
OSM                                                      20.0%          40.0%       20.0%              .         20.0%
USGS                                                     29.4%          35.3%       17.6%           17.6%           .
47) Do you feel you need more training on conduct and disciplinary actions?                  Yes                No
 DOI                                                                                        66.1%              33.9%
BIA                                                                                         71.4%              28.6%
BLM                                                                                         69.8%              30.2%
BOR                                                                                         37.5%              62.5%
Departmental Offices                                                                        66.7%              33.3%
FWS                                                                                         53.5%              46.5%
MMS                                                                                         53.8%              46.2%
NPS                                                                                         74.9%              25.1%
OSM                                                                                         40.0%              60.0%
USGS                                                                                        58.8%              41.2%
48) Are most managers adequately trained in disciplinary actions?            Yes             No             I do not know
 DOI                                                                       20.2%            69.1%               10.7%
BIA                                                                         7.1%            85.7%                7.1%
BLM                                                                        20.8%            64.2%               15.1%
BOR                                                                        34.4%            59.4%                6.3%
Departmental Offices                                                       13.3%            66.7%               20.0%
FWS                                                                        13.1%            70.9%               15.9%
MMS                                                                        46.2%            38.5%               15.4%
NPS                                                                        18.4%            75.2%                6.4%
OSM                                                                        20.0%            40.0%               40.0%
USGS                                                                       17.6%            64.7%               17.6%
49) Does your office have sufficient staff to assist management with
                                                                            Yes                No           I do not know
disciplinary actions in a timely manner?
DOI                                                                        60.6%            34.8%               4.6%
BIA                                                                        28.6%            71.4%                 .
BLM                                                                        69.8%            26.4%               3.8%
BOR                                                                        84.4%            15.6%                 .
Departmental Offices                                                       33.3%            60.0%               6.7%
FWS                                                                        58.2%            32.3%               9.6%
MMS                                                                        84.6%             7.7%               7.7%
NPS                                                                        54.6%            41.9%               3.5%
OSM                                                                        40.0%            20.0%              40.0%
USGS                                                                       64.7%            23.5%              11.8%
50) What actions have been        Employees were allowed      Employees were Employees were Employees were
                                                         33
HUMAN RESOURCES PERSONNEL (Weighted Data)
taken with employees in lieu of   to resign with no indication detailed to other         relieved of        relieved of
discipline? (Select all that        of disciplinary action on       positions or           certain          supervisory
apply)                                     their record                offices         responsibilities       duties
DOI                                           54.0%                     36.2%              42.0%              31.7%
BIA                                           46.7%                    46.7%               33.3%              13.3%
BLM                                           47.2%                    37.7%               37.7%              24.5%
BOR                                           65.6%                    53.1%               68.8%              62.5%
Departmental Offices                          60.0%                    20.0%               20.0%               6.7%
FWS                                           65.7%                    46.4%               50.0%              50.0%
MMS                                           46.2%                     7.7%               23.1%              38.5%
NPS                                          51.8%                     35.0%               43.0%              28.9%
OSM                                               .                        .                   .                  .
USGS                                         76.5%                     17.6%               29.4%              35.3%
                                      Employees were           I am not aware of
                                                                                        None of the
                                    transferred to other      any actions taken in                        I do not know
                                                                                          above
                                  positions at same grade       lieu of discipline
DOI                                         38.3%                     15.2%                3.7%               6.2%
BIA                                         40.0%                    13.3%                   .                6.7%
BLM                                         49.1%                     11.3%                  .               11.3%
BOR                                         50.0%                     3.1%                 3.1%                 .
Departmental Offices                        33.3%                     13.3%                  .               20.0%
FWS                                         50.0%                     20.7%                3.6%               3.6%
MMS                                         30.8%                     15.4%                  .               15.4%
NPS                                         32.6%                    18.8%                 5.3%               4.3%
OSM                                            .                      60.0%               20.0%              20.0%
USGS                                        17.6%                    11.8%                11.8%                 .
51) Are supervisors adequately trained in disciplinary actions?              Yes                No          I do not know
DOI                                                                        19.4%               71.0%             9.5%
BIA                                                                         7.1%               85.7%             7.1%
BLM                                                                        17.3%               69.2%            13.5%
BOR                                                                        38.7%               54.8%             6.5%
Departmental Offices                                                        6.7%               80.0%            13.3%
FWS                                                                        13.1%               74.1%            12.8%
MMS                                                                        38.5%               38.5%            23.1%
NPS                                                                        18.6%               76.4%             5.0%
OSM                                                                        20.0%               40.0%            40.0%
USGS                                                                       17.6%               64.7%            17.6%
52) Have you worked with a manager (deciding official) on a discipline issue?                    Yes            No
DOI                                                                                             85.2%          14.8%
BIA                                                                                             78.6%          21.4%
BLM                                                                                             81.1%          18.9%
BOR                                                                                             87.5%          12.5%
Departmental Offices                                                                            86.7%          13.3%
FWS                                                                                             83.7%          16.3%
MMS                                                                                             84.6%          15.4%
NPS                                                                                             87.2%          12.8%
OSM                                                                                             80.0%          20.0%
USGS                                                                                            88.2%          11.8%
53) Thinking about the last time you worked with     Satisfied    Somewhat           Neither     Somewhat     Dissatisfied
                                                           34
HUMAN RESOURCES PERSONNEL (Weighted Data)
a manager (deciding official) on a discipline                     Satisfied    Satisfied Dissatisfied
issue, please rate the following items using the                                  nor
scale from satisfied to dissatisfied                                          Dissatisfied
         Amount of time it took for the manager to get back with you
                 DOI                                  49.2%        20.9%        13.1%       12.5%        4.3%
                 BIA                                  18.2%        27.3%        9.1%        27.3%       18.2%
                 BLM                                  50.0%        16.7%        19.0%        9.5%       4.8%
                 BOR                                  35.7%        28.6%        17.9%       17.9%          .
                 Departmental Offices                 53.8%        23.1%        15.4%          .        7.7%
                 FWS                                  44.5%        23.8%        15.8%       11.9%        4.0%
                 MMS                                  54.5%        27.3%           .         9.1%       9.1%
                 NPS                                  52.0%        19.5%        9.8%        14.6%       4.1%
                 OSM                                  25.0%        25.0%        50.0%          .           .
                 USGS                                 73.3%        20.0%         6.7%          .           .
         Courteousness of the manager
                 DOI                                  76.4%        10.3%         8.3%        2.9%       2.2%
                 BIA                                  54.5%        27.3%        18.2%          .          .
                 BLM                                  78.6%        11.9%         9.5%          .          .
                 BOR                                  70.4%        14.8%         3.7%        7.4%       3.7%
                 Departmental Offices                 69.2%        23.1%         7.7%          .          .
                 FWS                                  84.2%         7.9%         4.0%        4.0%         .
                 MMS                                  90.9%         9.1%           .           .          .
                 NPS                                  74.0%         8.1%        9.8%         4.0%       4.1%
                 OSM                                  75.0%           .         25.0%          .          .
                 USGS                               100.0%%           .            .           .          .
         Knowledge of misconduct and disciplinary topics
                 DOI                                  32.6%        29.5%        18.8%       14.6%        4.5%
                 BIA                                  27.3%        36.4%         9.1%       18.2%        9.1%
                 BLM                                  30.2%        34.9%        27.9%       7.0%           .
                 BOR                                  28.6%        50.0%        10.7%        7.1%        3.6%
                 Departmental Offices                 30.8%        23.1%        23.1%       15.4%       7.7%
                 FWS                                  20.0%        19.1%        30.5%       19.1%       11.4%
                 MMS                                  60.0%        10.0%           .        10.0%       20.0%
                 NPS                                  36.0%        23.8%        14.8%       20.5%        4.9%
                 OSM                                  25.0%        50.0%        25.0%          .           .
                 USGS                                 33.3%        33.3%        26.7%       6.7%           .
         Selection of penalty
                 DOI                                  45.9%        27.4%        13.2%        9.6%       3.8%
                 BIA                                   9.1%        63.6%        27.3%          .          .
                 BLM                                  44.2%        32.6%        16.3%       4.7%        2.3%
                 BOR                                  42.9%        32.1%         7.1%       14.3%       3.6%
                 Departmental Offices                 53.8%        15.4%        15.4%       7.7%        7.7%
                 FWS                                  48.5%        19.8%         7.9%       19.8%       4.0%
                 MMS                                  72.7%         9.1%         9.1%          .        9.1%
                 NPS                                  43.4%        26.3%        13.1%       12.3%       4.9%
                 OSM                                  50.0%        50.0%           .           .          .
                 USGS                                 80.0%         6.7%        13.3%          .          .



                                                          35
HUMAN RESOURCES PERSONNEL (Weighted Data)
53) Thinking about the last time you worked with                                  Neither
a manager (deciding official) on a discipline                     Somewhat       Satisfied   Somewhat
                                                     Satisfied                                            Dissatisfied
issue, please rate the following items using the                   Satisfied        nor      Dissatisfied
scale from satisfied to dissatisfied (Continued)                                Dissatisfied
         Timeliness in taking disciplinary actions
                 DOI                                  40.6%         21.3%          9.8%        17.4%         10.9%
                 BIA                                   9.1%         36.4%          9.1%        45.5%            .
                 BLM                                  37.2%         30.2%          9.3%        11.6%         11.6%
                 BOR                                  37.0%         22.2%          7.4%        22.2%         11.1%
                 Departmental Offices                 46.2%         15.4%          7.7%        15.4%         15.4%
                 FWS                                  31.4%         26.7%         15.2%        11.4%         15.2%
                 MMS                                  54.5%         18.2%            .         18.2%          9.1%
                 NPS                                  41.4%         16.3%         10.6%        19.5%         12.2%
                 OSM                                  50.0%         25.0%         25.0%           .             .
                 USGS                                 73.3%         13.3%          6.7%         6.7%            .

54) Have you worked with a supervisor (proposing official) on a discipline issue?            Yes             No
DOI                                                                                         84.3%           15.7%
BIA                                                                                         78.6%           21.4%
BLM                                                                                         83.0%           17.0%
BOR                                                                                         81.3%           18.8%
Departmental Offices                                                                        86.7%           13.3%
FWS                                                                                         79.8%           20.2%
MMS                                                                                         84.6%           15.4%
NPS                                                                                         87.1%           12.9%
OSM                                                                                         80.0%           20.0%
USGS                                                                                        82.4%           17.6%
55) Thinking about the last time you worked with                                  Neither
a supervisor (proposing official) on a discipline                  Somewhat      Satisfied   Somewhat
                                                      Satisfied                                           Dissatisfied
issue please rate the following items using the                     Satisfied       nor      Dissatisfied
scale from satisfied to dissatisfied                                            Dissatisfied
         Amount of time it took for the supervisor to get back with you
                 DOI                                   40.7%         30.5%         9.8%        14.7%          4.3%
                 BIA                                   18.2%         27.3%        9.1%         27.3%         18.2%
                 BLM                                   38.1%         35.7%        14.3%        11.9%            .
                 BOR                                   34.6%         38.5%        7.7%         15.4%          3.8%
                 Departmental Offices                  45.5%         36.4%        9.1%          9.1%            .
                 FWS                                   25.8%         33.0%        8.2%         20.6%         12.4%
                 MMS                                   54.5%         36.4%           .          9.1%            .
                 NPS                                   43.3%         25.9%        9.2%         16.6%         5.0%
                 OSM                                   50.0%         25.0%        25.0%           .             .
                 USGS                                  64.3%         28.6%        7.1%            .             .




                                                          36
HUMAN RESOURCES PERSONNEL (Weighted Data)
55) Thinking about the last time you worked with                              Neither
a supervisor (proposing official) on a discipline              Somewhat      Satisfied   Somewhat
                                                   Satisfied                                          Dissatisfied
issue please rate the following items using the                 Satisfied       nor      Dissatisfied
scale from satisfied to dissatisfied (Continued)                            Dissatisfied
         Courteousness of the supervisor
                 DOI                                71.3%       14.9%          7.5%         5.2%         1.1%
                 BIA                                36.4%       45.5%          9.1%         9.1%           .
                 BLM                                78.6%        9.5%          9.5%         2.4%           .
                 BOR                                65.4%       23.1%          3.8%         7.7%           .
                 Departmental Offices               72.7%        9.1%          9.1%         9.1%           .
                 FWS                                71.1%       12.4%          4.1%         8.2%         4.1%
                 MMS                                81.8%       18.2%            .            .            .
                 NPS                                67.8%       15.3%          9.3%         5.9%         1.7%
                 OSM                                75.0%       25.0%            .            .            .
                 USGS                              100.0%%         .             .            .            .
         Knowledge of misconduct and disciplinary topics
                 DOI                                25.8%       31.5%         19.3%        18.5%          5.0%
                 BIA                                   .        63.6%          9.1%        18.2%         9.1%
                 BLM                                23.8%       35.7%         31.0%        9.5%             .
                 BOR                                38.5%       26.9%          7.7%        26.9%            .
                 Departmental Offices               27.3%       27.3%         27.3%        9.1%          9.1%
                 FWS                                16.8%       19.8%         35.6%        15.8%         11.9%
                 MMS                                30.0%       60.0%            .         10.0%            .
                 NPS                                24.6%       28.8%         15.3%        23.7%          7.6%
                 OSM                                50.0%       25.0%            .         25.0%            .
                 USGS                               42.9%       28.6%         21.4%        7.1%             .
         Selection of penalty
                 DOI                                37.2%       33.7%         16.5%         9.3%          3.3%
                 BIA                                 9.1%       72.7%            .         9.1%           9.1%
                 BLM                                33.3%       38.1%         26.2%           .          2.4%
                 BOR                                44.0%       32.0%            .         20.0%          4.0%
                 Departmental Offices               45.5%       36.4%          9.1%        9.1%             .
                 FWS                                42.3%       33.0%          8.2%        4.1%          12.4%
                 MMS                                63.6%       27.3%            .         9.1%             .
                 NPS                                30.2%       32.8%         20.7%        13.8%          2.6%
                 OSM                                66.7%          .          33.3%           .             .
                 USGS                               85.7%       7.1%          7.1%            .             .
         Timeliness in taking disciplinary actions
                 DOI                                34.7%       26.1%         12.1%        18.1%          9.1%
                 BIA                                27.3%       27.3%            .         27.3%         18.2%
                 BLM                                32.5%       32.5%         12.5%        15.0%         7.5%
                 BOR                                34.6%       26.9%         15.4%        23.1%            .
                 Departmental Offices               45.5%       36.4%          9.1%         9.1%            .
                 FWS                                20.8%       39.6%         15.8%         7.9%         15.8%
                 MMS                                36.4%       45.5%            .          9.1%         9.1%
                 NPS                                30.8%       22.2%         12.8%        22.2%         12.0%
                 OSM                                50.0%       25.0%         25.0%           .             .
                 USGS                               85.7%          .          7.1%         7.1%             .


                                                        37
HUMAN RESOURCES PERSONNEL (Weighted Data)
56) Have you worked with a Solicitor’s Office attorney on a discipline issue?                 Yes            No
DOI                                                                                         56.7%           43.3%
BIA                                                                                         78.6%           21.4%
BLM                                                                                         48.1%           51.9%
BOR                                                                                         46.9%           53.1%
Departmental Offices                                                                        73.3%           26.7%
FWS                                                                                         60.6%           39.4%
MMS                                                                                         76.9%           23.1%
NPS                                                                                         58.0%           42.0%
OSM                                                                                         80.0%           20.0%
USGS                                                                                        52.9%           47.1%
57) Thinking about the last time you worked with                                  Neither
a Solicitors Office attorney on a discipline issue                 Somewhat      Satisfied   Somewhat
                                                      Satisfied                                           Dissatisfied
please rate the following items using the scale                     Satisfied       nor      Dissatisfied
from satisfied to dissatisfied                                                  Dissatisfied
         Amount of time it took for the attorney to get back with you
                  DOI                                   52.5%        25.9%         3.5%        13.2%          5.0%
                  BIA                                   27.3%        45.5%           .         18.2%          9.1%
                  BLM                                   42.3%        26.9%         3.8%        23.1%          3.8%
                  BOR                                   21.4%        35.7%         7.1%        21.4%         14.3%
                  Departmental Offices                  36.4%        54.5%           .          9.1%            .
                  FWS                                   42.1%        21.1%           .          5.3%         31.6%
                  MMS                                   50.0%        20.0%           .         30.0%            .
                  NPS                                   66.6%        19.8%         4.9%         8.6%            .
                  OSM                                   75.0%           .            .         25.0%            .
                  USGS                                  66.7%        33.3%           .            .             .
         Availability of the attorney
                  DOI                                   51.8%        24.2%         5.1%        12.9%          6.1%
                  BIA                                   27.3%        36.4%        9.1%         18.2%          9.1%
                  BLM                                   42.3%        34.6%        7.7%          7.7%         7.7%
                  BOR                                   14.3%        35.7%           .         35.7%         14.3%
                  Departmental Offices                  36.4%        45.5%           .         18.2%            .
                  FWS                                   38.9%        22.2%        11.1%         5.6%         22.2%
                  MMS                                   50.0%        20.0%           .         10.0%         20.0%
                  NPS                                   69.1%        13.6%        4.9%         11.1%          1.2%
                  OSM                                   50.0%        25.0%           .         25.0%            .
                  USGS                                  55.6%        33.3%           .         11.1%            .
         Courteousness of the attorney
                  DOI                                   74.8%        11.5%         8.1%         2.4%          3.2%
                  BIA                                   54.5%        27.3%         9.1%           .           9.1%
                  BLM                                   80.0%         4.0%         8.0%        8.0%             .
                  BOR                                   57.1%        28.6%         7.1%           .          7.1%
                  Departmental Offices                  90.9%         9.1%           .            .             .
                  FWS                                   58.8%        11.8%         5.9%           .          23.5%
                  MMS                                   70.0%        10.0%           .         10.0%         10.0%
                  NPS                                   81.0%        10.1%         7.6%         1.3%            .
                  OSM                                   75.0%           .         25.0%           .             .
                  USGS                                  66.7%        11.1%        22.2%           .             .

                                                          38
HUMAN RESOURCES PERSONNEL (Weighted Data)
57) Thinking about the last time you worked with                                  Neither
a Solicitors Office attorney on a discipline issue                Somewhat       Satisfied   Somewhat
                                                   Satisfied                                              Dissatisfied
please rate the following items using the scale                    Satisfied        nor      Dissatisfied
from satisfied to dissatisfied (Continued)                                      Dissatisfied
         Knowledge of misconduct and disciplinary topics
                  DOI                               62.8%          19.9%              5.7%      8.1%          3.5%
                  BIA                               36.4%          18.2%             18.2%     18.2%          9.1%
                  BLM                               53.8%          19.2%              7.7%     19.2%            .
                  BOR                               50.0%          28.6%              7.1%     14.3%            .
                  Departmental Offices              54.5%          45.5%                .         .             .
                  FWS                               33.3%          38.9%                .       5.6%         22.2%
                  MMS                               50.0%          20.0%             10.0%     20.0%            .
                  NPS                               80.0%          12.5%              3.8%      2.5%          1.3%
                  OSM                               75.0%          25.0%                .         .             .
                  USGS                              55.6%          22.2%             11.1%        .          11.1%
         Timeliness in responding to your request
                  DOI                               54.8%          22.6%              9.7%      8.9%          4.0%
                  BIA                               30.0%          40.0%             10.0%     10.0%         10.0%
                  BLM                               46.2%          26.9%              7.7%     15.4%         3.8%
                  BOR                               23.1%          23.1%             30.8%     15.4%         7.7%
                  Departmental Offices              45.5%          54.5%                .         .             .
                  FWS                               33.3%          27.8%              5.6%      5.6%         27.8%
                  MMS                               40.0%          20.0%             10.0%     30.0%            .
                  NPS                               71.6%          14.8%              7.4%      6.2%            .
                  OSM                               75.0%          25.0%                .         .             .
                  USGS                              55.6%          22.2%             22.2%        .             .
         Overall level of service
                  DOI                               57.4%          20.9%             10.8%      5.8%          5.1%
                  BIA                               30.0%          20.0%                .      40.0%         10.0%
                  BLM                               46.2%          26.9%             11.5%     7.7%           7.7%
                  BOR                               38.5%          23.1%             23.1%      7.7%          7.7%
                  Departmental Offices              45.5%          54.5%                .         .             .
                  FWS                               38.9%          33.3%              5.6%        .          22.2%
                  MMS                               44.4%          22.2%             22.2%     11.1%            .
                  NPS                               71.8%          12.8%             12.8%      2.6%            .
                  OSM                              100.0%%            .                 .         .             .
                  USGS                              66.7%          22.2%                .         .          11.1%
58) Do you personally have authority to settle cases related to
                                                                               Yes            No        I do not know
disciplinary actions?
DOI                                                                         8.9%             86.7%          4.4%
BIA                                                                        14.3%             78.6%          7.1%
BLM                                                                         5.7%             88.7%         5.7%
BOR                                                                        18.8%             81.3%            .
Departmental Offices                                                       13.3%             80.0%         6.7%
FWS                                                                        12.8%             80.9%          6.4%
MMS                                                                        15.4%             84.6%            .
NPS                                                                        7.8%              88.6%          3.6%
OSM                                                                           .              80.0%         20.0%
USGS                                                                          .              93.8%         6.3%
                                                          39
HUMAN RESOURCES PERSONNEL (Weighted Data)
59) Please indicate your level of agreement
with the following statement regarding                                   Neither
                                                  Strongly                                      Strongly    I do not
settlements -Judges persuade the Agency to                      Agree   Agree nor Disagree
                                                   Agree                                        Disagree      know
settle by suggesting that the penalty will be                           Disagree
decreased or overturned
DOI                                                13.5%        21.9%    22.4%      6.1%         2.6%        33.5%
BIA                                                14.3%        57.1%    14.3%        .          7.1%         7.1%
BLM                                                13.5%        21.2%    21.2%      5.8%         1.9%        36.5%
BOR                                                16.7%        26.7%    23.3%        .          6.7%        26.7%
Departmental Offices                               13.3%        20.0%    13.3%      6.7%           .         46.7%
FWS                                                22.3%        19.1%    13.1%      6.4%         3.2%        35.9%
MMS                                                23.1%        23.1%    15.4%     15.4%           .         23.1%
NPS                                                9.4%         18.1%    27.6%      6.5%         2.2%        36.2%
OSM                                                40.0%        20.0%       .      20.0%           .         20.0%
USGS                                               17.6%        23.5%    17.6%     11.8%           .         29.4%
60) Is the Solicitor’s Office adequately staffed to advise human
                                                                           Yes             No           I do not know
resources staff on disciplinary matters?
DOI                                                                       22.0%        26.7%               51.3%
BIA                                                                        7.1%        57.1%               35.7%
BLM                                                                       18.9%        24.5%               56.6%
BOR                                                                       19.4%        38.7%               41.9%
Departmental Offices                                                      20.0%        53.3%               26.7%
FWS                                                                       12.8%        47.8%               39.4%
MMS                                                                       15.4%        38.5%               46.2%
NPS                                                                       27.3%        15.8%               56.8%
OSM                                                                          .         40.0%               60.0%
USGS                                                                      29.4%        23.5%               47.1%
61) Does the Solicitor’s Office have the expertise to represent the
                                                                           Yes             No           I do not know
Agency in conduct-related personnel litigation?
DOI                                                                       49.4%         9.1%               41.5%
BIA                                                                       30.0%        20.0%               50.0%
BLM                                                                       41.5%        11.3%               47.2%
BOR                                                                       40.0%        13.3%               46.7%
Departmental Offices                                                      28.6%        21.4%               50.0%
FWS                                                                       54.6%        12.8%               32.7%
MMS                                                                       66.7%        16.7%               16.7%
NPS                                                                       55.7%         4.3%               40.0%
OSM                                                                       60.0%           .                40.0%
USGS                                                                      52.9%        11.8%               35.3%




                                                           40
HUMAN RESOURCES PERSONNEL (Weighted Data)
62) If you request assistance from the
                                                                    Only if the
Solicitor’s Office, under what conditions will                                                     I have never
                                                                    employee                                        I do not
the Solicitor’s Office represent the Agency         Always                              Never        requested
                                                                      has an                                          know
before the Merit System Protection Board                                                            assistance
                                                                     attorney
(MSPB)?
DOI                                                 41.0%              4.2%             0.2%            17.7%       36.9%
BIA                                                 50.0%              7.1%               .              7.1%       35.7%
BLM                                                 37.7%              1.9%               .             17.0%       43.4%
BOR                                                 45.2%              9.7%               .             12.9%       32.3%
Departmental Offices                                33.3%                .                .             33.3%       33.3%
FWS                                                 41.4%              3.2%             3.2%            12.8%       39.4%
MMS                                                 76.9%                .                .             15.4%       7.7%
NPS                                                 37.2%             3.6%                .             20.0%       39.2%
OSM                                                 60.0%                .                .             20.0%       20.0%
USGS                                                52.9%             11.8%               .             17.6%       17.6%
63) Does the Solicitor’s Office have the appropriate number of staff
                                                                                  Yes             No        I do not know
to represent the Agency in conduct-related personnel litigation?
DOI                                                                           15.2%             24.0%             60.8%
BIA                                                                            6.7%             53.3%             40.0%
BLM                                                                           15.1%             24.5%             60.4%
BOR                                                                           16.1%             25.8%             58.1%
Departmental Offices                                                          14.3%             42.9%             42.9%
FWS                                                                           15.9%             41.4%             42.6%
MMS                                                                            7.7%             38.5%             53.8%
NPS                                                                           17.2%             15.0%             67.8%
OSM                                                                              .              25.0%             75.0%
USGS                                                                          11.8%             23.5%             64.7%
64) Do you supervise other employees?                                                             Yes              No
DOI                                                                                              53.3%            46.7%
BIA                                                                                              40.0%            60.0%
BLM                                                                                              43.4%            56.6%
BOR                                                                                              41.4%            58.6%
Departmental Offices                                                                             46.7%            53.3%
FWS                                                                                              67.1%            32.9%
MMS                                                                                              46.2%            53.8%
NPS                                                                                              62.8%            37.2%
OSM                                                                                              40.0%            60.0%
USGS                                                                                             41.2%            58.8%


SOLICITOR ATTORNEYS
65) What is your area of                          Environmental                                                Land
specialization? (Select all that     Energy Law     and Natural         Fiscal Law          Indian Law      Management
apply)                                            Resources Law                                                Law
                                       15.1%            67.9%              5.7%                 32.1%         36.8%
Responses of all attorneys:                          Personnel
                                                                       Procurement          No area of
                                                   Litigation and                                                 Other
   (See below for responses of                                         and Patents         specialization
                                                    Civil Rights
attorneys who assist management
  on disciplinary matters at least                    27.4%                 8.5%                2.8%            17.9%
          once per year.)

                                                          41
SOLICITOR ATTORNEYS
65) What is your area of                         Environmental                                                  Land
specialization? (Select all that   Energy Law     and Natural            Fiscal Law           Indian Law     Management
apply)                                           Resources Law                                                  Law
                                     16.0%             60.0%                10.0%               30.0%           46.0%
Responses of attorneys who
assist management on                                Personnel
                                                                        Procurement         No area of
disciplinary matters at least                     Litigation and                                                 Other
                                                                        and Patents        specialization
once per year:                                     Civil Rights
                                                       58.0%                14.0%               40.0%           20.0%
66) How often do you assist                       1-4 times per        5-15 times per      More than 15
                                                                                                                Never
Bureau/Departmental management on                      year                 year          times per year
disciplinary matters? (Do not include                  22.9%                12.8%               11.9%           52.3%
disciplinary matters within SOL.)
                                                                                                             Reluctance to
                                             Cases will        Lack of         Reluctance to deal with
67) What factors deter supervisors from                                                                        deal with
                                             be settled      support from      EEO (equal employment
disciplining employees? (Select all that                                                                         future
                                              anyway         management        opportunity) complaints
apply)                                                                                                        grievances
                                                6.7%              25.0%               33.7%                     30.8%
                                                             The disciplinary process   None of the
                                                                                                             I do not know
                                                              is too time-consuming       above
                                                                       40.4%              4.8%                  41.3%
                                                                                                  Yes             No
68) Have you worked with a human resources staff member on a discipline issue?
                                                                                                 47.7%           52.3%
69) Thinking about the last time you worked with a                                    Neither
human resources staff member on a discipline                          Somewhat       Satisfied   Somewhat
                                                          Satisfied                                           Dissatisfied
issue, please rate the following items using the                       Satisfied        nor      Dissatisfied
scale from satisfied to dissatisfied                                                Dissatisfied
   Amount of time it took for the staff member to
                                                           71.2%        23.1%           1.9%         1.9%          1.9%
   get back with you
   Availability of the staff member                        69.2%        26.9%           1.9%         1.9%          0.0%
   Courteousness of the staff member                       84.6%        13.5%           0.0%         1.9%          0.0%
   Knowledge of misconduct and disciplinary
                                                           67.3%        23.1%           5.8%         3.8%          0.0%
   topics
   Timeliness in responding to your request                72.5%        15.7%           3.9%         3.9%          3.9%
   Overall level of service                                71.2%        17.3%           0.0%         11.5%         0.0%

                                                                                                                  No
                                                                                                  Yes
70) Have you worked with a manager (deciding official) on a discipline issue?
                                                                                                 42.2%           57.8%
71) Thinking about the last time you worked with a                                    Neither
manager (deciding official) on a discipline issue,                    Somewhat       Satisfied   Somewhat
                                                       Satisfied                                              Dissatisfied
please rate the following items using the scale                        Satisfied        nor      Dissatisfied
from satisfied to dissatisfied                                                      Dissatisfied
   Amount of time it took for the manager to get
                                                          71.7%        15.2%           8.7%          2.2%         2.2%
   back with you
   Courteousness of the manager                           82.6%         8.7%           4.3%          2.2%         2.2%
   Knowledge of misconduct and disciplinary
                                                          47.8%        21.7%          10.9%         17.4%         2.2%
   topics
   Selection of penalty                                   47.8%        26.1%           6.5%         13.0%         6.5%
   Timeliness in taking disciplinary actions              48.9%        22.2%           4.4%         15.6%         8.9%
                                                                                                     Yes           No
72) Have you worked with a supervisor (proposing official) on a discipline issue?
                                                                                                    38.5%         61.5%
                                                             42
SOLICITOR ATTORNEYS
73) Thinking about the last time you worked with                                       Neither
a supervisor (proposing official) on a discipline                     Somewhat        Satisfied   Somewhat
                                                        Satisfied                                              Dissatisfied
issue, please rate the following items using the                       Satisfied         nor      Dissatisfied
scale from satisfied to dissatisfied                                                 Dissatisfied
   Amount of time it took for the supervisor to
                                                          73.8%         14.3%             9.5%         0.0%          2.4%
   get back with you
   Courteousness of the supervisor                        78.6%         11.9%             7.1%         0.0%          2.4%
   Knowledge of misconduct and disciplinary
                                                          50.0%         16.7%             19.0%        9.5%          4.8%
   topics
   Selection of penalty                                   45.2%         26.2%             19.0%        4.8%          4.8%
   Timeliness in taking disciplinary actions              45.2%         31.0%             7.1%         9.5%          7.1%
74) Please indicate your level of agreement
                                                                               Neither
(from strongly agree to strongly disagree) with      Strongly                                           Strongly     I do not
                                                                    Agree     Agree nor Disagree
the following statements about the DOI Table          Agree                                             Disagree       know
                                                                              Disagree
of Penalties
    Contains a range of penalties that is
                                                       5.7%         30.5%          5.7%       1.9%        1.0%       55.2%
    appropriate
    Contains adequate guidance on
                                                       4.8%         21.9%          9.5%       5.7%        1.9%       56.2%
    progressiveness of penalties
    Provides a list of charges that is specific
                                                       2.9%         23.1%          9.6%       5.8%        1.9%       56.7%
    enough
    Provides sufficient guidance on penalty
                                                       3.8%         22.9%          6.7%       7.6%        2.9%       56.2%
    selection
    Provides sufficient guidance on charge
                                                       2.9%         19.0%          9.5%      10.5%        1.9%       56.2%
    selection
75) Please indicate your level of                                            Neither
                                                  Strongly                                             Strongly      I do not
agreement (from strongly agree to strongly                      Agree       Agree nor      Disagree
                                                   Agree                                               Disagree        know
disagree) with the following statement                                      Disagree
regarding settlements -- Judges persuade
the Agency to settle by suggesting that the
penalty will be decreased or overturned.
                                                   4.7%         21.5%         9.3%          8.4%         1.9%        54.2%
Responses of all attorneys:

Responses of attorneys who assist
management on disciplinary matters at          9.6%      36.5%       15.4%     15.4%                     3.8%        19.2%
least once per year:
76) Excluding the Symposium on Employee and          Within
                                                                              3 or more                              I do not
Labor Relations (SOELR), when was the last time     the last 1 to 2 years ago                            Never
                                                                              years ago                                know
you attended training on conduct and disciplinary     year
actions?                                             6.4%         14.7%         18.3%                    56.9%         3.7%
                                                                                                        Yes           No
77) Do you feel like you need more training on conduct and disciplinary actions?
                                                                                                       56.5%         43.5%
78) How much influence does the Solicitor’s Office            Significant     Some            Little       No        I do not
attorney have in the selection of a proposed penalty in       influence     influence      influence   influence       know
disciplinary actions related to misconduct?                     13.0%        23.1%           9.3%        1.9%        52.8%
79) When must your office                                          Only if the
                                                                                                          At our     I do not
represent the Department before       Always        If requested employee has an             Never
                                                                                                        discretion     know
the Merit Systems Protection                                        attorney
Board (MSPB) in disciplinary
cases?                                 30.6%           11.1%                1.9%             6.5%         0.9%        49.1%


                                                              43
SOLICITOR ATTORNEYS
                                                                                                                             I do not
80) Is your office adequately staffed to advise management on disciplinary matters?                  Yes         No
                                                                                                                               know
                                                                                                   25.9%        34.3%         39.8%
                                                                                                                             I do not
81) Does your office have adequate staff to represent the Agency in conduct-related                     Yes          No
                                                                                                                               know
personnel litigation?
                                                                                                     27.1%       37.4%        35.5%
82) How much influence does the Solicitor’s              Significant      Some             Little              No           I do not
Office attorney have in the selection of the             influence      influence       influence          influence          know
charge in disciplinary actions related to
misconduct?                                                14.8%            22.2%           7.4%              2.8%           52.8%
                                         I have litigated before       I have litigated before the
                                                                                                   I have litigated before the
                                           the Merit Systems               Equal Employment
                                                                                                     Office of Hearings and
                                            Protection Board           Opportunity Commission
83) Please indicate your litigation                                                                      Appeals (OHA)
                                                (MSPB)                            (EEOC)
experience in conduct-related
                                                 40.7%                              38.9%                            31.5%
disciplinary actions. (Select all that
apply)                                    I have assisted the Department of Justice/US                   I have never litigated an
                                         Attorneys in federal court litigation arising out of               appeal involving a
                                                     discipline-based actions                             conduct-related action
                                                                    30.6%                                            51.9%
                                                                                                                I have authority to
                                           I have no         I have complete        I have discretionary
                                                                                                                 settle cases only
                                         authority to       authority to settle       authority to settle
                                                                                                               with the consent of
                                          unilaterally      cases that do not          cases under a
84) What authority do you have to                                                                                my supervisors /
                                         settle cases           cost money           specific dollar limit
settle cases arising out of                                                                                         managers
disciplinary actions? (Select all           25.2%               0.9%                         9.3%                      10.3%
that apply)                               I have authority to settle cases                                     I do not know what
                                         only with the consent of Agency                     Other              authority I have to
                                                   management                                                      settle a case
                                                       31.8%                                 4.7%                      43.9%

                                                      Automated system Automated system for Manual log sheet
                                  Automated system
                                                      for managing non- managing settlements         for recording
85) Does your office maintain       for managing
                                                        conduct related       (conduct or non-     conduct related
any of the following systems?      conduct related
                                                            cases             conduct related)           cases
     (Select all that apply)            cases
                                        12.8%               12.8%                    5.5%                11.9%
                                   Manual log sheet for recording       Manual log sheet for     None of     I do not
                                     non-conduct related cases        recording all settlements the above      know
                                              11.9%                             4.6%              20.2%       58.7%
86) Does your office have the expertise to represent the Agency in             Yes                 No                I do not know
conduct-related personnel litigation?                                         68.5%               7.4%                    24.1%
                                                                                            Yes                        No
87) Do you supervise other employees?
                                                                                        22.9%                        77.1%




                                                               44
DEMOGRAPHICS
                                                                                           Minerals
                                 Bureau of        Bureau of Land        Bureau of                           National Park
88) Please indicate where                                                                 Management
you work.                      Indian Affairs      Management          Reclamation                            Service
                                                                                            Service
                                   12.0%              17.3%                9.5%              7.9%              14.4%
                               Office of Surface        U.S. Fish and             U.S. Geological      Other Departmental
                                    Mining              Wildlife Service              Survey                 Offices
                                      4.2%                     16.1%                   8.7%                  10.0%
89) Please indicate where                                        Regional                                         No
                               Field Office     Headquarters                  State Office          Other
you are located.                                                  Office                                       Response
DOI                              49.0%             13.1%          20.7%            6.8%         10.0%            0.4%
BIA                              51.0%              9.3%          28.5%            0.2%         10.5%            0.6%
BLM                              60.2%              4.4%           1.4%           25.2%         8.5%             0.3%
BOR                              42.2%              9.7%          30.9%           4.0%          12.6%            0.6%
Departmental Offices             54.1%              9.8%          23.6%           7.7%          4.9%             0.0%
FWS                              63.3%              8.7%          24.7%            0.6%          2.7%            0.1%
MMS                              24.3%             18.1%          49.4%           0.1%          8.0%             0.1%
NPS                              66.6%             14.5%           9.4%           0.2%          9.2%             0.2%
OSM                              42.3%             19.4%          27.2%           1.6%          8.6%             0.8%
USGS                             36.7%             11.7%          21.4%           20.9%         8.9%             0.4%
90) Please indicate how long      Less than 1                      6 to 10         11 to 20     Over 20           No
                                              1 to 5 years
you have worked for DOI.             year                           years           years        years         Response
DOI                                  2.3%        16.9%             10.4%            31.8%       38.3%            0.2%
BIA                                  2.0%        13.0%             11.2%            28.0%       45.5%            0.2%
BLM                                  2.5%        17.1%              7.5%            29.4%       43.1%            0.4%
BOR                                  3.3%        22.8%              9.9%            27.4%       36.4%            0.1%
Departmental Offices                 2.1%        16.4%             12.5%            33.3%       35.4%            0.2%
FWS                                  2.2%        20.3%             15.0%            33.5%       28.8%            0.1%
MMS                                  2.0%        17.8%              8.4%            33.7%       38.0%            0.1%
NPS                                  1.9%        11.5%             10.7%            35.0%       40.7%            0.3%
OSM                                  0.5%        12.4%              3.2%            42.9%       41.0%            0.0%
USGS                                 1.9%         9.1%              8.0%            33.0%       47.6%            0.4%
                                                  General         Senior      Wage Grade
91) Please indicate your pay     Executive                                                                        No
                                                  Schedule       Executive     (WG, WL,             Other
plan.                            Schedule                                                                      Response
                                                    (GS)          Service        etc.)
DOI                                 0.3%           92.8%           0.4%          4.6%               1.6%         0.4%
BIA                                 0.5%           88.0%           0.7%          8.6%               2.0%         0.3%
BLM                                 0.1%           95.6%           0.2%          2.9%               0.5%         0.6%
BOR                                 0.5%           87.1%           0.5%          5.7%               6.0%         0.2%
Departmental Offices                4.8%            1.6%          12.7%         73.0%               0.0%         7.9%
FWS                                 0.1%           96.5%           0.4%          2.6%               0.3%         0.1%
MMS                                 0.1%           96.4%           0.4%          2.4%               0.4%         0.1%
NPS                                 0.2%           87.0%           0.1%         10.9%               1.5%         0.3%
OSM                                 0.0%           99.2%           0.0%          0.0%               0.5%         0.3%
USGS                                0.3%           97.0%           0.3%          1.0%               1.0%         0.4%




                                                           45
